APPENDIX
Court of appeals order granting in part and
denying in part stay pending certiorari
(9th Cir. March 4, 2020) .................................. 1a
Court of appeals opinion affirming preliminary
injunction (9th Cir. February 28, 2020) .................. 14a
Court of appeals opinion granting stay pending
appeal (9th Cir. May 7, 2019) ............................ 71a
District court order granting preliminary
injunction (N.D. Cal. April 8, 2019) .................... 105a
Declaration of Ambassador Christopher Landau
(February 28, 2020)..................................... 132a
Declaration of Robert E. Perez
(February 28, 2020)..................................... 134a
Supplemental Declaration of Robert E. Perez
(March 3, 2020) ........................................ 138a
Declaration of Valerie S. Boyd
(March 3, 2020) ........................................ 146a
Declaration of Enrique M. Lucero
(March 3, 2020) ........................................ 150a
Declaration of Rodney S. Scott
(March 5, 2020) ........................................ 157a

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 1 of 13

FILED
FOR PUBLICATION
UNITED STATES COURT OF APPEALS

MAR 4 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

INNOVATION LAW LAB; CENTRAL
AMERICAN RESOURCE CENTER OF
NORTHERN CALIFORNIA; CENTRO
LEGAL DE LA RAZA; UNIVERSITY
OF SAN FRANCISCO SCHOOL OF
LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL
OTRO LADO; TAHIRIH JUSTICE
CENTER,
Plaintiffs-Appellees,
v.
CHAD F. WOLF, Acting Secretary of
Homeland Security, in his official
capacity; U.S. DEPARTMENT OF
HOMELAND SECURITY; KENNETH T.
CUCCINELLI, Director, U.S. Citizenship
and Immigration Services, in his official
capacity; ANDREW DAVIDSON, Chief
of Asylum Division, U.S. Citizenship and
Immigration Services, in his official
capacity; UNITED STATES
CITIZENSHIP AND IMMIGRATION
SERVICES; TODD C. OWEN, Executive
Assistant Commissioner, Office of Field
Operations, U.S. Customs and Border
Protection, in his official capacity; U.S.
CUSTOMS AND BORDER
PROTECTION; MATTHEW ALBENCE,
Acting Director, U.S. Immigration and

(1a)

No. 19-15716
D.C. No. 3:19-cv-00807-RS
Northern District of California,
San Francisco
ORDER

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 2 of 13
2a

Customs Enforcement, in his official
capacity; US IMMIGRATION AND
CUSTOMS ENFORCEMENT,
Defendants-Appellants.
Before: FERNANDEZ, W. FLETCHER, and PAEZ, Circuit Judges.
This court issued its opinion in Innovation Law Lab v. Wolf, No. 19-15716,
on Friday, February 28, 2020, affirming the district court’s injunction against
implementation and expansion of the Migrant Protection Protocols (“MPP”). That
same day, the Government filed an emergency motion requesting either a stay
pending disposition of a petition for certiorari to the Supreme Court or an
immediate administrative stay. That evening, we granted an administrative stay,
along with an accelerated schedule for briefs addressing the request for a longerlasting stay. We received a brief from Plaintiffs-Appellants on Monday, March 2;
we received a reply brief from the Government on Tuesday, March 3. For the
reasons that follow, we grant in part and deny in part the requested stay.
With respect to the merits of our holding that the MPP violates federal law,
we deny the requested stay. With respect to the scope of injunctive relief, we grant
in part and deny in part the requested stay.

2

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 3 of 13
3a

I. Merits
The MPP requires that all asylum seekers arriving at our southern border
wait in Mexico while their asylum applications are adjudicated. The MPP clearly
violates 8 U.S.C. §§ 1225(b) and 1231(b).
A. 8 U.S.C. § 1225(b)
Section 1225(b) divides aliens applying for asylum into two categories:
“[A]pplicants for admission fall into one of two categories, those covered by §
1225(b)(1) and those covered by § 1225(b)(2).” Jennings v. Rodriguez, 138 S. Ct.
830, 837 (2018).
Section (b)(1) applicants are those who have no documents or fraudulent
documents. In fleeing persecution in their home countries, typical bona fide
asylum seekers have either fraudulent documents or no documents at all.
Section (b)(2) applicants are “all other” applicants. Section (b)(2) applicants
include spies, terrorists, alien smugglers, and drug traffickers.
Section 1225 specifies different procedures for the two categories of
applicants. Section (b)(1) applicants who have expressed a “credible fear” of
persecution have a right to remain in the United States while their applications are
adjudicated. Section (b)(2) applicants do not have that right. Subsection (b)(2)(C)
specifically authorizes the Attorney General to require § (b)(2) applicants to wait in
3

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 4 of 13
4a

Mexico while their asylum applications are adjudicated. There is no subsection in
§ (b)(1) comparable to subsection (b)(2)(C).
It is easy to understand why § (b)(1) and § (b)(2) applicants are treated
differently. Section (b)(1) applicants pose little threat to the security of the United
States. By contrast, § (b)(2) applicants potentially pose a severe threat.
The MPP applies subsection (b)(2)(C) to § (b)(1) applicants. There is no
legal basis for doing so.
B. 8 U.S.C. § 1231(b)
Section 1231(b), previously codified as § 1253(h), was enacted in 1980 to
implement our treaty-based obligation to avoid “refoulement” of refugees.
Refoulement is the act of sending refugees back to the dangerous countries from
which they have come. Section 1231(b) provides, “[T]he Attorney General may
not remove an alien to a country if the Attorney General decides that the alien’s
life or freedom would be threatened in that country because of the alien’s race,
religion, nationality, membership in a particular social group, or political opinion.”
Under the MPP, an asylum officer screening asylum seekers is not allowed
to ask whether they fear that their “life or freedom would be threatened” upon
being returned to Mexico. The MPP requires asylum seekers—untutored in
asylum law—to volunteer that they fear being returned to Mexico, even though
4

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 5 of 13
5a

they are not told that the existence of such fear could protect them from being
returned.
Uncontradicted evidence in the record shows not only that asylum officers
implementing the MPP do not ask whether asylum seekers fear returning to
Mexico. It also shows that officers actively prevent or discourage applicants from
expressing such a fear, and that they ignore applicants who succeed in doing so.
For example, Alex Doe, a plaintiff in this case, wrote in a sworn declaration,
“When I tried to respond and explain [why I had left Honduras] the officer told me
something like, ‘you are only going to respond to the questions I ask you, nothing
more.’” Frank Doe, another plaintiff, wrote in a sworn declaration, “He never
asked me if I was afraid of returning to Mexico. At one point, I had to interrupt
him to explain that I didn’t feel safe in Mexico. He told me that it was too bad. He
said that Honduras wasn’t safe, Mexico wasn’t safe, and the U.S. isn’t safe either.”
Uncontradicted evidence also shows that there is extreme danger to asylum
seekers who are returned to Mexico. For example, Howard Doe, a plaintiff, wrote
in a sworn declaration: “While I was in Tijuana, two young Honduran men were
abducted, tortured and killed. . . . On Wednesday, January 30, 2019, I was
attacked and robbed by two young Mexican men. . . . They . . . told me that they
knew I was Honduran and that if they saw me again, they would kill me.” Ian Doe,
5

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 6 of 13
6a

another plaintiff, wrote in a sworn declaration, “I am not safe in Mexico. I am
afraid that the people who want to harm me in Honduras will find me here.”
Dennis Doe, another plaintiff, had fled the gang “MS-13” in Honduras. He wrote
in a sworn declaration, “In Tijuana, I have seen people who I believe are MS-13
gang members on the street and on the beach. . . . I know that MS-13 were
searching for people who tried to escape them . . . . This makes me afraid that the
people who were trying to kill me in Honduras will find me here.” Kevin Doe,
another plaintiff, had fled MS-13 in Honduras because of his work as an
Evangelical Christian minister. He wrote in a sworn declaration, “[When I was
returned to Mexico from the United States], I was met by a large group of reporters
with cameras. . . . I was afraid that the MS-13 might see my face in the news. . . .
They are a powerful, ruthless gang and have members in Tijuana too.”
It is clear from the text of the MPP, as well as from extensive and
uncontradicted evidence in the record, that the MPP violates the anti-refoulement
obligation embodied in § 1231(b).
C. Stay with Respect to the Merits
Two of the three judges on our panel, Judges W. Fletcher and Paez, held that
the MPP clearly violates both §§ 1225(b) and 1231(b). The third judge, Judge
Fernandez, did not independently reach the question whether the MPP violates

6

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 7 of 13
7a

those sections. Judge Fernandez dissented from the panel’s decision based on a
point of appellate procedure.
Because the MPP so clearly violates §§ 1225(b) and 1231(b), and because
the harm the MPP causes to plaintiffs is so severe, we decline to stay our opinion
pending certiorari proceedings in the Supreme Court, except as noted below with
respect to the scope of the injunction.
II. Scope of the Injunction
The district court enjoined the Government from continuing to implement or
expand the MPP, and required the Government to allow the named individual
plaintiffs to enter the United States to pursue their applications for asylum. The
injunction provides as follows:
Defendants are hereby enjoined and restrained from continuing to
implement or expand the “Migrant Protection Protocols” as announced
in the January 25, 2018 DHS policy memorandum and as explicated in
further agency memoranda. Within 2 days of the effective date of this
order, defendants shall permit the named individual plaintiffs to enter the
United States. At defendants’ option, any named plaintiff appearing at
the border for admission pursuant to this order may be detained or
paroled, pending adjudication of his or her admission application.
Innovation Law Lab v. Nielsen, 366 F. Supp. 3d 1110, 1130–31 (N.D. Cal. 2019).
When suit was filed in the district court, the MPP had been applied only at the
designated port of entry at San Ysidro, California. There are eleven named
individual plaintiffs.
7

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 8 of 13
8a

Because the district court’s order was stayed pending appeal, the
Government expanded the scope of the MPP. The MPP is now in effect in the four
states along our southern border with Mexico. Two of those states, California and
Arizona, are in the Ninth Circuit. New Mexico is in the Tenth Circuit. Texas is in
the Fifth Circuit.
For the reasons explained in our opinion, Ninth Circuit case law requires that
we affirm the scope of the district court’s injunction. Plaintiffs challenge the MPP
as inconsistent with § 706(2) of the Administrative Procedure Act, which directs a
reviewing court that has found an agency action “unlawful” to “set aside” that
action. 5 U.S.C. § 706(2). Section 706(2) does not tell a reviewing circuit court to
“set aside” the unlawful agency action only within the geographic boundaries of
that circuit. Further, there is a special need for uniformity in immigration cases, as
recognized both by our court and by the Fifth Circuit. See Regents of the Univ. of
Cal. v. U.S. Dep’t of Homeland Sec., 908 F. 3d 476, 511 (9th Cir. 2018); Texas v.
United States, 809 F.3d 134, 187–88 (5th Cir. 2015), aff’d by an equally divided
Court, 136 S. Ct. 2271 (2016)
However, we recognize that the proper scope of injunctions against agency
action is a matter of intense and active controversy. Dep’t of Homeland Sec. v.
New York, 140 S. Ct. 599, 600–01 (2020) (Gorsuch, J., concurring); Trump v.

8

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 9 of 13
9a

Hawaii, 138 S. Ct. 2392, 2424–29 (2018) (Thomas, J., concurring); see also Wolf
v. Cook Cty., Ill., 140 S. Ct. 681, 681–82 (2020) (Sotomayor, J., dissenting).
While we regard the merits of our decision under §§ 1225(b) and 1231(b) as
clearly correct, we do not have the same level of confidence with respect to the
scope of the injunction entered by the district court. We therefore stay the
injunction insofar as it operates outside the geographical boundaries of the Ninth
Circuit.
III. Declarations Filed in Connection with the Government’s
Motion to Stay Pending Disposition of a Petition for Certiorari
The Government’s motion for stay and reply brief include several sworn
declarations. The United States Ambassador to Mexico writes, “The panel’s
decision, unless stayed, will have an immediate and severely prejudicial impact on
the bilateral relationship between the United States and Mexico.” The Assistant
Secretary for International Affairs for the U.S. Department of Homeland Security
writes, “MPP was a carefully negotiated solution with the Government of Mexico.”
She writes further, “The suspension of MPP undermines almost two years’ worth
of diplomatic engagement with the Government of Mexico through which a
coordinated and cohesive immigration control program has been developed.” The
Deputy Commissioner of U.S. Customs and Border Protection writes that
enforcement of the district court’s injunction will cause substantial disruption at
9

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 10 of 13
10a

our ports of entry and will cost substantial amounts of money. He writes further
that on Friday, the day our decision was announced, large groups of aliens sought
admission to the United States at various points along the border. The Executive
Associate Director of Enforcement and Removal Operations for U.S. Immigration
and Customs Enforcement writes, “[I]f MPP is discontinued, approximately 25,000
individuals enrolled in MPP who remain in Mexico may soon arrive in the United
States seeking admission. . . . [I]f [Customs and Border Protection] is required to
process approximately 25,000 inadmissible aliens in an extremely short timeframe
and then transfer those aliens to [Immigration and Customs Enforcement] custody,
it would overload [Enforcement and Removal Operations’] already burdened
resources and create significant adverse implications for public safety and the
integrity of the United States immigration system.”
The Plaintiffs-Appellants’ brief responding to the Government’s motion
includes two sworn declarations. Mexico’s Ambassador to the United States from
2007 to 2013 writes, “The government of Mexico has consistently stated that MPP
is a policy unilaterally imposed by the U.S. government. To the extent Mexico
agreed to the policy, it was upon threat of heavy and unprecedented tariffs.” He
writes, further, “I reject the notion that this Court’s determination that MPP is
likely unlawful will harm our two nations’ relationship. Rather, it is MPP

10

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 11 of 13
11a

itself—and the way the current administration is conducting policy towards
Mexico—that is particularly detrimental to the bilateral relationship between the
United States and Mexico.” An expert on border and immigration issues writes
that it is the MPP that has created chaos at our southern border, and that the MPP
has not had a significant effect in reducing the flow of immigrants into the United
States.
We are not in a position to assess the accuracy of these statements.
Conclusion
If the law were less clear—that is, if there were any serious possibility that
the MPP is consistent with §§ 1225(b) and 1231(b)—we would stay the district
court’s injunction in its entirety pending disposition of the Government’s petition
for certiorari. However, it is very clear that the MPP violates §§ 1225(b) and
1231(b), and it is equally clear that the MPP is causing extreme and irreversible
harm to plaintiffs.
We stay, pending disposition of the Government’s petition for certiorari, the
district court’s injunction insofar as it operates outside the Ninth Circuit. We
decline to stay, pending disposition of the Government’s petition for certiorari, the
district court’s injunction against the MPP insofar as it operates within the Ninth
Circuit.

11

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 12 of 13
12a

The Government has requested in its March 3 reply brief, in the event we
deny any part of their request for a stay, that we “extend the [administrative] stay
by at least seven days, to March 10, to afford the Supreme Court an orderly
opportunity for review.” We grant the Government’s request and extend our
administrative stay entered on Friday, February 28, until Wednesday, March 11. If
the Supreme Court has not in the meantime acted to reverse or otherwise modify
our decision, our partial grant and partial denial of the Government’s request for a
stay of the district court’s injunction, as described above, will take effect on
Thursday, March 12.

So ordered on March 4, 2020.

12

Case: 19-15716, 03/04/2020, ID: 11618488, DktEntry: 96, Page 13 of 13
13a

Innovation Law Lab v. Wolf, No. 19-15716

FILED
MAR 4 2020

C. DWYER, CLERK
FERNANDEZ, Circuit Judge, concurring in part and dissenting in part:MOLLY
U.S. COURT OF APPEALS

I would grant in full the government’s emergency motion for a stay of the
district court’s injunction pending disposition of a petition for certiorari to the
Supreme Court. Thus, I concur in the order to the extent that it grants the
requested stay. I also concur in the order’s extension of our administrative stay
until Wednesday, March 11. I respectfully dissent from the order to the extent that
it denies the stay.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 1 of 57
14a

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INNOVATION LAW LAB; CENTRAL
AMERICAN RESOURCE CENTER OF
NORTHERN CALIFORNIA; CENTRO
LEGAL DE LA RAZA; UNIVERSITY OF
SAN FRANCISCO SCHOOL OF LAW
IMMIGRATION AND DEPORTATION
DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER,
Plaintiffs-Appellees,
v.
CHAD WOLF, Acting Secretary of
Homeland Security, in his official
capacity; U.S. DEPARTMENT OF
HOMELAND SECURITY; KENNETH T.
CUCCINELLI, Acting Director, U.S.
Citizenship and Immigration
Services, in his official capacity;
ANDREW DAVIDSON, Acting Chief
of Asylum Division, U.S.
Citizenship and Immigration
Services, in his official capacity;
UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; TODD C.
OWEN, Executive Assistant
Commissioner, Office of Field
Operations, U.S. Customs and
Border Protection, in his official

No. 19-15716
D.C. No.
3:19-cv-00807RS
OPINION

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 2 of 57
15a

2

INNOVATION LAW LAB V. WOLF

capacity; U.S. CUSTOMS AND
BORDER PROTECTION; MATTHEW T.
ALBENCE, Acting Director, U.S.
Immigration and Customs
Enforcement, in his official capacity;
U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT,
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of California
Richard Seeborg, District Judge, Presiding
Argued and Submitted October 1, 2019
San Francisco, California
Filed February 28, 2020
Before: Ferdinand F. Fernandez, William A. Fletcher,
and Richard A. Paez, Circuit Judges.
Opinion by Judge W. Fletcher;
Dissent by Judge Fernandez

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 3 of 57
16a

INNOVATION LAW LAB V. WOLF

3

SUMMARY*

Immigration /Preliminary Injunctions
The panel affirmed the district court’s grant of a
preliminary injunction setting aside the Migrant Protection
Protocols (“MPP”), under which non-Mexican asylum
seekers who present themselves at the southern border of the
United States are required to wait in Mexico while their
asylum applications are adjudicated.
After the MPP went into effect in January 2019,
individual and organizational plaintiffs sought an injunction,
arguing, inter alia, that the MPP is inconsistent with the
Immigration and Nationality Act (“INA”), and that they have
a right to a remedy under the Administrative Procedure Act
(“APA”). The district court issued a preliminary injunction
setting aside the MPP.
The Government appealed and requested an emergency
stay in this court pending appeal. In three written opinions,
a motions panel unanimously granted the emergency stay. In
a per curiam opinion, the motions panel disagreed, by a vote
of two to one, with the district court’s holding that plaintiffs
were likely to succeed in their statutory argument that the
MPP is inconsistent with 8 U.S.C. § 1225(b). Judge Watford
concurred in that opinion, but wrote separately to express
concern that the MPP is arbitrary and capricious because it
lacks sufficient non-refoulement protections. Judge Fletcher

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.
*

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 4 of 57
17a

4

INNOVATION LAW LAB V. WOLF

concurred only in the result, arguing that the MPP was
inconsistent with 8 U.S.C. § 1225(b).
The current panel first noted that the individual plaintiffs,
all of whom have been returned to Mexico under the MPP,
obviously have standing. The panel also concluded that the
organizational plaintiffs have standing, noting their decreased
ability to carry out their core missions as well as diversion of
their resources.
Addressing the question of whether a merits panel is
bound by the analysis of a motions panel on a question of
law, the panel followed East Bay Sanctuary Covenant v.
Trump, Nos. 18-17274 and 18-17436 (9th Cir. Feb. 28, 2020),
argued on the same day as this case, in which the court held
that a motions panel’s legal analysis, performed during the
course of deciding an emergency motion for a stay, is not
binding on later merits panels. The panel also concluded that,
even if a merits panel may be bound in some circumstances
by a motions panel, this panel would not be bound: two of the
three judges on the motions panel disagreed in part with the
Government’s legal arguments in support of the MPP, and the
panel’s per curiam opinion did not purport to decide
definitively the legal questions presented. In this respect, the
panel noted that Judge Fletcher specifically addressed the
effect of the legal analysis of the motions panel and expressed
the hope that the merits panel, with the benefit of full briefing
and argument, would decide the legal questions differently.
On the merits, the panel concluded that plaintiffs had
shown a likelihood of success on their claim that the returnto-Mexico requirement of the MPP is inconsistent with
§ 1225(b). The Government argued that the MPP is
authorized by § 1225(b)(2), which provides that, for certain

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 5 of 57
18a

INNOVATION LAW LAB V. WOLF

5

aliens arriving on land from a foreign territory contiguous to
the United States, the Attorney General may return the aliens
to that territory pending removal proceedings. Plaintiffs
argued, however, that they were arriving aliens under
§ 1225(b)(1), rather than under § 1225(b)(2), and pointed out
that there is a contiguous territory return provision in § (b)(2),
but no such provision in § (b)(1).
The panel agreed, explaining that there are two distinct
categories of “applicants for admission” under § 1225. First,
there are applicants described under § 1225(b)(1), who are
inadmissible based on either of two grounds, both of which
relate to their documents or lack thereof. Such applicants
may be placed in either expedited removal proceedings or
regular removal proceedings under § 1229a. Second, there
are applicants described under § 1225(b)(2), who are, in the
words of the statute, “other aliens,” “to whom paragraph
[(b)](1)” does not apply; that is, § (b)(2) applicants are those
who are inadmissible on grounds other than the two specified
in § (b)(1). Such applicants are placed in regular removal
proceedings. The panel noted that both § (b)(1) and § (b)(2)
applicants can be placed in regular removal proceedings
under § 1229a, though by different routes, but concluded that
a § (b)(1) applicant does not become a § (b)(2) applicant, or
vice versa, by virtue of being placed in a removal proceeding
under § 1229a.
Addressing the precise statutory question posed by the
MPP, the panel held that a plain-meaning reading of
§ 1225(b)—as well as the Government’s longstanding and
consistent practice—made clear that a § (b)(1) applicant may
not be “returned” to a contiguous territory under
§ 1225(b)(2)(C), which is a procedure specific to a § (b)(2)
applicant.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 6 of 57
19a

6

INNOVATION LAW LAB V. WOLF

The panel next concluded that plaintiffs had shown a
likelihood of success on their claim that the MPP does not
comply with the United States’ treaty-based non-refoulement
obligations codified at 8 U.S.C. § 1231(b). The panel
explained that refoulement occurs when a government returns
aliens to a country where their lives or liberty will be
threatened on account of race, religion, nationality,
membership of a particular social group, or political opinion.
Further, the United States is obliged by treaty—namely, the
1951 United Nations Convention Relating to the Status of
Refugees and the 1967 United Nations Protocol Relating to
the Status of Refugees—and implementing statute—namely,
§ 1231(b)—to protect against refoulement of aliens arriving
at the country’s borders.
Plaintiffs argued that the MPP provides insufficient
protection against refoulement. First, under the MPP, to stay
in the United States during proceedings, an asylum seeker
must show that it is “more likely than not” that he or she will
be persecuted in Mexico, but that standard is higher than the
ordinary standing in screening interviews, in which aliens
need only establish a “credible fear,” which requires only a
“significant possibility” of persecution. Second, an asylum
seeker under the MPP is not entitled to advance notice of, and
time to prepare for, the hearing with the asylum officer; to
advance notice of the criteria the asylum officer will use; to
the assistance of a lawyer during the hearing; or to any review
of the asylum officer’s determination. Third, an asylum
officer acting under the MPP does not ask an asylum seeker
whether he or she fears returning to Mexico; instead, asylum
seekers must volunteer, without any prompting, that they fear
returning. The Government disagreed with plaintiffs on the
grounds that: 1) § 1231(b) does not encompass a general non-

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 7 of 57
20a

INNOVATION LAW LAB V. WOLF

7

refoulement obligation; and 2) the MPP satisfies nonrefoulement obligations by providing sufficient procedures.
The panel rejected both arguments. With respect to the
second argument, the panel noted that the Government
pointed to no evidence supporting its speculations either that
aliens will volunteer that they fear returning to Mexico, or
that there is little danger to non-Mexican aliens in Mexico.
The panel also noted that the Government provided no
evidence to support its claim that any violence that returned
aliens face in Mexico is unlikely to be violence on account of
a protected ground. Further, the panel quoted numerous
sworn declarations to the district court that directly
contradicted the unsupported speculations of the Government.
Addressing the other preliminary injunction factors, the
panel concluded that there is a significant likelihood that the
individual plaintiffs will suffer irreparable harm if the MPP
is not enjoined; uncontested evidence in the record establishes
that non-Mexicans returned to Mexico under the MPP risk
substantial harm, even death, while they await adjudication of
their applications for asylum. Further, the panel concluded
that the balance of factors favored plaintiffs. While the
Government has an interest in continuing to follow the
directives of the MPP, the strength of that interest is
diminished by the likelihood that the MPP is inconsistent
with §§ 1225(b) and 1231(b). On the other side, the
individual plaintiffs risk substantial harm, and the
organizational plaintiffs are hindered in their ability to carry
out their missions. The panel concluded that public interest
similarly favored plaintiffs: while the public has a weighty
interest in efficient administration of the immigration laws,
the public also has an interest in ensuring that statutes enacted
by their representatives are not imperiled by executive fiat.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 8 of 57
21a

8

INNOVATION LAW LAB V. WOLF

Finally, considering the scope of the district court’s
injunction, the panel concluded that the district court did not
abuse its discretion in setting aside the MPP. The panel
recognized that nationwide injunctions have become
increasingly controversial, but noted that it was a misnomer
to call this order “nationwide,” as it operates only at the
southern border and directs the action of officials only in four
states. The panel explained that the district court did not
abuse its discretion for two mutually reinforcing reasons.
First, the APA provides that a reviewing court shall “set
aside” action that is not in accordance with the law and that
there is a presumption that an offending agency action should
be set aside in its entirety. Second, cases implicating
immigration policy have a particularly strong claim for
uniform relief, and this court has consistently recognized the
authority of district courts to enjoin unlawful policies on a
universal basis. The panel also observed that the Fifth
Circuit, one of only two other federal circuits with states
along the southern border, has held that nationwide
injunctions are appropriate in immigration cases.
Dissenting, Judge Fernandez wrote that he believes that
this panel is bound by the motions panel’s published decision
in this case. Judge Fernandez wrote that the panel is bound
by the law of the circuit, which binds all courts within a
particular circuit, including the court of appeals itself, and
remains binding unless overruled by the court sitting en banc,
or by the Supreme Court. Further, Judge Fernandez wrote
that, insofar as factual differences might allow precedent to
be distinguished on a principled basis, in this case, the
situation before this panel is in every material way the same
as that before the motions panel. Judge Fernandez also stated
that, in Lair v. Bullock, 798 F.3d 736 (9th Cir. 2015), this
court held that a motions panel’s published opinion binds

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 9 of 57
22a

INNOVATION LAW LAB V. WOLF

9

future panels the same as does a merits panel’s published
opinion. Judge Fernandez also concluded that the law of the
case doctrine binds this panel, noting that he did not perceive
any of the exceptions to the doctrine to be involved here.
Applying those doctrines, Judge Fernandez concluded
that: 1) plaintiffs are not likely to succeed on their claim that
the MPP was not authorized by § 1225(b)(2)(C); 2) plaintiffs
are not likely to succeed on their claim that the MPP’s
adoption violated the notice and comment provisions of the
APA; and 3) the preliminary injunction should be vacated.
Judge Fernandez stated that he expressed no opinion on
whether the district court could issue a narrower injunction.

COUNSEL
Scott G. Stewart (argued), Deputy Assistant Attorney
General; Archith Ramkumar, Trial Attorney; Erez Reuveni,
Assistant Director; William C. Peachey, Director; Joseph H.
Hunt, Assistant Attorney General; Office of Immigration
Litigation, United States Department of Justice, Washington,
D.C., Washington, D.C.; for Defendants-Appellants.
Judy Rabinovitz (argued), Michael Tan, Omar Jadwat, Lee
Gelernt, Anand Balakrishnan, and Daniel Galindo, American
Civil Liberties Union Foundation, Immigrants’ Rights
Project, New York, New York; Jennifer Chang Newell,
Katrina Eiland, Cody Wofsy, and Julie Veroff, American
Civil Liberties Union Foundation, Immigrants’ Rights
Project, San Francisco, California; Melissa Crow, Southern
Poverty Law Center, Washington, D.C.; Mary Bauer,
Southern Poverty Law Center, Charlottesville, Virginia;
Gracie Willis, Southern Poverty Law Center, Decatur,

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 10 of 57
23a

10

INNOVATION LAW LAB V. WOLF

Georgia; Michelle P. Gonzalez, Southern Poverty Law
Center, Miami, Florida; Sean Riordan and Christine P. Sun,
American Civil Liberties Union Foundation of Northern
California Inc., San Francisco, California; Blaine Bookey,
Karen Musalo, Eunice Lee, Kathryn Jastram, and Sayoni
Maitra, Center for Gender and Refugee Studies, San
Francisco, California; Steven Watt, ACLU Foundation
Human Rights Program, New York, New York; for PlaintiffsAppellees.
Adeel A. Mangi, Muhammad U. Faridi, Elizabeth Riordan
Hurley, W. Robert Fair, and A. Robert Quirk, Patterson
Belknap Webb & Tyler LLP, New York, New York, for
Amicus Curiae Local 1924.
Alan E. Schoenfeld and Olga Musayev, Wilmer Cutler
Pickering Hale and Dorr LLP, New York, New York; Julia
Prochazka, Wilmer Cutler Pickering Hale and Dorr LLP,
Boston, Massachusetts; Harold Hongju Koh, Rule of Law
Clinic, Yale Law School, New Haven, Connecticut; for Amici
Curiae Former U.S. Government Officials.
Xiao Wang, Rakesh Kilaru, Aleshadye Getachew, and Sophia
Cooper, Wilkinson Walsh & Eskovitz LLP, Washington,
D.C.; Chanakya A. Sethi, Wilkinson Walsh & Eskovitz LLP,
New York, New York; for Amici Curiae Amnesty
International USA, The Washington Office on Latin America,
The Latin America Working Group, & Imumi.
Eleni Bakst, Human Rights First, New York, New York;
W. Hardy Callcott, Naomi A. Igra, and Tom Magaña, Sidley
Austin LLP, San Francisco, California; for Amicus Curiae
Human Rights First.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 11 of 57
24a

INNOVATION LAW LAB V. WOLF

11

Ana C. Reyes, Williams & Connolly LLP, Washington, D.C.;
Alice Farmer, United Nations High Commissioner for
Refugees, Washington, D.C.; for Amicus Curiae United
Nations High Commissioner.

OPINION
W. FLETCHER, Circuit Judge:
Plaintiffs brought suit in district court seeking an
injunction against the Government’s recently promulgated
Migrant Protection Protocols (“MPP”), under which nonMexican asylum seekers who present themselves at our
southern border are required to wait in Mexico while their
asylum applications are adjudicated. The district court
entered a preliminary injunction setting aside the MPP, and
the Government appealed. We affirm.
I. Background
In January 2019, the Department of Homeland Security
(“DHS”) promulgated the MPP without going through noticeand-comment rulemaking. The MPP provides that nonMexican asylum seekers arriving at our southern border be
“returned to Mexico for the duration of their immigration
proceedings, rather than either being detained for expedited
or regular removal proceedings or issued notices to appear for
regular removal proceedings.” Innovation Law Lab v.
Nielsen, 366 F. Supp. 3d 1110, 1114 (N.D. Cal. 2019)
(quotation marks omitted). The MPP does not apply to
certain groups, including “unaccompanied alien children,”
“aliens processed for expedited removal,” “aliens with known
physical [or] mental health issues,” “returning [Legal

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 12 of 57
25a

12

INNOVATION LAW LAB V. WOLF

Permanent Residents] seeking admission,” and “aliens with
an advance parole document or in parole status.”
DHS issued guidance documents to implement the MPP.
Under this guidance, asylum seekers who cross the border
and are subject to the MPP are given a Notice to Appear in
immigration court and returned to Mexico to await their court
date. Asylum seekers may re-enter the United States to
appear for their court dates. The guidance instructs officials
not to return any alien who will more likely than not suffer
persecution if returned to Mexico. However, this instruction
applies only to an alien “who affirmatively states that he or
she has a fear of persecution or torture in Mexico, or a fear of
return to Mexico.” Officers are not instructed to ask aliens
whether they fear returning to Mexico. If an asylum officer
determines, based on an alien’s volunteered statement, that he
or she will more likely than not suffer persecution in Mexico,
the alien is not subject to return to Mexico under the MPP.
The MPP went into effect on January 28, 2019. It was
first implemented at the San Ysidro, California, port of entry
and was later expanded across the entire southern border.
The MPP has had serious adverse consequences for the
individual plaintiffs. Plaintiffs presented evidence in the
district court that they, as well as others returned to Mexico
under the MPP, face targeted discrimination, physical
violence, sexual assault, overwhelmed and corrupt law
enforcement, lack of food and shelter, and practical obstacles
to participation in court proceedings in the United States.
The hardship and danger to individuals returned to Mexico
under the MPP have been repeatedly confirmed by reliable
news reports. See, e.g., Zolan Kanno-Youngs & Maya
Averbuch, Waiting for Asylum in the United States, Migrants

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 13 of 57
26a

INNOVATION LAW LAB V. WOLF

13

Live in Fear in Mexico, N.Y. TIMES (Apr. 5, 2019),
https://www.nytimes.com/2019/04/05/us/politics/asylumunited-states-migrants-mexico.html; Alicia A. Caldwell,
Trump’s Return-to-Mexico Policy Overwhelms
Immigration Courts, WALL STREET J. (Sept. 5, 2019),
https://www.wsj.com/articles/trumps-return-to-mexicopolicy-overwhelms-immigration-courts-11567684800; Mica
Rosenberg, et al., Hasty Rollout of Trump Immigration Policy
Has ‘Broken’ Border Courts, REUTERS (Sept. 10, 2019),
https://www.reuters.com/article/us-usa-immigration-courtsinsight/hasty-rollout-of-trump-immigration-policy-hasbroken-border-courts-idUSKCN1VV115; Mireya Villareal,
An Inside Look at Trump’s “Remain in Mexico” Policy,
CBS NEWS (Oct. 8, 2019), https://www.cbsnews.com/news/
remain-in-mexico-donald-trump-immigration-policy-nuevolaredo-mexico-streets-danger-migrants-2019-10-08/.
The organizational plaintiffs have also suffered serious
adverse consequences. The MPP has substantially hindered
the organizations’ “ability to carry out their core mission of
providing representation to aliens seeking admission,
including asylum seekers,” Innovation Law Lab, 366 F. Supp.
3d at 1129, and has forced them to divert resources because
of increased costs imposed by the MPP.
The Government has not argued in this court that either
the individual or organizational plaintiffs lack standing under
Article III, but we have an independent obligation to
determine our jurisdiction under Article III. The individual
plaintiffs, all of whom have been returned to Mexico under
the MPP, obviously have Article III standing. The
organizational plaintiffs also have Article III standing. The
Government conceded in the district court that the
organizational plaintiffs have Article III standing based on

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 14 of 57
27a

14

INNOVATION LAW LAB V. WOLF

East Bay Sanctuary Covenant v. Trump, 932 F.3d 742,
765–67 (9th Cir. 2018), given their decreased ability to carry
out their core missions as well as the diversion of their
resources, both caused by the MPP. See Innovation Law Lab,
366 F. Supp. at 1120–22. Because East Bay Sanctuary
Covenant was a decision by a motions panel on an emergency
stay motion, we are not obligated to follow it as binding
precedent. See discussion, infra, Part III. However, we are
persuaded by its reasoning and hold that the organizational
plaintiffs have Article III standing.
II. Proceedings in the District Court
Plaintiffs filed suit in district court seeking an injunction,
alleging, inter alia, that the MPP is inconsistent with the
Immigration and Nationality Act (“INA”), specifically
8 U.S.C. §§ 1225(b) and 1231(b), and that they have a right
to a remedy under 5 U.S.C. § 706(2)(A). Section 706(2)(A)
provides, “The reviewing court shall . . . hold unlawful and
set aside agency action, findings, and conclusions found to be
. . . arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law.” (Internal numbering omitted.)
The district court held that plaintiffs had shown a
likelihood of success on the merits of their claim that the
MPP is inconsistent with § 1225(b). Id. at 1123. The
Government contended that the MPP is authorized by
§ 1225(b)(2). Plaintiffs argued, however, that they are
arriving aliens under § 1225(b)(1) rather than under
§ 1225(b)(2). They pointed out that there is a contiguous
territory return provision in § (b)(2) but no such provision in
§ (b)(1). The district court agreed with plaintiffs:

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 15 of 57
28a

INNOVATION LAW LAB V. WOLF

15

On its face, . . . the contiguous territory return
provision may be applied to aliens described
in subparagraph (b)(2)(A). Pursuant to
subparagraph (b)(2)(B), however, that
expressly excludes any alien “to whom
paragraph [(b)](1) applies.”
Id. (emphasis in original). The court concluded, “Applying
the plain language of the statute, [the individual plaintiffs]
simply are not subject to the contiguous territory return
provision.” Id.
The district court also held that plaintiffs had shown a
likelihood of success on the merits of their claim that the
MPP violates § 1231(b)(3), the statutory implementation of
the United States’ treaty-based non-refoulement obligations.
The district court held that “plaintiffs have shown they are
more likely than not to prevail on the merits of their
contention that defendants adopted the MPP without
sufficient regard to refoulement issues.” Id. at 1127. In so
holding, the district court noted that the MPP does not
instruct asylum officers to ask asylum seekers whether they
fear returning to Mexico. Rather, “the MPP provides only for
review of potential refoulement concerns when an alien
‘affirmatively’ raises the point.” Id. The court further held
that it was more likely than not that the MPP should have
been adopted through notice-and-comment rulemaking with
respect to the non-refoulement aspects of the MPP. Id.
at 1128.
With respect to the individual plaintiffs, the district court
found that “[w]hile the precise degree of risk and specific
harms that plaintiffs might suffer in this case may be
debatable, there is no real question that it includes the

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 16 of 57
29a

16

INNOVATION LAW LAB V. WOLF

possibility of irreparable injury, sufficient to support interim
relief in light of the showing on the merits.” Id. at 1129.
With respect to the organizational plaintiffs, the court found
that they had “shown a likelihood of harm in terms of
impairment of their ability to carry out their core mission of
providing representation to aliens seeking admission,
including asylum seekers.” Id. Finally, the court held that
the balance of equities and the public interest support the
issuance of a preliminary injunction. Id.
Relying on a decision of our court, the district court
issued a preliminary injunction setting aside the MPP. The
court noted:
[D]efendants have not shown the injunction in
this case can be limited geographically. This
is not a case implicating local concerns or
values. There is no apparent reason that any
of the places to which the MPP might
ultimately be extended have interests that
materially differ from those presented in San
Ysidro.
Id. at 1130.
III. Proceedings Before the Motions Panel
The district court issued its preliminary injunction on
April 8, 2019. The Government filed an appeal on April 10
and the next day requested an emergency stay pending
appeal. In accordance with our regular procedures, our April
motions panel heard the Government’s request for an
emergency stay. The motions panel held oral argument on
the stay on April 24. In three written opinions, the panel

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 17 of 57
30a

INNOVATION LAW LAB V. WOLF

17

unanimously granted the emergency stay on May 7.
Innovation Law Lab v. McAleenan, 924 F.3d 503 (9th Cir.
2019).
In a per curiam opinion, the motions panel disagreed, by
a vote of two to one, with the district court’s holding that
plaintiffs were likely to succeed in their statutory argument
that the MPP is inconsistent with 8 U.S.C. § 1225(b). Id.
at 508–09. The panel majority stated its legal conclusion in
tentative terms, writing that it was “doubtful that subsection
(b)(1) [of § 1225] ‘applies’ to [plaintiffs.]” Id. at 509
(emphasis added).
Judge Watford concurred in the per curiam opinion but
wrote separately to express concern that the MPP is arbitrary
and capricious because it lacks sufficient non-refoulement
protections. Id. at 511 (Watford, J., concurring). Judge
Watford expressed concern that asylum officers do not ask
asylum applicants whether they have a fear of returning to
Mexico: “One suspects the agency is not asking an important
question during the interview process simply because it
would prefer not to hear the answer.” Id. Judge Watford
concluded, “DHS’s policy is virtually guaranteed to result in
some number of applicants being returned to Mexico in
violation of the United States’ non-refoulement obligations.”
Id.
Judge Fletcher concurred only in the result. He wrote
separately, arguing that the MPP was inconsistent with
8 U.S.C. § 1225(b). Id. at 512 (W. Fletcher, J., concurring in
the result). In his view, asylum seekers subject to the MPP
are properly characterized as applicants under § 1225(b)(1)
rather than § 1225(b)(2), and are thus protected against being
returned to Mexico pending adjudication of their applications.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 18 of 57
31a

18

INNOVATION LAW LAB V. WOLF

Judge Fletcher emphasized the preliminary nature of the
emergency stay proceedings before the motions panel,
writing, “I am hopeful that the regular argument panel that
will ultimately hear the appeal, with the benefit of full
briefing and regularly scheduled argument, will be able to see
the Government’s arguments for what they are—baseless
arguments in support of an illegal policy[.]” Id. at 518.
IV. Standard of Review
When deciding whether to issue a preliminary injunction,
a district court considers whether the requesting party has
shown “that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and that an
injunction is in the public interest.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 20 (2008). Likelihood of success
on the merits is a threshold inquiry and the most important
factor. See, e.g., Edge v. City of Everett, 929 F.3d 657, 663
(9th Cir. 2019).
We review a grant of a preliminary injunction for abuse
of discretion. See, e.g., United States v. California, 921 F.3d
865, 877 (9th Cir. 2019). “The district court’s interpretation
of the underlying legal principles, however, is subject to de
novo review and a district court abuses its discretion when it
makes an error of law.” Sw. Voter Registration Educ. Project
v. Shelley, 344 F.3d 914, 918 (9th Cir. 2003) (en banc).

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 19 of 57
32a

INNOVATION LAW LAB V. WOLF

19

V. Likelihood of Success on the Merits
A. Effect of the Motions Panel’s Decision
A preliminary question is whether a merits panel is bound
by the analysis of a motions panel on a question of law,
performed in the course of deciding an emergency request for
a stay pending appeal. On that question, we follow East Bay
Sanctuary Covenant v. Trump, Nos. 18-17274 and 18-17436
(9th Cir. 2020), argued on the same day as this case, in which
we held that a motions panel’s legal analysis, performed
during the course of deciding an emergency motion for a stay,
is not binding on later merits panels. Such a decision by a
motions panel is “a probabilistic endeavor,” “doctrinally
distinct” from the question considered by the later merits
panel, and “issued without oral argument, on limited
timelines, and in reliance on limited briefing.” Id. at 21–22,
20. “Such a predictive analysis should not, and does not,
forever bind the merits of the parties’ claims.” Id. at 22. At
oral argument in this case, the Government acknowledged
“that law of the circuit treatment does not apply to [the
motion’s panel’s decision].” The Government later reiterated
that it was “not advocating for law of the circuit treatment.”
The Government “agree[d] that that is inappropriate in the
context of a motions panel decision.”
Even if, acting as a merits panel, we may be bound in
some circumstances by a decision by a motions panel on a
legal question, we would in any event not be bound in the
case now before us. Two of the three judges on the motions
panel disagreed in part with the Government’s legal
arguments in support of the MPP. Further, the motions
panel’s per curiam opinion did not purport to decide
definitively the legal questions presented to it in the

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 20 of 57
33a

20

INNOVATION LAW LAB V. WOLF

emergency stay motion. The per curiam spoke in terms of
doubt and likelihood, rather than in terms of definitive
holdings. Innovation Law Lab, 924 F.3d at 509; see also
supra I.C.2. Indeed, Judge Fletcher, who concurred in
granting the emergency stay, specifically addressed the effect
of the legal analysis of the motions panel and expressed the
hope that the merits panel, with the benefit of full briefing
and argument, would decide the legal questions differently.
B. Questions on the Merits
Plaintiffs challenge two aspects of the MPP. First, they
challenge the requirement that asylum seekers return to
Mexico and wait there while their applications for asylum are
adjudicated.
They contend that this requirement is
inconsistent with the INA, as amended in 1996 by the Illegal
Immigration Reform and Immigrant Responsbility Act
(“IIRIRA”). Second, in the alternative, they challenge the
failure of asylum officers to ask asylum seekers whether they
fear being returned to Mexico. They contend that this failure
is inconsistent with our treaty-based non-refoulement
obligations. They contend, further, that with respect to nonrefoulement, the MPP should have been adopted only after
notice-and-comment rulemaking.
We address these challenges in turn. We conclude that
plaintiffs have shown a likelihood of success on their claim
that the return-to-Mexico requirement of the MPP is
inconsistent with 8 U.S.C. § 1225(b). We further conclude
that plaintiffs have shown a likelihood of success on their
claim that the MPP does not comply with our treaty-based
non-refoulement obligations codified at 8 U.S.C. § 1231(b).
We do not reach the question whether they have shown a
likelihood of success on their claim that the anti-refoulement

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 21 of 57
34a

INNOVATION LAW LAB V. WOLF

21

aspect of the MPP should have been adopted through noticeand-comment rulemaking.
1. Return to Mexico
The essential feature of the MPP is that non-Mexican
asylum seekers who arrive at a port of entry along the United
States’ southern border must be returned to Mexico to wait
while their asylum applications are adjudicated. Plaintiffs
contend that the requirement that they wait in Mexico is
inconsistent with 8 U.S.C. § 1225(b). The government
contends, to the contrary, that the MPP is consistent with
§ 1225(b).
The relevant text of § 1225 is as follows:
(a) Inspection
(1) Aliens treated as applicants for
admission
An alien present in the United States
who has not been admitted . . . shall be
deemed for purposes of this chapter an
applicant for admission.
...
(b) Inspection of applicants for admission
(1) Inspection of aliens arriving in the
United States and certain other
aliens who have not been admitted
or paroled

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 22 of 57
35a

22

INNOVATION LAW LAB V. WOLF
(A)

Screening
(i) In general
If an immigration officer
determines that an alien . . . who is
arriving in the United States . . . is
inadmissible under section
1182(a)(6)(C) or 1182(a)(7) of this
title, the officer shall order the
alien removed from the United
States without further hearing or
review unless the alien indicates
either an intention to apply for
asylum under section 1158 of this
title or a fear of persecution.
(ii) Claims for asylum
If an immigration officer
determines that an alien . . . is
inadmissible under section
1182(a)(6)(C) or 1182(a)(7) of this
title and the alien indicates either
an intention to apply for asylum
under section 1158 of this title or
a fear of persecution, the officer
shall refer the alien for an
interview by an asylum officer
under subparagraph (B).
...

(B)

Asylum interviews

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 23 of 57
36a

INNOVATION LAW LAB V. WOLF
...
(ii) Referral of certain aliens
If the [asylum] officer
determines at the time of the
interview that an alien has a
credible fear of persecution . . . ,
the alien shall be detained for
further consideration of the
application for asylum.
...
(2) Inspection of other aliens
(A)

In general

Subject to subparagraphs (B) and
(C), in the case of an alien who is an
applicant for admission, if the
examining immigration officer
determines that an alien seeking
admission is not clearly and beyond a
doubt entitled to be admitted, the alien
shall be detained for a proceeding
under section 1229a of this title.
(B)

Exception
Subparagraph (A) shall not apply
to an alien —
(i)

who is a crewman

23

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 24 of 57
37a

24

INNOVATION LAW LAB V. WOLF

(C)

(ii)

to whom paragraph (1)
applies, or

(iii)

who is a stowaway.
Treatment of aliens arriving
from contiguous territory

In the case of an alien described in
subparagraph (A) who is arriving on
land (whether or not at a designated
port of arrival) from a foreign territory
contiguous to the United States, the
Attorney General may return the alien
to that territory pending a proceeding
under section 1229a of this title.
There are two categories of “applicants for admission”
under § 1225. § 1225(a). First, there are applicants described
in § 1225(b)(1). Second, there are applicants described in
§ 1225(b)(2).
Applicants described in § 1225(b)(1) are inadmissible
based on either of two grounds, both of which relate to their
documents or lack thereof. Applicants described in
§ 1225(b)(2) are in an entirely separate category. In the
words of the statute, they are “other aliens.” § 1225(b)(2)
(heading). Put differently, again in the words of the statute,
§ (b)(2) applicants are applicants “to whom paragraph
[(b)](1)” does not apply. § 1225(b)(2)(B)(ii). That is,
§ (b)(1) applicants are those who are inadmissible on either
of the two grounds specified in that subsection. Section
(b)(2) applicants are all other inadmissible applicants.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 25 of 57
38a

INNOVATION LAW LAB V. WOLF

25

Section (b)(1) applicants are more numerous than § (b)(2)
applicants, but § (b)(2) is a broader category in the sense that
§ (b)(2) applicants are inadmissible on more grounds than
§ (b)(1) applicants. Inadmissable applicants under § (b)(1)
are aliens traveling with fraudulent documents
(§ 1182(a)(6)(C)) or no documents (§ 1182(a)(7)). By
contrast, inadmissable applicants under § (b)(2) include, inter
alia, aliens with “a communicable disease of public health
significance” or who are “drug abuser[s] or addict[s]”
(§ 1182(a)(1)(A)(i), (iv)); aliens who have “committed . . . a
crime involving moral turpitude” or who have “violat[ed] . . .
any law or regulation . . . relating to a controlled substance”
(§ 1182(a)(2)(A)(i)); aliens who “seek to enter the United
States . . . to violate any law of the United States relating to
espionage or sabotage,” or who have “engaged in a terrorist
activity” (§ 1182(a)(3)(A), (B)); aliens who are “likely . . . to
become a public charge” (§ 1182(a)(4)(A)); and aliens who
are alien “smugglers” (§ 1182(a)(6)(E)).
The Supreme Court recently distinguished § (b)(1) and
§ (b)(2) applicants, stating unambiguously that they fall into
two separate categories:
[A]pplicants for admission fall into one of two
categories, those covered by § 1225(b)(1) and
those covered by § 1225(b)(2). Section
1225(b)(1) applies to aliens initially
determined to be inadmissible due to fraud,
misrepresentation, or lack of valid
documentation. . . . Section 1225(b)(2) is
broader. It serves as a catchall provision that
applies to all applicants for admission not
covered by § 1225(b)(1).

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 26 of 57
39a

26

INNOVATION LAW LAB V. WOLF

Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018) (emphasis
added) (citations omitted).
Even more recently, the Attorney General of the United
States, through the Board of Immigration Appeals, drew the
same distinction and briefly described the procedures
applicable to the two categories:
Under section 235 of the Act [8 U.S.C.
§ 1225], all aliens “arriv[ing] in the United
States” or “present in the United States
[without having] been admitted” are
considered “applicants for admission,” who
“shall be inspected by immigration officers.”
INA § 235(a)(1), (3). [8 U.S.C. § 1225(a)(1),
(3).] In most cases, those inspections yield
one of three outcomes. First, if an alien is
“clearly and beyond a doubt entitled to be
admitted,” he will be permitted to enter, or
remain in, the country without further
proceedings. Id. § 235(b)(2)(A). [8 U.S.C.
§ 1225(b)(2)(A).] Second, if the alien is not
clearly admissible, then, generally, he will be
placed in “proceeding[s] under section 240
[8 U.S.C. § 1229a]” of the Act—that is, full
removal proceedings. Id. Third, if the alien is
inadmissible on one of two specified grounds
and meets certain additional criteria, DHS
may place him in either expedited or full
proceedings. Id. § 235(b)(1)(A)(i) [8 U.S.C.
§ 1225(b)(1)(A)(i)]; see Matter of E-R-M- &
L-R-M-, 25 I&N Dec. 520, 524 (BIA 2011).

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 27 of 57
40a

INNOVATION LAW LAB V. WOLF

27

Matter of M-S-, 27 I. & N. Dec. 509, 510 (BIA April 16,
2019).
The procedures specific to the two categories of
applicants are outlined in their respective subsections. To
some extent, the statutorily prescribed procedures are the
same for both categories. If a § (b)(1) applicant passes his or
her credible fear interview, he or she will be placed in regular
removal proceedings under 8 U.S.C. § 1229a. See 8 C.F.R.
§ 208.30(f). A § (b)(1) applicant may also be placed directly
into regular removal proceedings under § 1229a at the
discretion of the Government. See Matter of E-R-M- & L-RM-, 25 I. & N. Dec. 520, 522 (BIA 2011). A § (b)(2)
applicant who is “not clearly and beyond a doubt entitled to
be admitted” is automatically placed in regular removal
proceedings under § 1229a. See § 1225(b)(2)(A).
Both § (b)(1) and § (b)(2) applicants can thus be placed
in regular removal proceedings under § 1229a, though by
different routes. But the fact that an applicant is in removal
proceedings under § 1229a does not change his or her
underlying category. A § (b)(1) applicant does not become
a § (b)(2) applicant, or vice versa, by virtue of being placed
in a removal proceeding under § 1229a.
However, the statutory procedures for the two categories
are not identical. Some of the procedures are exclusive to one
category or the other. For example, if a § (b)(1) applicant
fails to pass his or her credible fear interview, he or she may
be removed in an expedited proceeding without a regular
removal proceeding under § 1229a. See § 1225(b)(1)(A), (B).
There is no comparable procedure specified in § (b)(2) for
expedited removal of a § (b)(2) applicant. Further, in some
circumstances a § (b)(2) applicant may be “returned” to a

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 28 of 57
41a

28

INNOVATION LAW LAB V. WOLF

“territory contiguous to the United States” pending his or her
regular removal proceeding under § 1229a.
See
§ 1225(b)(2)(C). There is no comparable “return” procedure
specified in §1225(b)(1) for a § (b)(1) applicant.
The statutory question posed by the MPP is whether a
§ (b)(1) applicant may be “returned” to a contiguous territory
under § 1225(b)(2)(C). That is, may a § (b)(1) applicant be
subjected to a procedure specified for a § (b)(2) applicant? A
plain-meaning reading of § 1225(b)—as well as the
Government’s longstanding and consistent practice up until
now—tell us that the answer is “no.”
There is nothing in § 1225(b)(1) to indicate that a § (b)(1)
applicant may be “returned” under § 1225(b)(2)(C). Section
(b)(1)(A)(i) tells us with respect to § (b)(1) applicants that an
“officer shall order the alien removed . . . without further
hearing or review unless the alien indicates either an intention
to apply for asylum . . . or a fear of persecution.” Section
(b)(1)(A)(ii) tells us that § (b)(1) applicants who indicate an
intention to apply for asylum or a fear of persecution “shall”
be referred by the immigration officer to an “asylum officer”
for an interview. The remainder of § 1225(b)(1) specifies
what happens to a § (b)(1) applicant depending on the
determination of the asylum officer—either expedited
removal or detention pending further consideration.
§ 1225(b)(1)(B)(ii)–(iii). There is nothing in § 1225(b)(1)
stating, or even suggesting, that a § (b)(1) applicant is subject
to the “return” procedure of § 1225(b)(2)(C).
Nor is there anything in § 1225(b)(2) to indicate that a
§ (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Taking § 1225(b)(2) subparagraph by subparagraph, it
provides as follows. Subparagraph (A) tells us that unless a

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 29 of 57
42a

INNOVATION LAW LAB V. WOLF

29

§ (b)(2) applicant is “clearly and beyond a doubt entitled to
be admitted,” she or he “shall be detained” for a removal
proceeding under § 1229a. § 1225(b)(2)(A). Subparagraph
(A) is “[s]ubject to subparagraphs (B) and (C).” Id.
Subparagraph (B) tells us that subparagraph (A) does not
apply to three categories of aliens—“crewm[e]n,” § (b)(1)
applicants, and “stowaway[s].” § 1225(b)(2)(B). Finally,
subparagraph (C) tells us that a § (b)(2) applicant who arrives
“on land . . . from a foreign territory contiguous to the United
States,” instead of being “detained” under subparagraph (A)
pending his or her removal proceeding under § 1229a, may be
“returned” to that contiguous territory pending that
proceeding. § 1225(b)(2)(C). Section (b)(1) applicants are
mentioned only once in § 1225(b)(2), in subparagraph (B)(ii).
That subparagraph specifies that subparagraph (A)—which
automatically entitles § (b)(2) applicants to regular removal
proceedings under § 1229a—does not apply to § (b)(1)
applicants.
The “return-to-a-contiguous-territory” provision of
§ 1225(b)(2)(C) is thus available only for § (b)(2) applicants.
There is no plausible way to read the statute otherwise.
Under a plain-meaning reading of the text, as well as the
Government’s longstanding and consistent practice, the
statutory authority upon which the Government now relies
simply does not exist.
The Government nonetheless contends that § (b)(2)(C)
authorizes the return to Mexico not only of § (b)(2)
applicants, but also of § (b)(1) applicants. The Government
makes essentially three arguments in support of this
contention. None is persuasive.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 30 of 57
43a

30

INNOVATION LAW LAB V. WOLF

First, the Government argues that § (b)(1) applicants are
a subset of § (b)(2) applicants. Blue Brief at 35. Under the
Government’s argument, there are § (b)(1) applicants, defined
in § (b)(1), and there are § (b)(2) applicants, defined as all
applicants, including § (b)(2) and § (b)(1) applicants. The
Government argues that DHS, in its discretion, can therefore
apply the procedures specified in § (b)(2) to a § (b)(1)
applicant. That is, as stated in its brief, the Government has
“discretion to make the initial ‘determin[ation]’ whether to
apply section 1225(b)(1) or section 1225(b)(2) to a given
alien.” Blue Brief at 30.
The Government’s argument ignores the statutory text,
the Supreme Court’s opinion in Jennings, and the opinion of
its own Attorney General in Matter of M-S-. The text of
§ 1225(b) tells us that § (b)(1) and § (b)(2) are separate and
non-overlapping categories. In Jennings, the Supreme Court
told us explicitly that § (b)(1) and § (b)(2) applicants fall into
separate and non-overlapping categories. In Matter of M-S-,
the Attorney General wrote that applicants are subject to
different procedures depending on whether they are § (b)(1)
or § (b)(2) applicants.
Second, the Government argues that § (b)(2)(B)(ii) allows
DHS, in its discretion, to “apply” to a § (b)(1) applicant either
procedures described in § (b)(1) or those described in
§ (b)(2). The Government’s second argument is necessitated
by its first. To understand the Government’s second
argument, one must keep in mind that § (b)(2)(A)
automatically entitles a § (b)(2) applicant to a regular removal
hearing under § 1229a. But we know from § (b)(1) that not
all § (b)(1) applicants are entitled to a removal hearing under
§ 1229a. Having argued that § (b)(2) applicants include not
only § (b)(2) but also § (b)(1) applicants, the Government

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 31 of 57
44a

INNOVATION LAW LAB V. WOLF

31

needs some way to avoid giving regular removal proceedings
to all § (b)(1) applicants. The best the Government can do is
to rely on § (b)(2)(B)(ii), which provides: “Subparagraph (A)
shall not apply to an alien . . . to whom paragraph [(b)](1)
applies.” § 1225(b)(2)(B)(ii) (emphasis added). The
Government thus argues that § (b)(2)(B)(ii) allows DHS, in
its discretion, to “apply,” or not apply, § (b)(2)(A) to a
§ (b)(1) applicant.
The Government misreads § (b)(2)(B)(ii). Subparagraph
(B) tells us, “Subparagraph (A) shall not apply to an alien —
(i) who is a crewman, (ii) to whom paragraph [(b)](1) applies,
or (iii) who is a stowaway.” The function of § (b)(2)(B)(ii)
is to make sure that we understand that the automatic
entitlement to a regular removal hearing under § 1229a,
specified in § (b)(2)(A) for a § (b)(2) applicant, does not
apply to a § (b)(1) applicant. However, the Government
argues that § (b)(2)(B)(ii) authorizes the Government to
perform an act. That act is to “apply” the expedited removal
procedures of § (b)(1) to some of the aliens under § (b)(2), as
the Government defines § (b)(2) applicants.
There is a fatal syntactical problem with the
Government’s argument. “Apply” is used twice in the same
sentence in § (b)(2)(B)(ii). The first time the word is used, in
the lead-in to the section, it refers to the application of a
statutory section (“Subparagraph (A) shall not apply”). The
second time the word is used, it is used in the same manner,
again referring to the application of a statutory section (“to
whom paragraph [(b)](1) applies”). When the word is used
the first time, it tells us that subparagraph (A) shall not apply.
When the word is used the second time, it tells us to whom
subparagraph (A) shall not apply: it does not apply to
applicants to whom § (b)(1) applies. The word is used in the

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 32 of 57
45a

32

INNOVATION LAW LAB V. WOLF

same manner both times to refer to the application of
subparagraph (A). The word is not used the first time to refer
to the application of a subparagraph (A), and the second time
to an action by DHS.
The Government’s third argument is based on the
supposed culpability of § (b)(1) applicants. We know from
§ (b)(2)(A) that § (b)(2) applicants are automatically entitled
to full removal proceedings under § 1229a. However,
§ (b)(2) applicants may be returned to Mexico under
§ (b)(2)(C) to await the outcome of their removal hearing
under § 1229a. It makes sense for the Government, in its
discretion, to require some § (b)(2) applicants to remain in
Mexico while their asylum applications are adjudicated, for
some § (b)(2) applicants are extremely undesirable
applicants. As discussed above, § (b)(2) applicants include
spies, terrorists, alien smugglers, and drug traffickers.
When the Government was before the motions panel in
this case, it argued that § (b)(1) applicants are more culpable
than § (b)(2) applicants and therefore deserve to be forced to
wait in Mexico while their asylum applications are being
adjudicated. In its argument to the motions panel, the
Government compared § (b)(1) and § (b)(2) applicants,
characterizing § (b)(2) applicants as “less-culpable arriving
aliens.” The Government argued that returning § (b)(2), but
not § (b)(1), applicants to a contiguous territory would have
“the perverse effect of privileging aliens who attempt to
obtain entry to the United States by fraud . . . over aliens who
follow our laws.”
The Government had it exactly backwards. Section (b)(1)
applicants are those who are “inadmissible under section
1182(a)(6)(C) or 1182(a)(7)” of Title 8. These two sections

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 33 of 57
46a

INNOVATION LAW LAB V. WOLF

33

describe applicants who are inadmissible because they lack
required documents rather than because they have a criminal
history or otherwise pose a danger to the United States.
Section 1182(a)(6)(C), entitled “Misrepresentation,” covers,
inter alia, aliens using fraudulent documents. That is, it
covers aliens who travel under false documents and who,
once they arrive at the border or enter the country, apply for
asylum. Section 1182(a)(7), entitled “Documentation
requirements,” covers aliens traveling without documents. In
short, § (b)(1) applies to bona fide asylum applicants, who
commonly have fraudulent documents or no documents at all.
Indeed, for many such applicants, fraudulent documents are
their only means of fleeing persecution, even death, in their
own countries. The structure of § (b)(1), which contains
detailed provisions for processing asylum seekers,
demonstrates that Congress recognized that § (b)(1)
applicants may have valid asylum claims and should therefore
receive the procedures specified in § (b)(1).
In its argument to our merits panel, the Government made
a version of the same argument it had made earlier to the
motions panel. After referring to (but not describing) § (b)(2)
applicants, the Government now argues in its opening brief:
Section 1225(b)(1), meanwhile, reaches,
among other classes of aliens, those who
engage in fraud or willful misrepresentations
in an attempt to deceive the United States into
granting an immigration benefit. See 8 U.S.C.
§ 1182(a)(6)(C). Plaintiffs have not explained
why Congress would have wanted that class
of aliens to be exempt from temporary return
to Mexico while their full removal
proceedings are ongoing.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 34 of 57
47a

34

INNOVATION LAW LAB V. WOLF

Blue Brief at 37–38 (emphasis in original).
We need not look far to discern Congress’s motivation in
authorizing return of § (b)(2) applicants but not § (b)(1)
applicants. Section (b)(2)(C) was added to IIRIRA late in the
drafting process, in the wake of Matter of Sanchez-Avila,
21 I. & N. Dec. 444 (BIA 1996). Sanchez-Avila was a
Mexican national who applied for entry as a “resident alien
commuter” but who was charged with being inadmissible due
to his “involvement with controlled substances.” Id. at 445.
See 8 U.S.C. § 1182(a)(2)(A)(i) (§ (b)(2) applicants include
aliens who have “violat[ed] . . . any law or regulation . . .
relating to a controlled substance”). In order to prevent aliens
like Sanchez-Avila from staying in the United States during
the pendency of their guaranteed regular removal proceeding
under § 1229a, as they would otherwise have a right to do
under § (b)(2)(A), Congress added § 1225(b)(2)(C).
Congress had specifically in mind undesirable § (b)(2)
applicants like Sanchez-Avila. It did not have in mind bona
fide asylum seekers under § (b)(1).
We therefore conclude that plaintiffs have shown a
likelihood of success on the merits of their claim that the
MPP is inconsistent with 8 U.S.C. § 1225(b).
2. Refoulement
Plaintiffs claim that the MPP is invalid in part, either
because it violates the United States’ treaty-based antirefoulement obligations, codified at 8 U.S.C.
§ 1231(b)(3)(A), or because, with respect to refoulement, the
MPP was improperly adopted without notice-and-comment
rulemaking. Our holding that plaintiffs are likely to succeed
on their claim that the MPP is invalid in its entirety because

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 35 of 57
48a

INNOVATION LAW LAB V. WOLF

35

it is inconsistent with § 1225(b) makes it unnecessary to
decide plaintiffs’ second claim. We nonetheless address it as
an alternative ground, under which we hold the MPP invalid
in part.
Refoulement occurs when a government returns aliens to
a country where their lives or liberty will be threatened on
account of race, religion, nationality, membership of a
particular social group, or political opinion. The United
States is obliged by treaty and implementing statute, as
described below, to protect against refoulement of aliens
arriving at our borders.
Paragraph one of Article 33 of the 1951 United Nations
Convention Relating to the Status of Refugees, entitled,
“Prohibition of expulsion or return (‘refoulement’),”
provides:
No Contracting State shall expel or return
(“refouler”) a refugee in any manner
whatsoever to the frontiers of territories where
his life or freedom would be threatened on
account of his race, religion, nationality,
membership of a particular social group or
political opinion.
The United States is not a party to the 1951 Convention, but
in 1968 we acceded to the United Nations Protocol Relating
to the Status of Refugees, Jan. 31, 1967. INS v. Stevic,
467 U.S. 407, 416 (1984). “The Protocol bound parties to
comply with the substantive provisions of Articles 2 through
34 of the United Nations Convention Relating to the Status of
Refugees.” Id. Twelve years later, Congress passed the
Refugee Act of 1980, implementing our obligations under the

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 36 of 57
49a

36

INNOVATION LAW LAB V. WOLF

1967 Protocol. “If one thing is clear from the legislative
history of the . . . entire 1980 Act, it is that one of Congress’
primary purposes was to bring United States refugee law into
conformance with the 1967 United Nations Protocol Relating
to the Status of Refugees.” INS v. Cardoza-Fonseca,
480 U.S. 421, 436 (1987). The 1980 Act included, among
other things, a provision designed to implement Article 33 of
the 1951 Convention. After recounting the history behind
8 U.S.C. § 1253(h)(1), part of the 1980 Act, the Supreme
Court characterized that section as “parallel[ing] Article 33,”
the anti-refoulement provision of the 1951 Convention. INS
v. Aguirre-Aguirre, 526 U.S. 415, 427 (1999).
Section 1253(h)(1) provided, in relevant part, “The
Attorney General shall not deport or return any alien . . . to
a country if the Attorney General determines that such alien’s
life or freedom would be threatened in such country on
account of race, religion, nationality, membership of a
particular social group, or political opinion.” Id. at 419
(emphasis added). The current version is § 1231(b)(3)(A):
“[T]he Attorney General may not remove an alien to a
country if the Attorney General decides that the alien’s life or
freedom would be threatened in that country because of the
alien’s race, religion, nationality, membership in a particular
social group, or political opinion.” (Emphasis added.) The
words “deport or return” in the 1980 version of the section
were replaced in 1996 by “remove” as part of a general
statutory revision under IIRIRA. Throughout IIRIRA,
“removal” became the new all-purpose word, encompassing
“deportation,” “exclusion,” and “return” in the earlier statute.
See, e.g., Salgado-Diaz v. Gonzales, 395 F.3d 1158, 1162 (9th
Cir. 2005) (“IIRIRA eliminated the distinction between
deportation and exclusion proceedings, replacing them with
a new, consolidated category—‘removal.’”).

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 37 of 57
50a

INNOVATION LAW LAB V. WOLF

37

Plaintiffs point out several features of the MPP that, in
their view, provide insufficient protection against
refoulement.
First, under the MPP, to stay in the United States during
the pendency of removal proceedings under § 1229a, the
asylum seeker must show that it is “more likely than not” that
he or she will be persecuted in Mexico. More-likely-than-not
is a high standard, ordinarily applied only after an alien has
had a regular removal hearing under § 1229a. By contrast,
the standard ordinarily applied in screening interviews with
asylum officers at the border is much lower. Aliens subject
to expedited removal need only establish a “credible fear” in
order to remain in the United States pending a hearing under
§ 1229a. §§ 1225(b)(1)(A)(ii), 1225(b)(1)(B)(ii). Credible
fear requires only that the alien show a “significant
possibility” of persecution. § 1225(b)(1)(B)(v).
Second, under the MPP, an asylum seeker is not entitled
to advance notice of, and time to prepare for, the hearing with
the asylum officer; to advance notice of the criteria the
asylum officer will use; to the assistance of a lawyer during
the hearing; or to any review of the asylum officer’s
determination. By contrast, an asylum seeker in a removal
proceeding under § 1229a is entitled to advance notice of the
hearing with sufficient time to prepare; to advance notice of
the precise charge or charges on which removal is sought; to
the assistance of a lawyer; to an appeal to the Board of
Immigration Appeals; and to a subsequent petition for review
to the court of appeals.
Third, an asylum officer acting under the MPP does not
ask an asylum seeker whether he or she fears returning to
Mexico. Instead, asylum seekers must volunteer, without any

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 38 of 57
51a

38

INNOVATION LAW LAB V. WOLF

prompting, that they fear returning. By contrast, under
existing regulations, an asylum officer conducting a credible
fear interview is directed “to elicit all relevant and useful
information bearing on whether the applicant has a credible
fear of persecution or torture.” 8 C.F.R. § 208.30(d). The
asylum officer is specifically directed to “determine that the
alien has an understanding of the credible fear determination
process.” § 208.30(d)(2).
The Government disagrees with plaintiffs based on two
arguments. The Government first argues briefly that
§ 1231(b)(3)(A) does not encompass a general antirefoulement obligation. It argues that the protection provided
by § 1231(b)(3)(A) applies to aliens only after they have been
ordered removed to their home country at the conclusion of
a regular removal proceeding under § 1229a. It writes:
Section 1231(b)(3) codifies a form of
protection from removal that is available only
after an alien is adjudged removable. See
8 U.S.C. § 1231(b)(3); 8 C.F.R. 1208.16(a).
Aliens subject to MPP do not receive a final
order of removal to their home country when
they are returned (temporarily) to Mexico, and
so there is no reason why the same procedures
would apply . . . .
Blue Brief at 41 (emphasis in original).
The Government reads § 1231(b)(3)(A) too narrowly.
Section 1231(b)(3)(A) does indeed apply to regular removal
proceedings under § 1229a, as evidenced, for example, by
8 C.F.R. § 1208.16(a) (discussing, inter alia, the role of the
Immigration Judge). But its application is not limited to such

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 39 of 57
52a

INNOVATION LAW LAB V. WOLF

39

proceedings. As described above, and as recognized by the
Supreme Court, Congress intended § 1253(h)(1), and
§ 1231(b)(3)(A) as its recodified successor, to “parallel”
Article 33 of the 1951 Convention. Aguirre-Aguirre,
526 U.S. at 427. Article 33 is a general anti-refoulement
provision, applicable whenever an alien might be returned to
a country where his or her life or freedom might be
threatened on account of a protected ground. It is not limited
to instances in which an alien has had a full removal hearing
with significant procedural protections, as would be the case
under § 1229a.
The Government’s second argument is that the MPP
satisfies our anti-refoulement obligations by providing a
sufficiently effective method of determining whether aliens
fear, or have reason to fear, returning to Mexico. In its brief,
the Government contends that asylum seekers who genuinely
fear returning to Mexico have “every incentive” affirmatively
to raise that fear during their interviews with asylum officers,
and that Mexico is not a dangerous place for non-Mexican
asylum seekers. The Government writes:
[N]one of the aliens subject to MPP are
Mexican nationals fleeing Mexico, and all of
them voluntarily chose to enter and spend
time in Mexico en route to the United States.
Mexico, moreover, has committed to adhering
to its domestic and international obligations
regarding refugees. Those considerations
together strongly suggest that the great
majority of aliens subject to MPP are not
more likely than not to face persecution on a
protected ground or torture, in Mexico. In the
rare case where an MPP-eligible alien does

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 40 of 57
53a

40

INNOVATION LAW LAB V. WOLF
have a substantial and well-grounded basis for
claiming that he is likely to be persecuted in
Mexico, that alien will have every incentive to
raise that fear at the moment he is told that he
will be returned.

Blue Brief at 45. However, the Government points to no
evidence supporting its speculations either that aliens,
unprompted and untutored in the law of refoulement, will
volunteer that they fear returning to Mexico, or that there is
little danger to non-Mexican aliens in Mexico.
The Government further asserts, again without supporting
evidence, that any violence that returned aliens face in
Mexico is unlikely to be violence on account of a protected
ground—that is, violence that constitutes persecution. The
Government writes:
[T]he basic logic of the contiguous-territoryreturn statute is that aliens generally do not
face persecution on account of a protected
status, or torture, in the country from which
they happen to arrive by land, as opposed to
the home country from which they may have
fled. (International law guards against torture
and persecution on account of a protected
ground, not random acts of crime or
generalized violence.)
Blue Brief at 40–41 (emphasis in original).
Plaintiffs, who are aliens returned to Mexico under the
MPP, presented sworn declarations to the district court

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 41 of 57
54a

INNOVATION LAW LAB V. WOLF

41

directly contradicting the unsupported speculations of the
Government.
Several declarants described violence and threats of
violence in Mexico. Much of the violence was directed at the
declarants because they were non-Mexican—that is, because
of their nationality, a protected ground under asylum law.
Gregory Doe wrote in his declaration:
I did not feel safe at Benito Juarez [a
migrant shelter] because the neighbors kept
trying to attack the migrant community. The
people who lived near the shelter tried to hurt
us because they did not want us in their
country. . . .
At El Barretal [another migrant shelter], I
felt a little more secure because we had a high
wall surrounding us. Even so, one night
someone threw a tear gas bomb into the
shelter. When I tried to leave the shelter,
people in passing cars would often yell insults
at me like “get out of here, you pinches
Hondurans,” and other bad words that I do not
want to repeat.
Alex Doe wrote:
I know from personal experience and from the
news that migrants have a bad name here and
that many Mexicans are unhappy that so many
of us are here. I have frequently been insulted
by Mexicans on the street. . . . [O]ther asylum
seekers and I had to flee Playas [a

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 42 of 57
55a

42

INNOVATION LAW LAB V. WOLF
neighborhood in Tijuana] in the middle of the
night because a group of Mexicans threw
stones at us and more people were gathering
with sticks and other weapons to try to hurt
us.

Christopher Doe wrote:
The Mexican police and many Mexican
citizens believe that Central Americans are all
criminals. They see my dark skin and hear
my Honduran accent, and they automatically
look down on me and label me as a criminal.
I have been stopped and questioned by the
Mexican police around five or six times, just
for being a Honduran migrant. During my
most recent stop, the police threatened to
arrest me if they saw me on the street again.
...
I have also been robbed and assaulted by
Mexican citizens. On two occasions, a group
of Mexicans yelled insults, threw stones, and
tried to attack me and a group of other
Caravan members.
Howard Doe wrote:
I was afraid to leave the house [where I
was staying] because I had seen in the news
that migrants like myself had been targeted.
While I was in Tijuana, two young Honduran
men were abducted, tortured and killed.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 43 of 57
56a

INNOVATION LAW LAB V. WOLF

43

...
On Wednesday, January 30, 2019, I was
attacked and robbed by two young Mexican
men. They pulled a gun on me from behind
and told me not to turn around. They took my
phone and told me that they knew I was
Honduran and that if they saw me again, they
would kill me. Migrants in Tijuana are
always in danger[.]
Some of the violence in Mexico was threatened by
persecutors from the aliens’ home countries, and much of that
violence was on account of protected grounds—political
opinion, religion, and social group. Gregory Doe wrote:
I am also afraid the Honduran government
will find me in Mexico and harm me. Even
outside the country, the Honduran government
often works with gangs and criminal networks
to punish those who oppose their policies. I
am afraid that they might track me down.
Dennis Doe, who had fled the gang “MS-13” in Honduras,
wrote:
In Tijuana, I have seen people who I believe
are MS-13 gang members on the street and on
the beach. They have tattoos that look like
MS-13 tattoos . . . and they dress like MS-13
members with short sleeved button up shirts.
I know that MS-13 were searching for people
who tried to escape them with at least one of
the caravans. This makes me afraid that the

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 44 of 57
57a

44

INNOVATION LAW LAB V. WOLF
people who were trying to kill me in
Honduras will find me here.

Alex Doe, who had fled Honduras to escape the gang
“Mara 18” because of his work as a youth pastor and
organizer, wrote:
I am also afraid that the Mara 18 will find me
here in Mexico. I am afraid that the Mara 18
might send someone to find me or get
information from someone in the caravan.
The Mara 18 has networks throughout Central
America, and I have heard that their power
and connections in Mexico are growing.
Kevin Doe, who fled MS-13 because of his work as an
Evangelical Christian minister, wrote:
[When I was returned to Mexico from the
United States], I was met by a large group of
reporters with cameras. I was afraid that my
face might show up in the news. . . . I was
afraid that the MS-13 might see my face in the
news. They are a powerful, ruthless gang and
have members in Tijuana too.
Ian Doe wrote:
I am not safe in Mexico. I am afraid that the
people who want to harm me in Honduras will
find me here. I have learned from the news
that there are members of Central American
gangs and narcotraffickers that are present
here in Mexico that could find and kill me.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 45 of 57
58a

INNOVATION LAW LAB V. WOLF

45

Honduran migrants like me are very visible
because of our accents and the way that we
look, and it would not be hard for them to find
me here.
Several declarants described interviews by asylum
officers in which they were not asked whether they feared
returning to Mexico. Gregory Doe wrote, “The officer never
asked me if I was afraid of being in Mexico or if anything bad
had happened to me here [in Mexico].” Christopher Doe
wrote:
I don’t remember [the officer] asking if I was
afraid to live in Mexico while waiting for my
asylum hearing. If she had asked, I would
have told her about being stopped by the
Mexican police and attacked by Mexican
citizens. I would also have told her I am
afraid that the people who threatened me in
Honduras could find me in Mexico . . . .
Kevin Doe wrote:
The officer who was doing the talking
couldn’t understand me, and I could not
understand him very well because he was
rushing me through the interview and I didn’t
fully understand his Spanish. The interview
lasted about 4 or 5 minutes. . . . He never
asked me if I was afraid of returning to
Mexico.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 46 of 57
59a

46

INNOVATION LAW LAB V. WOLF

Two declarants wrote that asylum officers actively
prevented them from stating that they feared returning to
Mexico. Alex Doe wrote:
When I tried to respond and explain [why I
had left Honduras] the officer told me
something like, “you are only going to
respond to the questions that I ask you,
nothing more.” This prevented me from
providing additional information in the
interview apart from the answers to the
questions posed by the officer.
Dennis Doe wrote:
I was not allowed to provide any information
other than the answers to the questions I was
asked. I expected to be asked more questions
and to have the opportunity to provide more
details. But the interview was fairly short,
and lasted only about 30 minutes. . . .
No one asked me if I was afraid to return to
Mexico, if I had received threats in Mexico, or
if I had felt safe in Mexico.
Two declarants did succeed in telling an asylum officer
that they feared returning to Mexico, but to no avail. Frank
Doe wrote:
He never asked me if I was afraid of returning
to Mexico. At one point, I had to interrupt
him to explain that I didn’t feel safe in
Mexico. He told me that it was too bad. He

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 47 of 57
60a

INNOVATION LAW LAB V. WOLF

47

said that Honduras wasn’t safe, Mexico
wasn’t safe, and the U.S. isn’t safe either.
Howard Doe wrote:
I told the asylum officer that I was afraid [of
returning to Mexico]. I explained that I’d
been kidnapped for fifteen days by Los Zetas
in Tuxtla Gutierrez, Chiapas, [Mexico], and
that I’d managed to escape. . . . Migrants in
Tijuana are always in danger, and I am
especially afraid because the Zetas torture
people who escape them.
Despite having told their asylum officers that they feared
returning, Frank Doe and Howard Doe were returned to
Mexico.
This evidence in the record is enough—indeed, far more
than enough—to establish that the Government’s speculations
have no factual basis. Amici in this case have filed briefs
bolstering this already more-than-sufficient evidence. For
example, Amnesty International USA, the Washington Office
on Latin America, the Latin America Working Group, and the
Institute for Women in Migration submitted an amicus brief
referencing many reliable news reports corroborating the
stories told by the declarants. We referenced several of those
reports earlier in our opinion.
Local 1924 of the American Federation of Government
Employees, a labor organization representing “men and
women who operate USCIS Asylum Pre-Screening
Operation, which has been responsible for a large part of
USCIS’s ‘credible fear’ and ‘reasonable fear’ screenings, and

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 48 of 57
61a

48

INNOVATION LAW LAB V. WOLF

for implementing [the MPP],” also submitted an amicus brief.
Local 1924 Amicus Brief at 1. Local 1924 writes in its brief:
Asylum officers are duty bound to protect
vulnerable asylum seekers from persecution.
However, under the MPP, they face a conflict
between the directives of their departmental
leaders to follow the MPP and adherence to
our Nation’s legal commitment to not
returning the persecuted to a territory where
they will face persecution. They should not
be forced to honor departmental directives
that are fundamentally contrary to the moral
fabric of our Nation and our international and
domestic legal obligations.
Id. at 24.
Based on the Supreme Court’s conclusion that Congress
intended in § 1253(h)(1) (the predecessor to § 1231(b)(3)(B))
to “parallel” the anti-refoulement provision of Article 33 of
the 1951 Convention, and based on the record in the district
court, we conclude that plaintiffs have shown a likelihood of
success on the merits of their claim that the MPP does not
comply with the United States’ anti-refoulement obligations
under § 1231(b). We need not, and do not, reach the question
whether the part of the MPP challenged as inconsistent with
our anti-refoulement obligations should have been adopted
through notice-and-comment rulemaking.
VI. Other Preliminary Injunction Factors
In addition to likelihood of success on the merits, a court
must consider the likelihood that the requesting party will

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 49 of 57
62a

INNOVATION LAW LAB V. WOLF

49

suffer irreparable harm, the balance of the equities, and the
public interest in determining whether a preliminary
injunction is justified. Winter, 555 U.S. at 20. “When the
government is a party, these last two factors merge.” Drakes
Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014)
(citing Nken v. Holder, 556 U.S. 418, 435 (2009)).
There is a significant likelihood that the individual
plaintiffs will suffer irreparable harm if the MPP is not
enjoined. Uncontested evidence in the record establishes that
non-Mexicans returned to Mexico under the MPP risk
substantial harm, even death, while they await adjudication of
their applications for asylum.
The balance of equities favors plaintiffs. On one side is
the interest of the Government in continuing to follow the
directives of the MPP. However, the strength of that interest
is diminished by the likelihood, established above, that the
MPP is inconsistent with 8 U.S.C. §§ 1225(b) and 1231(b).
On the other side is the interest of the plaintiffs. The
individual plaintiffs risk substantial harm, even death, so long
as the directives of the MPP are followed, and the
organizational plaintiffs are hindered in their ability to carry
out their missions.
The public interest similarly favors the plaintiffs. We
agree with East Bay Sanctuary Covenant:
On the one hand, the public has a “weighty”
interest “in efficient administration of the
immigration laws at the border.” Landon v.
Plasencia, 459 U.S. 21, 34 (1982). But the
public also has an interest in ensuring that
“statutes enacted by [their] representatives”

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 50 of 57
63a

50

INNOVATION LAW LAB V. WOLF
are not imperiled by executive fiat. Maryland
v. King, 567 U.S. 1301, 1301 (2012) (Roberts,
C.J., in chambers).

932 F.3d at 779 (alteration in original).
VII. Scope of the Injunction
The district court issued a preliminary injunction setting
aside the MPP—that is, enjoining the Government “from
continuing to implement or expand the ‘Migrant Protection
Protocols’ as announced in the January 25, 2018 DHS policy
memorandum and as explicated in further agency
memoranda.” Innovation Law Lab, 366 F. Supp. 3d at 1130.
Accepting for purposes of argument that some injunction
should issue, the Government objects to its scope.
We recognize that nationwide injunctions have become
increasingly controversial, but we begin by noting that it is
something of a misnomer to call the district court’s order in
this case a “nationwide injunction.” The MPP operates only
at our southern border and directs the actions of government
officials only in the four States along that border. Two of
those states (California and Arizona) are in the Ninth Circuit.
One of those states (New Mexico) is in the Tenth Circuit.
One of those states (Texas) is in the Fifth Circuit. In practical
effect, the district court’s injunction, while setting aside the
MPP in its entirety, does not operate nationwide.
For two mutually reinforcing reasons, we conclude that
the district court did not abuse its discretion in setting aside
the MPP.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 51 of 57
64a

INNOVATION LAW LAB V. WOLF

51

First, plaintiffs have challenged the MPP under the
Administrative Procedure Act (“APA”). Section 706(2)(A)
of the APA provides that a “reviewing court shall . . . hold
unlawful and set aside agency action . . . not in accordance
with law.” We held, above, that the MPP is “not in
accordance with” 8 U.S.C. § 1225(b). Section 706(2)(A)
directs that in a case where, as here, a reviewing court has
found the agency action “unlawful,” the court “shall . . . set
aside [the] agency action.” That is, in a case where
§ 706(2)(A) applies, there is a statutory directive—above and
beyond the underlying statutory obligation asserted in the
litigation—telling a reviewing court that its obligation is to
“set aside” any unlawful agency action.
There is a presumption (often unstated) in APA cases that
the offending agency action should be set aside in its entirety
rather than only in limited geographical areas. “[W]hen a
reviewing court determines that agency regulations are
unlawful, the ordinary result is that rules are vacated—not
that their application to the individual petitioners is
proscribed.” Regents of the Univ. of Cal. v. U.S. Dep’t of
Homeland Sec., 908 F3d 476, 511 (9th Cir. 2018) (internal
quotation marks omitted). “When a court determines that an
agency’s action failed to follow Congress’s clear mandate the
appropriate remedy is to vacate that action.” Cal. Wilderness
Coalition v. U.S. Dep’t of Energy, 631 F.3d 1072, 1095 (9th
Cir. 2011); see also United Steel v. Mine Safety & Health
Admin., 925 F.3d 1279, 1287 (D.C. Cir. 2019) (“The ordinary
practice is to vacate unlawful agency action.”); Gen. Chem.
Corp. v. United States, 817 F.2d 844, 848 (D.C. Cir. 1987)
(“The APA requires us to vacate the agency’s decision if it is
‘arbitrary, capricious, an abuse of discretion, or otherwise not
in accordance with law . . . .”).

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 52 of 57
65a

52

INNOVATION LAW LAB V. WOLF

Second, cases implicating immigration policy have a
particularly strong claim for uniform relief. Federal law
contemplates a “comprehensive and unified” immigration
policy. Arizona v. United States, 567 U.S. 387, 401 (2012).
“In immigration matters, we have consistently recognized the
authority of district courts to enjoin unlawful policies on a
universal basis.” E. Bay Sanctuary Covenant, 932 F.3d
at 779. We wrote in Regents of the University of California,
908 F.3d at 511, “A final principle is also relevant: the need
for uniformity in immigration policy. . . . Allowing uneven
application of nationwide immigration policy flies in the face
of these requirements.” We wrote to the same effect in
Hawaii v. Trump, 878 F.3d 662, 701 (9th Cir. 2017), rev’d on
other grounds, 138 S. Ct. 2392 (2018): “Because this case
implicates immigration policy, a nationwide injunction was
necessary to give Plaintiffs a full expression of their rights.”
The Fifth Circuit, one of only two other federal circuits with
states along our southern border, has held that nationwide
injunctions are appropriate in immigration cases. In
sustaining a nationwide injunction in an immigration case, the
Fifth Circuit wrote, “[T]he Constitution requires ‘an uniform
Rule of Naturalization’; Congress has instructed that ‘the
immigration laws of the United States should be enforced
vigorously and uniformly’; and the Supreme Court has
described immigration policy as ‘a comprehensive and
unified system.’” Texas v. United States, 809 F.3d 134,
187–88 (5th Cir. 2015) (emphasis in original; citations
omitted). In Washington v. Trump, 847 F.3d 1151 (9th Cir.
2017), we relied on the Fifth Circuit’s decision in Texas to
sustain the nationwide scope of a temporary restraining order
in an immigration case. We wrote, “[W]e decline to limit the
geographic scope of the TRO. The Fifth Circuit has held that
such a fragmented immigration policy would run afoul of the

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 53 of 57
66a

INNOVATION LAW LAB V. WOLF

53

constitutional and statutory requirement for uniform
immigration law and policy.” Id. at 1166–67.
Conclusion
We conclude that the MPP is inconsistent with 8 U.S.C.
§ 1225(b), and that it is inconsistent in part with 8 U.S.C.
§ 1231(b). Because the MPP is invalid in its entirety due to
its inconsistency with § 1225(b), it should be enjoined in its
entirety. Because plaintiffs have successfully challenged the
MPP under § 706(2)(A) of the APA, and because the MPP
directly affects immigration into this country along our
southern border, the issuance of a temporary injunction
setting aside the MPP was not an abuse of discretion.
We lift the emergency stay imposed by the motions panel,
and we affirm the decision of the district court.
AFFIRMED.

FERNANDEZ, Circuit Judge, dissenting:
I respectfully dissent from the majority opinion because
I believe that we are bound by the published decision in
Innovation Law Lab v. McAleenan (Innovation I), 924 F.3d
503 (9th Cir. 2019) (per curiam).
More specifically, we are bound by both the law of the
circuit and the law of the case. Of course, the rules that
animate the former doctrine are not the same as those that
animate the latter. See Gonzalez v. Arizona, 677 F.3d 383,
389 n.4 (9th Cir. 2012) (en banc).

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 54 of 57
67a

54

INNOVATION LAW LAB V. WOLF

As we have said: “Circuit law . . . binds all courts within
a particular circuit, including the court of appeals itself.
Thus, the first panel to consider an issue sets the law not only
for all the inferior courts in the circuit, but also future panels
of the court of appeals.” Hart v. Massanari, 266 F.3d 1155,
1171 (9th Cir. 2001). Moreover: “Once a panel resolves an
issue in a precedential opinion, the matter is deemed resolved,
unless overruled by the court itself sitting en banc, or by the
Supreme Court.” Id. (footnote omitted). Published opinions
are precedential. See id. at 1177; see also Gonzalez, 667 F.3d
at 389 n.4. That remains true, even if some later panel is
satisfied that “arguments have been characterized differently
or more persuasively by a new litigant,”1 or even if a later
panel is convinced that the earlier decision was “incorrectly
decided” and “needs reexamination.”2 And those rules are
not mere formalities to be nodded to and avoided. Rather,
“[i]nsofar as there may be factual differences between the
current case and the earlier one, the court must determine
whether those differences are material to the application of
the rule or allow the precedent to be distinguished on a
principled basis.” Hart, 266 F.3d at 1172. In this case, there
are no material differences — in fact, the situation before this
panel is in every material way the same as that before the
motions panel. Furthermore, there is no doubt that motions
panels can publish their opinions,3 even though they do not
generally do so.4 Once published, there is no difference
1

United States v. Ramos-Medina, 706 F.3d 932, 939 (9th Cir. 2013).

2

Naruto v. Slater, 888 F.3d 418, 425 n.7 (9th Cir. 2018).

3

See 9th Cir. Gen. Order 6.3(g)(3)(ii); see also id. at 6.4(b).

See Haggard v. Curry, 631 F.3d 931, 933 n.1 (9th Cir. 2010) (per
curiam).
4

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 55 of 57
68a

INNOVATION LAW LAB V. WOLF

55

between motions panel opinions and other opinions; all are
entitled to be considered with the same principles of
deference by ensuing panels. Thus, any hesitation about
whether they should be precedential must necessarily come
before the panel decides to publish, not after. As we held in
Lair v. Bullock, 798 F.3d 736 (9th Cir. 2015):
Lair contended at oral argument that a
motions panel’s decision cannot bind a merits
panel, and as a result we are not bound by the
motions panel’s analysis in this case. Not so.
We have held that motions panels can issue
published decisions. . . . [W]e are bound by a
prior three-judge panel’s published opinions,
and a motions panel’s published opinion binds
future panels the same as does a merits
panel’s published opinion.
Id. at 747 (citations omitted). Therefore, the legal
determinations in Innovation I are the law of the circuit.
We have explained the law of the case doctrine as “a
jurisprudential doctrine under which an appellate court does
not reconsider matters resolved on a prior appeal.” Jeffries v.
Wood, 114 F.3d 1484, 1488–89 (9th Cir. 1997) (en banc),
overruled on other grounds by Gonzalez, 677 F.3d at 389 n.4.
While we do have discretion to decline application of the
doctrine, “[t]he prior decision should be followed unless:
(1) the decision is clearly erroneous and its enforcement
would work a manifest injustice, (2) intervening controlling
authority makes reconsideration appropriate, or
(3) substantially different evidence was adduced at a
subsequent trial.” Id. at 1489 (internal quotation marks and

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 56 of 57
69a

56

INNOVATION LAW LAB V. WOLF

footnote omitted).5 We have also indicated that, in general,
“our decisions at the preliminary injunction phase do not
constitute the law of the case,”6 but that is principally because
the matter is at the preliminary injunction stage and a further
development of the factual record as the case progresses to its
conclusion may well require a change in the result.7 Even so,
decisions “on pure issues of law . . . are binding.” Ranchers
Cattlemen, 499 F.3d at 1114. Of course, the case at hand has
not progressed beyond the preliminary injunction stage. It is
still at that stage, and the factual record has not significantly
changed between the record at the time of the decision
regarding the stay motion and the current record. Therefore,
as I see it, absent one of the listed exceptions, which I do not
perceive to be involved here, the law of the case doctrine
would also direct that we are bound by much of the motions
panel’s decision in Innovation I.
Applying those doctrines:
(1) The individuals and the organizational plaintiffs are
not likely to succeed on the substantive claim that the
Migrant Protection Protocols directive (the MPP) was not

The majority seems to add a fourth exception, that is, motions panel
decisions never constitute the law of the case. That would be strange if
they can constitute the law of the circuit, which they can.
5

6

Ranchers Cattlemen Action Legal Fund United Stockgrowers of Am.
v. U.S. Dep’t of Agric., 499 F.3d 1108, 1114 (9th Cir. 2007); see also
Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1074, 1076 n.5 (9th Cir. 2015);
Ctr. for Biological Diversity v. Salazar, 706 F.3d 1085, 1090 (9th Cir.
2013).
7

See Ctr. for Biological Diversity, 706 F.3d at 1090.

Case: 19-15716, 02/28/2020, ID: 11612187, DktEntry: 89-1, Page 57 of 57
70a

INNOVATION LAW LAB V. WOLF
authorized by 8 U.S.C. § 1225(b)(2)(C).
924 F.3d at 506–09.

57
Innovation I,

(2) The individuals and organizational plaintiffs are not
likely to succeed on their procedural claim that the MPP’s
adoption violated the notice and comment provisions of the
Administrative Procedure Act. See 5 U.S.C. § 553(b), (c);
Innovation I, 924 F.3d at 509–10.
(3) As the motions panel determined, due to the errors in
deciding the issues set forth in (1) and (2), the preliminary
injunction lacks essential support and cannot stand. Thus, we
should vacate and remand.
(4) I express no opinion on whether the district court
could issue a narrower injunction targeting the problem
identified by Judge Watford, that is, the dearth of support for
the government’s unique rule8 that an alien processed under
the MPP must spontaneously proclaim his fear of persecution
or torture in Mexico. See Innovation I, 924 F.3d at 511–12
(Watford, J., concurring)
Thus, I respectfully dissent.

Cf. 8 C.F.R. § 235.3(b)(2)(i). That regulation describes information
which must be provided to an alien facing expedited removal, including
a Form I-867AB; the A portion of the pair of forms explains that the
United States provides protection for those who face persecution or torture
upon being sent home, and the B portion requires asking specific
questions about whether the alien fears that kind of harm. See U.S.
Immigration & Naturalization Serv., Forms I-867A & I-867B, reprinted
in 9 Charles Gordon et al., Immigration Law & Procedure app. B,
at 102–05 (2019).
8

71a
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INNOVATION LAW LAB; CENTRAL
AMERICAN RESOURCE CENTER OF
NORTHERN CALIFORNIA; CENTRO
LEGAL DE LA RAZA; UNIVERSITY OF
SAN FRANCISCO SCHOOL OF LAW
IMMIGRATION AND DEPORTATION
DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER,
Plaintiffs-Appellees,
v.
KEVIN K. MCALEENAN, Acting
Secretary of Homeland Security, in
his official capacity; U.S.
DEPARTMENT OF HOMELAND
SECURITY; LEE FRANCIS CISSNA,
Director, U.S. Citizenship and
Immigration Services, in his official
capacity; JOHN L. LAFFERTY, Chief
of Asylum Division, U.S.
Citizenship and Immigration
Services, in his official capacity;
UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; TODD C.
OWEN, Executive Assistant
Commissioner, Office of Field
Operations, U.S. Customs and
Border Protection, in his official

No. 19-15716
D.C. No.
3:19-cv-00807RS
OPINION

72a

capacity; U.S. CUSTOMS AND
BORDER PROTECTION; MATTHEW T.
ALBENCE, Acting Director, U.S.
Immigration and Customs
Enforcement, in his official capacity;
U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT,
Defendants-Appellants.

Motion for Stay of an Order of the
United States District Court
for the Northern District of California
Richard Seeborg, District Judge, Presiding
Argued and Submitted April 24, 2019
San Francisco, California
Filed May 7, 2019
Before: Diarmuid F. O’Scannlain, William A. Fletcher,
and Paul J. Watford, Circuit Judges.
Per Curiam Opinion;
Concurrence by Judge Watford;
Concurrence by Judge W. Fletcher

73a
SUMMARY *
Immigration
The panel granted the Department of Homeland
Security’s motion for a stay of the district court’s
preliminary injunction in an action challenging the Migrant
Protection Protocols.
In January 2019, the Department of Homeland Security
(DHS) issued the Migrant Protection Protocols (MPP),
which directs the “return” of certain asylum applicants who
arrive from Mexico as a substitute to the traditional options
of detention and parole. Under the MPP, these applicants
are processed for standard removal proceedings, instead of
expedited removal, and they are then made to wait in Mexico
until an immigration judge resolves their asylum claims.
Applicants for admission are processed either through
expedited removal proceedings under 8 U.S.C. § 1225(b)(1)
or through regular removal proceedings under 8 U.S.C.
§ 1225(b)(2)(A). An applicant is eligible for expedited
removal only if an immigration officer determines that the
individual is inadmissible on one of two grounds: (1) fraud
or misrepresentation or (2) lack of documentation. If an
immigration officer determines that an alien is inadmissible
on those grounds, the officer shall order the alien removed
without further hearing or review unless the alien indicates
an intention to apply for asylum or a fear of persecution.

*
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

74a
All applicants for admission who are not processed for
expedited removal under § 1225(b)(1) are placed in regular
removal proceedings under § 1225(b)(2)(A), a process that
generally entails a hearing before an immigration judge.
Section 1225(b)(2)(C) permits applicants processed under
regular removal proceedings to be returned to the contiguous
territory from which they arrived for the duration of their
removal proceedings.
DHS relied on the contiguous-territory provision in
subsection (b)(2)(C) as the statutory basis for the MPP
because that subsection authorizes DHS to return an alien
“described in subparagraph (A) [regular removal
proceedings]” to Mexico or Canada.
Noting that the eligibility criteria for subsections (b)(1)
(expedited removal) and (b)(2) (regular removal
proceedings) overlap because the latter applies to aliens who
are inadmissible on any ground, the panel concluded that it
could tell which subsection “applies” to an applicant only by
virtue of the processing decision made during the inspection
process. Observing that plaintiffs were not processed under
§ 1225(b)(1), the panel stated it was doubtful that subsection
(b)(1) “applies” to them merely because subsection (b)(1)
could have been applied.
Accordingly, the panel concluded that plaintiffs were
properly subject to the contiguous territory provision
because they were processed in accordance with subsection
(b)(2)(A) (regular removal proceedings) and concluded that
DHS is likely to prevail on its contention that § 1225(b)(1)
(expedited removal) “applies” only to applicants for
admission who are processed under its provision.

75a
The panel also concluded that DHS is likely to prevail
against plaintiffs’ claim that the MPP should be enjoined
because it should have gone through the notice-andcomment process under the Administrative Procedure Act
(APA).
Finally, the panel concluded that the remaining factors
governing issuance of a stay – irreparable harm to the
government, substantial injury to the plaintiffs, and the
public interest – weigh in the government’s favor.
Concurring, Judge Watford wrote that the MPP must
also comply with the principle of non-refoulement, which
proscribes the United States from returning a person to a
state where he or she would be persecuted on a protected
ground or be in danger of being subjected to torture. Judge
Watford wrote the MPP is virtually guaranteed to result in
some applicants being returned to Mexico in violation of
non-refoulement obligations because it does not require
DHS to ask applicants if they fear being returned to Mexico.
He wrote that the appropriate relief for this arbitrary and
capricious aspect of the MPP’s implementation will involve
(at the very least) an injunction directing DHS to ask
applicants for admission whether they fear being returned to
Mexico.
Concurring only in the result, Judge W. Fletcher wrote
that he strongly disagrees with his colleagues, concluding
that § 1225(b)(2)(C) does not provide any authority for the
MPP. Noting that § 1225(b)(1) and § 1225(b)(2) are two
separate and non-overlapping categories of applicants for
admission, Judge W. Fletcher concluded that there is nothing
in § 1225(b)(1) or in § 1225(b)(2) to indicate that a § (b)(1)
applicant may be “returned” under § 1225(b)(2)(C) and

76a
concluded that, therefore, the contiguous-territory provision
is available only for § (b)(2) applicants.
COUNSEL
Scott G. Stewart (argued), Deputy Assistant Attorney
General; Archith Ramkumar, Trial Attorney; Erez Reuveni,
Assistant Director; William C. Peachey, Director; Joseph H.
Hunt, Assistant Attorney General; Office of Immigration
Litigation, United States Department of Justice, Civil
Division, Washington, D.C.; for Defendants-Appellants.
Judy Rabinovitz (argued), Daniel Galindo, Anand
Balakrishnan, Lee Gelernt, Omar Jadwat, and Michael Tan,
American Civil Liberties Union Foundation, Immigrants’
Rights Project, New York, New York; Julie Veroff, Cody
Wofsy, Katrina Eiland, and Jennifer Chang Newell,
American Civil Liberties Union Foundation, Immigrants’
Rights Project, San Francisco, California; Michelle P.
Gonzalez, Southern Poverty Law Center, Miami, Florida;
Gracie Willis, Southern Poverty Law Center, Decatur,
Georgia; Mary Bauer, Southern Poverty Law Center,
Charlottesville, Virginia; Melissa Crow, Southern Poverty
Law Center, Washington, D.C.; Steven Watt, ACLU
Foundation Human Rights Program, New York, New York;
Sayoni Maitra, Kathryn Jastram, Eunice Lee, Karen Musalo,
and Blaine Bookey, Center for Constitutional Rights, San
Francisco, California; Christine P. Sun and Sean Riordan,
American Civil Liberties Union, Foundation of Northern
California Inc., San Francisco, California; for PlaintiffsAppellees.

77a
OPINION
PER CURIAM:
In January 2019, the Department of Homeland Security
(DHS) issued the Migrant Protection Protocols (MPP),
which initiated a new inspection policy along the southern
border. Before the MPP, immigration officers would
typically process asylum applicants who lack valid entry
documentation for expedited removal. If the applicant
passed a credible fear screening, DHS would either detain or
parole the individual until her asylum claim could be heard
before an immigration judge. The MPP now directs the
“return” of asylum applicants who arrive from Mexico as a
substitute to the traditional options of detention and parole.
Under the MPP, these applicants are processed for standard
removal proceedings, instead of expedited removal. They
are then made to wait in Mexico until an immigration judge
resolves their asylum claims. Immigration officers exercise
discretion in returning the applicants they inspect, but the
MPP is categorically inapplicable to unaccompanied minors,
Mexican nationals, applicants who are processed for
expedited removal, and any applicant “who is more likely
than not to face persecution or torture in Mexico.”
Eleven Central American asylum applicants who were
returned to Tijuana, Mexico, and six organizations that
provide asylum-related legal services challenged the MPP
on several grounds in the district court. After concluding
that the MPP lacks a statutory basis and violates the
Administrative Procedure Act (APA), the district court
enjoined DHS on a nationwide basis “from continuing to
implement or expand the [MPP].”
DHS has moved for a stay of the preliminary injunction
pending its appeal to this court. Our equitable discretion in

78a
ruling on a stay motion is guided by four factors:
“(1) whether the stay applicant has made a strong showing
that he is likely to succeed on the merits; (2) whether the
applicant will be irreparably injured absent a stay;
(3) whether issuance of the stay will substantially injure the
other parties interested in the proceeding; and (4) where the
public interest lies.” Nken v. Holder, 556 U.S. 418, 434
(2009) (internal quotation marks omitted). We begin with a
discussion of the first factor, which turns largely on the
plaintiffs’ likelihood of success on their claim that the MPP
lacks statutory authorization.
I
Some background is in order before addressing the
merits of the plaintiffs’ statutory claim. Congress has
established an exhaustive inspection regime for all noncitizens who seek admission into the United States. See
8 U.S.C. § 1225(a)(3).
Applicants for admission are
processed either through expedited removal proceedings or
through regular removal proceedings. Section 1225(b)(1)
outlines the procedures for expedited removal and specifies
the class of non-citizens who are eligible for expedited
removal:
If an immigration officer determines that an
alien (other than an alien described in
subparagraph (F)) who is arriving in the
United States or is described in clause (iii) is
inadmissible under section 1182(a)(6)(C) or
1182(a)(7) of this title, the officer shall order
the alien removed from the United States
without further hearing or review unless the
alien indicates either an intention to apply for
asylum under section 1158 of this title or a
fear of persecution.

79a
§ 1225(b)(1)(A)(i). Simply put, an applicant is eligible for
expedited removal only if the immigration officer
determines that the individual is inadmissible on one of two
grounds: fraud or misrepresentation (§ 1182(a)(6)(C)) or
lack of documentation (§ 1182(a)(7)).
All applicants for admission who are not processed for
expedited removal are placed in regular removal
proceedings under § 1225(b)(2)(A). That process generally
entails a hearing before an immigration judge pursuant to
§ 1229a. Section 1225(b)(2)(B) provides exceptions to
§ 1225(b)(2)(A), while § 1225(b)(2)(C) permits applicants
processed under § 1225(b)(2)(A) to be returned to the
contiguous territory from which they arrived for the duration
of their removal proceedings. Section 1225(b)(2) provides
in full:
(A) In general
Subject to subparagraphs (B) and (C), in
the case of an alien who is an applicant for
admission, if the examining immigration
officer determines that an alien seeking
admission is not clearly and beyond a doubt
entitled to be admitted, the alien shall be
detained for a proceeding under section
1229a of this title.
(B) Exception
Subparagraph (A) shall not apply to an
alien—
(i) who is a crewman,

80a
(ii) to whom paragraph (1) applies, or
(iii) who is a stowaway.
(C) Treatment of aliens arriving from
contiguous territory
In the case of an alien described in
subparagraph (A) who is arriving on land
(whether or not at a designated port of arrival)
from a foreign territory contiguous to the
United States, the Attorney General may
return the alien to that territory pending a
proceeding under section 1229a of this title.
DHS relies on the contiguous-territory provision in
subsection (b)(2)(C) as the statutory basis for the MPP. That
provision authorizes DHS to return “alien[s] described in
subparagraph (A)” to Mexico or Canada. § 1225(b)(2)(C).
The phrase “described in” refers to the “salient identifying
features” of the individuals subject to this provision. Nielsen
v. Preap, 139 S. Ct. 954, 965 (2019) (emphasis and internal
quotation marks omitted). Because the plaintiffs in this case
are not “clearly and beyond a doubt entitled to be admitted,”
they fit the description in § 1225(b)(2)(A) and thus seem to
fall within the sweep of § 1225(b)(2)(C).
As the district court interpreted the statute, however, the
contiguous-territory provision may not be applied to
applicants for admission who could have been placed in
expedited removal under § 1225(b)(1), even if they were
placed in regular removal proceedings. The crux of this
argument is § 1225(b)(2)(B)(ii), which provides that
“[s]ubparagraph (A) shall not apply to an alien . . . to whom
paragraph (1) applies.” So long as the applicant is eligible

81a
for expedited removal, the district court reasoned,
§ 1225(b)(1) “applies” to that individual. On this account, it
is immaterial that the plaintiffs were not in fact processed for
expedited removal during their inspection at the border.
The primary interpretive question presented by this stay
motion is straightforward: Does § 1225(b)(1) “apply” to
everyone who is eligible for expedited removal, or only to
those actually processed for expedited removal? The
interpretive difficulty arises mainly because the
inadmissibility grounds contained in subsections (b)(1) and
(b)(2) overlap. A subset of applicants for admission—those
inadmissible due to fraud or misrepresentation,
§ 1182(a)(6)(C), and those who do not possess a valid entry
document, § 1182(a)(7)—may be placed in expedited
removal. § 1225(b)(1)(A)(i). But as we read the statute,
anyone who is “not clearly and beyond a doubt entitled to be
admitted” can be processed under § 1225(b)(2)(A). Section
1225(b)(2)(A) is thus a “catchall” provision in the literal
sense, and Congress’ creation of expedited removal did not
impliedly preclude the use of § 1229a removal proceedings
for those who could otherwise have been placed in the more
streamlined expedited removal process. See Matter of E-RM- & L-R-M-, 25 I. & N. Dec. 520, 522–24 (BIA 2011).
Because the eligibility criteria for subsections (b)(1) and
(b)(2) overlap, we can tell which subsection “applies” to an
applicant only by virtue of the processing decision made
during the inspection process. Take first the procedures for
designating an applicant for expedited removal. When the
immigration officer “determines” that the applicant “is
inadmissible” under § 1182(a)(6)(C) or (a)(7), he “shall
order the alien removed from the United States without
further hearing” unless the applicant requests asylum or
expresses a fear of persecution, in which case the officer

82a
“shall refer the alien for an interview by an asylum officer
under subparagraph (B).” 8 U.S.C. § 1225(b)(1)(A)(i)–(ii).
In other words, the officer decides inadmissibility on the spot
without sending the matter to an immigration judge. DHS’s
regulations further explain that a § 1225(b)(1) determination
entails either the issuance of a Notice and Order of Expedited
Removal or the referral of the applicant for a credible fear
screening. 8 C.F.R. § 235.3(b)(2)(i), (4); see also id.
§ 208.30. And to “remove any doubt” on the issue,
§ 1225(b)(2)(B) clarifies that applicants processed in this
manner are not entitled to a proceeding under § 1229a. Ali
v. Fed. Bureau of Prisons, 552 U.S. 214, 226 (2008).
In contrast, § 1225(b)(2) is triggered “if the examining
immigration officer determines that an alien seeking
admission is not clearly and beyond a doubt entitled to be
admitted.” 8 U.S.C. § 1225(b)(2)(A). Following this
determination, the officer will issue a Notice to Appear,
which is the first step in a § 1229a proceeding. 8 C.F.R.
§ 235.6(a)(1)(i); see also id. § 208.2(b). A Notice to Appear
can charge inadmissibility on any ground, including the two
that render an individual eligible for expedited removal.
8 U.S.C. § 1229a(a)(2). The officer then sets a date for a
hearing on the issue before an immigration judge. See
Pereira v. Sessions, 138 S. Ct. 2105, 2111 (2018).
The plaintiffs were not processed under § 1225(b)(1).
We are doubtful that subsection (b)(1) “applies” to them
merely because subsection (b)(1) could have been applied.
And we think that Congress’ purpose was to make return to
a contiguous territory available during the pendency of
§ 1229a removal proceedings, as opposed to being
contingent on any particular inadmissibility ground. Indeed,
Congress likely believed that the contiguous-territory
provision would be altogether unnecessary if an applicant

83a
had already been processed for expedited removal. The
plaintiffs are properly subject to the contiguous-territory
provision because they were processed in accordance with
§ 1225(b)(2)(A).
Though the plaintiffs contend otherwise, our approach is
consistent with the subsections’ headings.
Section
1225(b)(1) is titled “Inspection of aliens arriving in the
United States and certain other aliens who have not been
admitted or paroled,” and § 1225(b)(2) is labeled
“Inspection of other aliens.” The plaintiffs interpret
§ 1225(b) to create two mutually exclusive pre-inspection
categories of applicants for admission; as explained above,
we read the statute to create two mutually exclusive postinspection categories. In our view, those who are not
processed for expedited removal under § 1225(b)(1) are the
“other aliens” subject to the general rule of § 1225(b)(2).
Our interpretation is also consistent with Jennings v.
Rodriguez, 138 S. Ct. 830 (2018), the principal authority on
which the plaintiffs rely. There, the Supreme Court
explained that “applicants for admission fall into one of two
categories, those covered by § 1225(b)(1) and those covered
by § 1225(b)(2).” Id. at 837. As the Court noted, “Section
1225(b)(1) applies to aliens initially determined to be
inadmissible due to fraud, misrepresentation, or lack of valid
documentation.” Id. (emphasis added). “Section 1225(b)(2)
is broader,” since it “serves as a catchall provision that
applies to all applicants for admission not covered by
§ 1225(b)(1).” Id. We think our interpretation more closely
matches the Court’s understanding of the mechanics of
§ 1225(b), as it is attentive to the role of the immigration
officer’s initial determination under § 1225(b)(1) and to
§ 1225(b)(2)’s function as a catchall.

84a
For the foregoing reasons, we conclude that DHS is
likely to prevail on its contention that § 1225(b)(1) “applies”
only to applicants for admission who are processed under its
provisions. Under that reading of the statute, § 1225(b)(1)
does not apply to an applicant who is processed under
§ 1225(b)(2)(A), even if that individual is rendered
inadmissible by § 1182(a)(6)(C) or (a)(7). As a result,
applicants for admission who are placed in regular removal
proceedings under § 1225(b)(2)(A) may be returned to the
contiguous territory from which they arrived under
§ 1225(b)(2)(C).
The plaintiffs have advanced only one other claim that
could justify a nationwide injunction halting the
implementation of the MPP on a wholesale basis: that the
MPP should have gone through the APA’s notice-andcomment process. DHS is likely to prevail on this claim as
well, since “general statements of policy” are exempted from
the notice-and-comment requirement. 5 U.S.C. § 553(b)(A).
The MPP qualifies as a general statement of policy because
immigration officers designate applicants for return on a
discretionary case-by-case basis. See Regents of the Univ. of
Cal. v. U.S. Dep’t of Homeland Sec., 908 F.3d 476, 507 (9th
Cir. 2018); Mada-Luna v. Fitzpatrick, 813 F.2d 1006, 1013
(9th Cir. 1987).
II
The remaining factors governing issuance of a stay
pending appeal weigh in the government’s favor. As to the
second factor, DHS is likely to suffer irreparable harm
absent a stay because the preliminary injunction takes off the
table one of the few congressionally authorized measures
available to process the approximately 2,000 migrants who
are currently arriving at the Nation’s southern border on a
daily basis. See East Bay Sanctuary Covenant v. Trump,

85a
909 F.3d 1219, 1250–51 (9th Cir. 2018). DHS has therefore
made a strong showing on both the first and second factors,
which are the “most critical.” Nken, 556 U.S. at 434.
The other two factors support the issuance of a stay as
well. The plaintiffs fear substantial injury upon return to
Mexico, but the likelihood of harm is reduced somewhat by
the Mexican government’s commitment to honor its
international-law obligations and to grant humanitarian
status and work permits to individuals returned under the
MPP. We are hesitant to disturb this compromise amid
ongoing diplomatic negotiations between the United States
and Mexico because, as we have explained, the preliminary
injunction (at least in its present form) is unlikely to be
sustained on appeal. Finally, the public interest favors the
“efficient administration of the immigration laws at the
border.” East Bay Sanctuary Covenant, 909 F.3d at 1255
(quoting Landon v. Plasencia, 459 U.S. 21, 34 (1982)).
The motion for a stay pending appeal is GRANTED.

WATFORD, Circuit Judge, concurring:
I agree that the Department of Homeland Security (DHS)
is likely to prevail on the plaintiffs’ primary claim, as
8 U.S.C. § 1225(b) appears to authorize DHS’s new policy
of returning applicants for admission to Mexico while they
await the outcome of their removal proceedings. But
congressional authorization alone does not ensure that the
Migrant Protection Protocols (MPP) are being implemented
in a legal manner. As then-Secretary of Homeland Security
Kirstjen Nielsen recognized, the MPP must also comply with
“applicable domestic and international legal obligations.”
One of those legal obligations is imposed by Article 33 of

86a
the 1951 Convention Relating to the Status of Refugees,
which provides:
No Contracting State shall expel or return
(“refouler”) a refugee in any manner
whatsoever to the frontiers of territories
where his life or freedom would be
threatened on account of his race, religion,
nationality, membership of a particular social
group or political opinion.
Protocol Relating to the Status of Refugees art. I, Jan. 31,
1967, 19 U.S.T. 6223, 6225, 6276 (binding the United States
to comply with Article 33). Article 3 of the Convention
Against Torture and Other Cruel, Inhuman or Degrading
Treatment or Punishment similarly provides:
No State Party shall expel, return (“refouler”)
or extradite a person to another State where
there are substantial grounds for believing
that he would be in danger of being subjected
to torture.
Convention Against Torture and Other Cruel, Inhuman or
Degrading Treatment or Punishment art. 3, Dec. 10, 1984, S.
Treaty Doc. No. 100-20, at 20 (1988).
DHS’s stated goal is to ensure that the MPP is
implemented in a manner that complies with the nonrefoulement principles embodied in these treaty provisions.
Specifically, Secretary Nielsen’s policy guidance on
implementation of the MPP declares that “a third-country
national should not be involuntarily returned to Mexico
pursuant to Section 235(b)(2)(C) of the INA if the alien
would more likely than not be persecuted on account of race,
religion, nationality, membership in a particular social

87a
group, or political opinion . . . , or would more likely than
not be tortured, if so returned pending removal proceedings.”
In my view, DHS has adopted procedures so ill-suited to
achieving that stated goal as to render them arbitrary and
capricious under the Administrative Procedure Act. See
5 U.S.C. § 706(2)(A). Under DHS’s current procedures,
immigration officers do not ask applicants being returned to
Mexico whether they fear persecution or torture in that
country. Immigration officers make inquiries into the risk of
refoulement only if an applicant affirmatively states that he
or she fears being returned to Mexico.
DHS’s policy is virtually guaranteed to result in some
number of applicants being returned to Mexico in violation
of the United States’ non-refoulement obligations. It seems
fair to assume that at least some asylum seekers subjected to
the MPP will have a legitimate fear of persecution in
Mexico. Some belong to protected groups that face
persecution both in their home countries and in Mexico, and
many will be vulnerable to persecution in Mexico because
they are Central American migrants. It seems equally fair to
assume that many of these individuals will be unaware that
their fear of persecution in Mexico is a relevant factor in
determining whether they may lawfully be returned to
Mexico, and hence is information they should volunteer to
an immigration officer. If both of those assumptions are
accurate, DHS will end up violating the United States’ treaty
obligations by returning some number of asylum seekers to
Mexico who should have been allowed to remain in the
United States.
There is, of course, a simple way for DHS to help ensure
that the United States lives up to its non-refoulement
obligations: DHS can ask asylum seekers whether they fear
persecution or torture in Mexico. I’m at a loss to understand

88a
how an agency whose professed goal is to comply with nonrefoulement principles could rationally decide not to ask that
question, particularly when immigration officers are already
conducting one-on-one interviews with each applicant. This
policy of refusing to ask seems particularly irrational when
contrasted with how DHS attempts to uphold the United
States’ non-refoulement obligations in expedited removal
proceedings. In that context, immigration officers are
required to ask applicants whether they fear being removed
from the United States and returned to their home countries.
See 8 C.F.R. § 235.3(b)(2)(i) (requiring immigration officers
to use Form I-867B). Since the same non-refoulement
principles apply to removal and return alike, DHS must
explain why it affirmatively asks about fear of persecution
in the removal context but refrains from asking that question
when applying the MPP.
DHS has not, thus far, offered any rational explanation
for this glaring deficiency in its procedures. (One suspects
the agency is not asking an important question during the
interview process simply because it would prefer not to hear
the answer.) As the record stands now, then, it seems likely
that the plaintiffs will succeed in establishing that DHS’s
procedures for implementing the MPP are arbitrary and
capricious, at least in the respect discussed above.
Success on this claim, however, cannot support issuance
of the preliminary injunction granted by the district court.
We explained recently that the “scope of the remedy must be
no broader and no narrower than necessary to redress the
injury shown by the plaintiff.” California v. Azar, 911 F.3d
558, 584 (9th Cir. 2018). Here, the plaintiffs’ injury can be
fully remedied without enjoining the MPP in its entirety, as
the district court’s preliminary injunction currently does. I
expect that appropriate relief for this arbitrary and capricious

89a
aspect of the MPP’s implementation will involve (at the very
least) an injunction directing DHS to ask applicants for
admission whether they fear being returned to Mexico. The
precise scope of such relief would need to be fashioned after
further proceedings in the district court. In the meantime,
the government is entitled to have the much broader
preliminary injunction currently in place stayed pending
appeal.

W. FLETCHER, Circuit Judge, concurring only in the result:
I strongly disagree with my colleagues.
The question of law in this case can be stated simply:
The Government relies on 8 U.S.C. § 1225(b)(2)(C) for
authority to promulgate its new Migrant Protection Protocols
(“MPP”). If § 1225(b)(2)(C) provides such authority, the
MPP is valid. If it does not, the MPP is invalid. The question
is thus whether § 1225(b)(2)(C) provides authority for
promulgation of the MPP. The answer can also be stated
simply: The Government is wrong. Not just arguably
wrong, but clearly and flagrantly wrong.
Section
1225(b)(2)(C) does not provide authority for the MPP.
***
I begin with a short summary of established law. Under
the Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (“IIRIRA”), arriving aliens
applying for admission into the United States fall into two
separate and non-overlapping categories.
First, there are aliens described in 8 U.S.C. § 1225(b)(1).
These are alien applicants for admission who are traveling

90a
with fraudulent documents or no documents. Immigration
officers are required by regulation to ask whether these
applicants fear persecution in their home country. If so, they
are referred for a “credible fear” interview with an asylum
officer. If they are found to have a credible fear of
persecution in their home country, and are therefore
potentially eligible for asylum, they are placed in a regular
removal proceeding under 8 U.S.C. § 1229a. In that
proceeding, an Immigration Judge (“IJ”) can find them
either eligible or ineligible for asylum. Applicants who are
referred to regular removal proceedings are entitled to
remain in the United States while their eligibility for asylum
is determined. Applicants found not to have a credible fear
are subject to expedited removal without any formal
proceeding.
Second, there are aliens described in 8 U.S.C.
§ 1225(b)(2). These are all alien applicants for admission
not described in § 1225(b)(1). In the words of the statute,
they are “other aliens.” § 1225(b)(2) (heading). Section
(b)(2) applicants include aliens who are suspected of being,
inter alia, drug addicts, convicted criminals, terrorists, or
alien smugglers, and who would therefore be inadmissible.
See 8 U.S.C. § 1182(a)(1)(A)(iv); (a)(2); (a)(3)(B);
(a)(6)(E). Unlike § (b)(1) applicants, § (b)(2) applicants are
automatically referred to regular removal proceedings under
§ 1229a. In those proceedings, an IJ can determine whether
the applicants are, in fact, inadmissible on a ground specified
in § 1182(a). Also unlike § (b)(1) applicants, § (b)(2)
applicants are not entitled to remain in the United States
while their admissibility is determined. At the discretion of
the Government, they may be “returned” to a “contiguous
territory” pending determination of their admissibility.
§ 1225(b)(2)(C).

91a
This statutory structure has been well understood ever
since the passage of IIRIRA in 1996, and until now the
Government has consistently acted on the basis of this
understanding. The Government today argues for an entirely
new understanding of the statute, based on arguments never
before made or even suggested.
***
It is undisputed that plaintiffs are bona fide asylum
applicants under § (b)(1). Although it has long been
established that § (b)(1) applicants are entitled to stay in the
United States while their eligibility for asylum is
determined, the Government is now sending § (b)(1)
applicants back to Mexico. The Government refuses to treat
them as § (b)(1) applicants. Instead, the Government
improperly treats them under the MPP as § (b)(2) applicants
who can be “returned” to Mexico under § 1225(b)(2)(C).
The Government’s arguments in support of the MPP are not
only unprecedented. They are based on an unnatural and
forced—indeed, impossible—reading of the statutory text.
The relevant text of 8 U.S.C. § 1225 is as follows:
(a) Inspection
(1) Aliens treated as applicants for
admission
An alien present in the United
States who has not been admitted . . .
shall be deemed for purposes of this
chapter an applicant for admission.
...

92a
(b) Inspection of applicants for admission
(1) Inspection of aliens arriving in the
United States and certain other
aliens who have not been admitted
or paroled
(A) Screening
(i) In general
If an immigration officer
determines that an alien . . .
who is arriving in the United
States . . . is inadmissible
under section 1182(a)(6)(C)
or 1182(a)(7) of this title, the
officer shall order the alien
removed from the United
States without further hearing
or review unless the alien
indicates either an intention to
apply for asylum under
section 1158 of this title or a
fear of persecution.
(ii) Claims for asylum
If an immigration officer
determines that an alien . . . is
inadmissible under section
1182(a)(6)(C) or 1182(a)(7)
of this title and the alien
indicates either an intention to
apply for asylum under

93a
section 1158 of this title or a
fear of persecution, the officer
shall refer the alien for an
interview by an asylum
officer under subparagraph
(B).
...
(B) Asylum interviews
...
(ii) Referral of certain aliens
If the [asylum] officer
determines at the time of the
interview that an alien has a
credible fear of persecution
. . . , the alien shall be
detained
for
further
consideration
of
the
application for asylum.
...
(2) Inspection of other aliens
(A) In general
Subject to subparagraphs (B)
and (C), in the case of an alien
who is an applicant for admission,
if the examining immigration
officer determines that an alien

94a
seeking admission is not clearly
and beyond a doubt entitled to be
admitted, the alien shall be
detained for a proceeding under
section 1229a of this title.
(B) Exception
Subparagraph (A) shall not
apply to an alien—
(i) who is a crewman
(ii) to whom
applies, or

paragraph

(1)

(iii) who is a stowaway.
(C) Treatment of aliens arriving
from contiguous territory
In the case of an alien
described in subparagraph (A)
who is arriving on land (whether
or not at a designated port of
arrival) from a foreign territory
contiguous to the United States,
the Attorney General may return
the alien to that territory pending
a proceeding under section 1229a
of this title.
The statutory text is unambiguous. There are two
categories of “applicants for admission.” § 1225(a). First,

95a
there are applicants described in § 1225(b)(1). Second, there
are applicants described in § 1225(b)(2).
Applicants described in § 1225(b)(1) are those who may
be inadmissible under § 1182(a)(6)(C) (applicants traveling
with fraudulent documents) or under § 1182(a)(7)
(applicants with no valid documents).
Applicants described in § 1225(b)(2) are distinct. In the
words of the statute, they are “other aliens.” § 1225(b)(2)
(heading). Put differently, again in the words of the statute,
§ (b)(2) applicants are applicants “to whom paragraph
[b](1)” does not apply. § 1225(b)(2)(B)(ii). That is, § (b)(1)
applicants are those who may be inadmissible on either of
the two grounds specified in that subsection. Section (b)(2)
applicants are all other potentially inadmissible applicants.
Section (b)(1) applicants are more numerous than
§ (b)(2) applicants, but § (b)(2) is a broader category in the
sense that applicants under § (b)(2) are inadmissible on more
grounds than applicants under § (b)(1).
Applicants
inadmissible under § (b)(2) include, for example, aliens with
“a communicable disease of public health significance” or
who are “drug abuser[s] or addict[s]” (§ 1182(a)(1)(A)(i),
(iv)); aliens who have “committed . . . a crime involving
moral turpitude” or who have “violat[ed] . . . any law or
regulation . . . relating to a controlled substance”
(§ 1182(a)(2)(A)(i)); aliens who “seek to enter the United
States . . . to violate any law of the United States relating to
espionage or sabotage,” or who have “engaged in a terrorist
activity” (§ 1182(a)(3)(A), (B)); aliens who are “likely . . .
to become a public charge” (§ 1182(a)(4)(A)); and aliens
who are alien “smugglers” (§ 1182(a)(6)(E)).

96a
Just last year, the Supreme Court distinguished between
§ (b)(1) and § (b)(2) applicants, stating clearly that they fall
into two separate categories:
[A]pplicants for admission fall into one of
two categories, those covered by
§ 1225(b)(1) and those covered by
§ 1225(b)(2). Section 1225(b)(1) applies to
aliens initially determined to be inadmissible
due to fraud, misrepresentation, or lack of
valid documentation. . . . Section 1225(b)(2)
is broader. It serves as a catchall provision
that applies to all applicants for admission
not covered by § 1225(b)(1).
Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018) (emphasis
added).
Less than a month ago, the Attorney General of the
United States drew the same distinction and briefly
described the procedures applicable to the two categories:
Under section 235 of the Act [8 U.S.C.
§ 1225], all aliens “arriv[ing] in the United
States” or “present in the United States
[without having] been admitted” are
considered “applicants for admission,” who
“shall be inspected by immigration officers.”
INA § 235(a)(1), (3). [8 U.S.C. § 1225(a)(1),
(3).] In most cases, those inspections yield
one of three outcomes. First, if an alien is
“clearly and beyond a doubt entitled to be
admitted,” he will be permitted to enter, or
remain in, the country without further
proceedings. Id. § 235(b)(2)(A). [8 U.S.C.
§ 1225(b)(2)(A).] Second, if the alien is not

97a
clearly admissible, then, generally, he will be
placed in “proceeding[s] under section 240
[8 U.S.C. § 1229a]” of the Act—that is, full
removal proceedings. Id. Third, if the alien
is inadmissible on one of two specified
grounds and meets certain additional criteria,
DHS may place him in either expedited or
full proceedings. Id. § 235(b)(1)(A)(i)
[8 U.S.C. § 1225(b)(1)(A)(i)]; see Matter of
E-R-M- & L-R-M-, 25 I&N Dec. 520, 524
(BIA 2011).
Matter of M-S-, 27 I. & N. Dec. 509, 510 (BIA April 16,
2019).
The procedures specific to the two categories of
applicants are given in their respective subsections.
To some extent, the statutorily prescribed procedures are
the same for both categories. If a § (b)(1) applicant passes
his or her credible fear interview he or she will be placed in
regular removal proceedings under 8 U.S.C. § 1229a. See
8 C.F.R. § 208.30(f). A § (b)(1) applicant may also be
placed directly into regular removal proceedings under
§ 1229a at the discretion of the Government. See Matter of
E-R-M- & L-R-M-, 25 I. & N. Dec. 520 (BIA 2011). A
§ (b)(2) applicant who is “not clearly and beyond a doubt
entitled to be admitted” will also be placed in removal
proceedings under § 1229a. See § 1225(b)(2)(A).
Both § (b)(1) and § (b)(2) applicants can thus be placed
in regular removal proceedings under § 1229a, though by
different routes. But the fact that an applicant is in removal
proceedings under § 1229a does not change his or her
underlying category. A § (b)(1) applicant does not become
a § (b)(2) applicant, or vice versa, by virtue of being placed

98a
in a removal proceeding under § 1229a. A homely analogy
may help make the point. Dogs and cats can both be placed
in the pound. But they still retain their separate identities.
Dogs do not become cats, or vice versa.
However, the statutory procedures for the two categories
are not identical. Some of the procedures are exclusive to
one category or the other. For example, if a § (b)(1)
applicant fails to pass his or her credible fear interview, he
or she may be removed in an expedited proceeding without
a removal proceeding under § 1229a. See § 1225(b)(1)(A),
(B). There is no comparable procedure for expedited
removal of a § (b)(2) applicant.
Further, in some
circumstances a § (b)(2) applicant may be “returned” to a
“territory contiguous to the United States” pending his or her
removal proceeding under § 1229a. See § 1225(b)(2)(C).
There is no comparable procedure for a § (b)(1) applicant.
The precise question in this case is whether a § (b)(1)
applicant may be “returned” to a contiguous territory under
§ 1225(b)(2)(C). That is, may a § (b)(1) applicant be
subjected to a procedure specified for a § (b)(2) applicant?
A plain-meaning reading of § 1225(b)—as well as the
Government’s longstanding and consistent practice—tell us
that the answer is “no.”
There is nothing in § 1225(b)(1) to indicate that a
§ (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Section (b)(1)(A)(i) tells us with respect to § (b)(1)
applicants that an “officer shall order the alien removed . . .
without further hearing or review unless the alien indicates
either an intention to apply for asylum . . . or a fear of
persecution.” Section (b)(1)(A)(ii) tells us that § (b)(1)
applicants who indicate an intention to apply for asylum or
a fear of persecution “shall” be referred by the immigration
officer to an “asylum officer” for an interview. The

99a
remainder of § 1225(b)(1) specifies what happens to a
§ (b)(1) applicant depending on the determination of the
asylum officer—either expedited removal or detention
pending further consideration. § 1225(b)(1)(B)(ii)–(iii).
There is nothing in § 1225(b)(1) stating, or even suggesting,
that a § (b)(1) applicant is subject to the “return” procedure
of § 1225(b)(2)(C).
Nor is there anything in § 1225(b)(2) to indicate that a
§ (b)(1) applicant may be “returned” under § 1225(b)(2)(C).
Taking § 1225(b)(2) subparagraph by subparagraph, it
provides as follows. Subparagraph (A) tells us that unless a
§ (b)(2) applicant is “clearly and beyond a doubt entitled to
be admitted,” she or he “shall be detained” for a removal
proceeding under § 1229a. § 1225(b)(2)(A). Subparagraph
(A) is “[s]ubject to subparagraphs (B) and (C).” Id.
Subparagraph (B) tells us that subparagraph (A) does not
apply to three categories of aliens—“crewm[e]n,” § (b)(1)
applicants, and “stowaway[s].” § 1225(b)(2)(B). Finally,
subparagraph (C) tells us that a § (b)(2) applicant who
arrives “on land . . . from a foreign territory contiguous to
the United States,” instead of being “detained” under
subparagraph (A) pending his or her removal proceeding
under § 1229a, may be “returned” to that contiguous
territory pending that proceeding. § 1225(b)(2)(C). Section
(b)(1) applicants are mentioned only once in § 1225(b)(2),
in subparagraph (B)(ii). That subparagraph specifies that
subparagraph (A)—which tells us what happens to § (b)(2)
applicants—does not apply to § (b)(1) applicants.
The “return-to-a-contiguous-territory” provision of
§ 1225(b)(2)(C) is available only for § (b)(2) applicants.
There is no way to read the statute otherwise. Under a plainmeaning reading of the text, as well as the Government’s
longstanding and consistent practice, the statutory authority

100a
upon which the Government now relies simply does not
exist.
***
In support of its motion to stay the order of the district
court pending appeal, the Government makes several
arguments. None is persuasive.
The Government first argues that § (b)(1) applicants are
included within the category of § (b)(2) applicants. See
Govt. Brief at 10. Under the Government’s argument, there
are two categories of applicants, but the categories are
overlapping. There are § (b)(1) applicants, who are defined
in § (b)(1), and there are § (b)(2) applicants, who are defined
as all applicants, including, but not limited to, § (b)(1)
applicants.
For this argument, the Government relies on the phrase
“an alien seeking admission” in § 1225(b)(2)(A). The
Government argues that because § (b)(1) and § (b)(2)
applicants are both “aliens seeking admission,”
subparagraph (A) of § (b)(2) refers to both categories of
applicants. Then, because subparagraph (A) is, by its terms,
“[s]ubject to subparagraphs (B) and (C),” the Government
argues that a § (b)(1) applicant may be “return[ed]” to a
“foreign territory contiguous to the United States” under
subparagraph (C).
The Government’s argument ignores the statutory text,
the Supreme Court’s opinion in Jennings last year, and the
opinion of its own Attorney General in Matter of M-S- less
than a month ago.
The text of § 1225(b) tells us that § (b)(1) and § (b)(2)
are separate and non-overlapping categories. Section

101a
1225(b) specifies that § (b)(1) applicants are aliens who are
inadmissible either under § 1182(a)(6)(C) or under
§ 1182(a)(7). Section (b)(2) aliens are “other aliens.” See
§ 1225(b)(2) (heading) (“Inspection of other aliens”)
(emphasis added). That is, § (b)(2) covers applicants “other”
than § (b)(1) applicants. In case a reader has missed the
significance of the heading of § (b)(2), the statute makes the
point again, this time in the body of § (b)(2). Section
(b)(2)(B)(ii) specifically provides that subparagraph (A) of
§ (b)(2) “shall not apply to an alien . . . to whom paragraph
[b](1) applies.”
In Jennings, the Supreme Court last year told us
explicitly that § (b)(1) and § (b)(2) applicants fall into
separate and non-overlapping categories.
It wrote,
“[A]pplicants for admission fall into one of two categories,
those covered by § 1225(b)(1) and those covered by
§ 1225(b)(2). . . . Section 1225(b)(2) . . . applies to all
applicants for admission not covered by § 1225(b)(1).”
Jennings, 138 S. Ct. at 837 (emphasis added). Finally, in
Matter of M-S-, the Attorney General wrote on April 16 of
this year that an applicant is subject to different procedures
depending on whether he or she is a § (b)(1) or § (b)(2)
applicant. Matter of M-S-, 27 I. & N. Dec. at 510.
The Government’s second argument follows from its
first. See Govt. Brief at 10–13. For its second argument, the
Government relies on subparagraph (B)(ii), which provides:
“Subparagraph (A) shall not apply to an alien . . . to whom
paragraph [b](1) applies.” § 1225(b)(2)(B)(ii) (emphasis
added). The Government argues that subparagraph (B)(ii)
allows a government official to perform an act. The act
supposedly authorized is to “apply” the expedited removal
procedures of § (b)(1) to some of the aliens under § (b)(2),
as the Government defines § (b)(2) applicants. (The

102a
Government needs to make this argument in order to avoid
the consequence of treating all § (b)(1) applicants as § (b)(2)
applicants, who are automatically entitled to regular removal
proceedings.)
There is a fundamental textual problem with the
Government’s argument. “Apply” is used twice in the same
sentence in § (b)(2)(B)(ii). The first time the word is used,
it refers to the application of a statutory section
(“Subparagraph (A) shall not apply”). The second time the
word is used, it is used in the same manner, again referring
to the application of a statutory section (“to whom paragraph
[b](1) applies”). When the word is used the first time, it tells
us that subparagraph (A) shall not apply. When the word is
used the second time, it tells us to whom subparagraph (A)
shall not apply: It does not apply to applicants to whom
§ (b)(1) applies. Neither time does the word “apply” refer to
an act performed by a government official.
The Government’s third argument is disingenuous. The
Government argues that § (b)(1) applicants are more
“culpable” than § (b)(2) applicants, and that they therefore
deserve to be forced to wait in Mexico while their asylum
applications are being adjudicated. The Government argues
that returning § (b)(2), but not § (b)(1), applicants to a
contiguous territory would have “the perverse effect of
privileging aliens who attempt to obtain entry to the United
States by fraud . . . over aliens who follow our laws.” Govt.
Brief at 14. In its Reply Brief, the Government compares
§ (b)(1) and § (b)(2) applicants, characterizing § (b)(2)
applicants as “less-culpable arriving aliens.” Govt. Reply
Brief at 5. The Government has it exactly backwards.
Section (b)(1) applicants are those who are “inadmissible
under section 1182(a)(6)(C) or 1182(a)(7)” of Title 8.
Section 1182(a)(6)(C), entitled “Misrepresentation,” covers,

103a
inter alia, aliens using fraudulent documents. That is, it
covers aliens who travel under false documents and who,
once they arrive at the border or have entered the country,
apply for asylum.
Section 1182(a)(7), entitled
“Documentation requirements,” covers aliens traveling
without documents. In other words, § (b)(1) applies to bona
fide asylum applicants, who commonly have fraudulent
documents or no documents. Indeed, for many applicants,
fraudulent documents are their only means of fleeing
persecution, even death, in their own countries. The
structure of § (b)(1), which contains detailed provisions for
processing asylum seekers, demonstrates that Congress
recognized that § (b)(1) applicants may have valid asylum
claims and should therefore receive the procedures specified
in § (b)(1).
The history of § 1225(b)(2)(C) confirms that Congress
did not have § (b)(1) applicants in mind.
Section
1225(b)(2)(C) was added to IIRIRA late in the drafting
process, in the wake of Matter of Sanchez-Avila, 21 I. & N.
Dec. 444 (BIA 1996). The petitioner in Sanchez-Avila was
a Mexican national who applied for entry as a “resident alien
commuter” but who was charged as inadmissible due to his
“involvement with controlled substances.” Id. at 445. In
adding § 1225(b)(2)(C) to what was to become IIRIRA,
Congress had in mind § (b)(2) applicants like the petitioner
in Sanchez-Avila. It did not have in mind bona fide asylum
seekers who arrive with fraudulent documents or no
documents at all.
Contrary to the Government’s argument, § (b)(1)
applicants are not more “culpable” than § (b)(2) applicants.
Quite the opposite. The § (b)(1) applicants targeted by the
MPP are innocent victims fleeing violence, often deadly
violence, in Central America. In stark contrast, § (b)(2)

104a
applicants include suspected drug addicts, convicted
criminals, terrorists, and alien smugglers.
See
§ 1182(a)(1)(A)(iv); (a)(2); (a)(3)(B); (a)(6)(E). Section
(b)(2) applicants are precisely those applicants who should
be “returned” to a “contiguous territory,” just as
§ 1225(b)(2)(C) provides.
***
Acting as a motions panel, we are deciding the
Government’s emergency motion to stay the order of the
district court pending appeal. Because it is an emergency
motion, plaintiffs and the Government were severely limited
in how many words they were allowed. Our panel heard oral
argument on an expedited basis, a week after the motion was
filed.
I regret that my colleagues on the motions panel have
uncritically accepted the Government’s arguments. I am
hopeful that the regular argument panel that will ultimately
hear the appeal, with the benefit of full briefing and regularly
scheduled argument, will be able to see the Government’s
arguments for what they are—baseless arguments in support
of an illegal policy that will, if sustained, require bona fide
asylum applicants to wait in Mexico for years while their
applications are adjudicated.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 1 of 27
105a

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
INNOVATION LAW LAB, et al.,
Plaintiffs,
v.
KIRSTJEN NIELSEN, et al.,

Case No. 19-cv-00807-RS
ORDER GRANTING MOTION FOR
PRELIMINARY INJUNCTION

Defendants.

I. INTRODUCTION
In January of this year, the Department of Homeland Security (“DHS”) began
implementing a new policy regarding non-Mexican asylum seekers arriving in the United States
from Mexico.1 Denominated the “Migrant Protection Protocols” (“MPP”), the policy calls for such
persons, with certain exceptions, to be “returned to Mexico for the duration of their immigration
proceedings,” rather than either being detained for expedited or regular removal proceedings, or
issued notices to appear for regular removal proceedings. This case presents two basic questions:
(1) does the Immigration and Nationalization Act authorize DHS to carry out the return policy of

1

The policy is administered by DHS sub-agencies Citizenship and Immigration Services (“CIS”),
Customs and Border Protection (“CBP”), and Immigration and Customs Enforcement (“ICE”)).
The defendants named in this action are those agencies, and certain of their officials (collectively
“DHS” or “the Government”).

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 2 of 27
106a

the MPP, and; (2) even assuming Congress has authorized such returns in general, does the MPP
include sufficient safeguards to comply with DHS’s admitted legal obligation not to return any
alien to a territory where his or her “life or freedom would be threatened”? In support of their
motion for a preliminary injunction, the plaintiffs have sufficiently shown the answer to both
questions is “no.”
First, the statute that vests DHS with authority in some circumstances to return certain
aliens to a “contiguous territory” cannot be read to apply to the individual plaintiffs or others
similarly situated. Second, even assuming the statute could or should be applied to the individual
plaintiffs, they have met their burden to enjoin the MPP on grounds that it lacks sufficient
protections against aliens being returned to places where they face undue risk to their lives or
freedom. Accordingly, plaintiffs’ motion for a preliminary injunction will be granted.2
To be clear, the issue in this case is not whether it would be permissible for Congress to
authorize DHS to return aliens to Mexico pending final determinations as to their admissibility.
Nor does anything in this decision imply that DHS would be unable to exercise any such authority
in a legal manner should it provide adequate safeguards. Likewise, the legal question is not
whether the MPP is a wise, intelligent, or humane policy, or whether it is the best approach for
addressing the circumstances the executive branch contends constitute a crisis. Policy decisions
remain for the political branches of government to make, implement, and enforce.
Rather, this injunction turns on the narrow issue of whether the MPP complies with the
Administrative Procedures Act (“APA”). The conclusion of this order is only that plaintiffs are
likely to show it does not, because the statute DHS contends the MPP is designed to enforce does
not apply to these circumstances, and even if it did, further procedural protections would be
required to conform to the government’s acknowledged obligation to ensure aliens are not
returned to unduly dangerous circumstances.
2

Plaintiffs’ motion was filed as an application for a temporary restraining order. In response to a
court scheduling order, the parties stipulated to deem plaintiffs’ motion as one for a preliminary
injunction, which now has been fully briefed and heard.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 3 of 27
107a

Furthermore, nothing in this order obligates the government to release into the United
States any alien who has not been legally admitted, pursuant to a fully-adjudicated asylum
application or on some other basis. DHS retains full statutory authority to detain all aliens pending
completion of either expedited or regular removal proceedings. See Jennings v. Rodriguez, 138 S.
Ct. 830 (2018).

II. BACKGROUND
In December of 2018, the Secretary of the DHS, Kirstjen Nielsen, announced adoption of
the MPP, which she described as a “historic action to confront illegal immigration.” See December
20, 2018 press release, “Secretary Kirstjen M. Nielsen Announces Historic Action to Confront
Illegal Immigration,” Administrative Record (“AR”) 16-18. DHS explained that pursuant to the
MPP, “the United States will begin the process of invoking Section 235(b)(2)(C) of the
Immigration and Nationality Act.” Id. DHS asserted that under the claimed statutory authority,
“individuals arriving in or entering the United States from Mexico—illegally or without proper
documentation—may be returned to Mexico for the duration of their immigration proceedings.”
Id.
In January of 2019, DHS issued a further press release regarding the implementation of the
MPP. See “Migrant Protection Protocols,” AR 11-15. In a paragraph entitled “What Gives DHS
the Authority to Implement MPP?” the press release asserts:
Section 235 of the Immigration and Nationality Act (INA) addresses
the inspection of aliens seeking to be admitted into the U.S. and
provides specific procedures regarding the treatment of those not
clearly entitled to admission, including those who apply for asylum.
Section 235(b)(2)(C) provides that “in the case of an alien . . . who
is arriving on land (whether or not at a designated port of arrival)
from a foreign territory contiguous to the U.S.,” the Secretary of
Homeland Security “may return the alien to that territory pending a
[removal] proceeding under § 240” of the INA.
The positions taken in press releases reflect contemporaneous policy memoranda. On
January 25, 2018, Secretary Nielsen issued a memorandum stating:

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 4 of 27
108a

[T]he United States will begin the process of implementing Section
235(b)(2)(C) . . . with respect to non-Mexican nationals who may be
arriving on land (whether or not at a designated port of entry)
seeking to enter the United States from Mexico illegally or without
proper documentation.
DHS Memorandum, AR 7-10; see also CIS Policy Memorandum, January 28, 2019, “Guidance
for Implementing Section 235(b)(2)(C) of the Immigration and Nationality Act and the Migrant
Protection Protocols. AR 2271-2275.
Thus, it is undisputed that the MPP represents a legal exercise of defendants’ authority
regarding treatment of alien applicants for admission if and only if section 235(b)(2)(C) of the
Immigration and Nationality Act applies to the individual plaintiffs and those similarly situated.
Section 235(b)(2)(C) is codified at 8 U.S.C. §1225(b)(2)(C) and will hereafter be referred to as the
“contiguous territory return provision.”
It is similarly undisputed that prior to adoption of the MPP, aliens applying for asylum at a
port of entry on the U.S.-Mexico border were either placed in expedited removal proceedings
pursuant subparagraph (1) of 8 U.S.C. §1225(b), or in defendants’ discretion were placed in
regular removal proceedings described in 8 U.S.C. §1229a. There also is no apparent dispute that
aliens placed directly into regular removal proceedings frequently were permitted to remain in the
United States during the pendency of those proceedings, and were not detained in custody. In
announcing the MPP, Secretary Nielsen asserted the new policy is intended to address a purported
problem of aliens “trying to game the system” by making groundless asylum claims and then
“disappear[ing] into the United States, where many skip their court dates.” See December 20, 2018
press release, AR 16.
Although the contiguous territory return provision has existed in the statute for many
years, the extent to which it has previously been utilized is unclear in the present record. While the
provision theoretically could be applied with respect to aliens arriving from either Mexico or
Canada, the focus of the MPP is aliens transiting through Mexico, who originated from other
countries. When this suit was filed, the MPP had been implemented only at the San Ysidro port of

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 5 of 27
109a

entry on the California-Mexico border. Defendants have since advised that it has now been
extended to the Calexico port of entry, also on the California-Mexico border, and to El Paso,
Texas. Indications are that it will be further extended unless enjoined.
The CIS Policy Memorandum providing guidance for implementing the MPP specifically
addresses the issue of aliens who might face persecution if returned to Mexico. Under that
guidance, aliens who, unprompted, express a fear of return to Mexico during processing will be
referred to an asylum officer for interview. CIS Policy Memorandum, AR 2273. The asylum
officer’s determination, however, is not reviewable by an immigration judge. Id at 2274. Although
DHS insists this policy satisfies all obligations the United States has under domestic and
international law to avoid “refoulement”— the forcible return of prospective asylum seekers to
places where they may be persecuted—there is no dispute that the procedural protections are less
robust than those available in expedited removal proceedings, or those that apply when a decision
is made that an alien is subject to removal at the conclusion of regular removal proceedings.
Plaintiffs in this action are eleven individuals who were “returned” to Mexico under the
MPP, and six non-profit organizations that provide legal services and advocacy related to
immigration issues.3 Plaintiffs’ claims in this action are brought under the Administrative
Procedures Act and international law, although the preliminary injunction is sought only under the
former.

III. LEGAL STANDARD
A. Injunctions
An application for preliminary injunctive relief requires the plaintiff to “establish that he is
likely to succeed on the merits, that he is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in his favor, and that an injunction is in the

3

The unopposed motion of the individual plaintiffs to proceed in this litigation under pseudonyms
(Dkt. No. 4) is granted.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 6 of 27
110a

public interest.” Winter v. N.R.D.C., Inc., 555 U.S. 7, 21-22 (2008). The Ninth Circuit has
clarified, however, that courts in this Circuit should still evaluate the likelihood of success on a
“sliding scale.” Alliance for Wild Rockies v. Cottrell, 632 F.3d 1127, 1134 (9th Cir. 2011) (“[T]he
‘serious questions’ version of the sliding scale test for preliminary injunctions remains viable after
the Supreme Court’s decision in Winter.”). As quoted in Cottrell, that test provides that, “[a]
preliminary injunction is appropriate when a plaintiff demonstrates . . . that serious questions
going to the merits were raised and the balance of hardships tips sharply in the plaintiff’s favor,”
provided, of course, that “plaintiffs must also satisfy the other [Winter] factors” including the
likelihood of irreparable harm. Id. at 1135.

B. The APA
Under section 706 of the APA, a reviewing court must “hold unlawful and set aside agency
action, findings, and conclusions found to be . . . arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law; contrary to constitutional right, power, privilege, or
immunity; in excess of statutory jurisdiction, authority, or limitations, or short of statutory right;
[or] without observance of procedure required by law.” 5 U.S.C. § 706(2)(A)-(D). Accordingly,
the decision-making process that ultimately leads to the agency action must be “logical and
rational.” Allentown Mack Sales & Serv., Inc. v. NLRB, 522 U.S. 359, 374 (1998). Courts should
be careful, however, not to substitute their own judgment for that of the agency. Suffolk Cty. v.
Sec’y of Interior, 562 F.2d 1368, 1383 (2d Cir. 1977). Ultimately, a reviewing court may uphold
agency action “only on the grounds that the agency invoked when it took the action.” Michigan v.
EPA, 135 S. Ct. 2699, 2710 (2015). Post hoc rationalizations may not be considered. American
Textile Mfrs. Inst., Inc. v. Donovan, 452 U.S. 490, 539 (1981). In evaluating APA claims, courts
typically limit their review to the Administrative Record existing at the time of the decision. Sw.
Ctr. for Biological Diversity v. U.S. Forest Service, 100 F.3d 1443, 1450 (9th Cir. 1996); accord
Ranchers Cattlemen Action Legal Fund United Stockgrowers of Am. v. U.S. Dep’t of Agric., 499

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 7 of 27
111a

F.3d 1108, 1117 (9th Cir. 2007).4

IV. DISCUSSION
A. Justiciability
At the threshold, defendants oppose plaintiffs’ motion for preliminary relief by arguing
their claims simply are not justiciable. Defendants advance several interrelated points. First,
defendants contend the central issue is fundamentally one of prosecutorial discretion, and
therefore immune from judicial review. Were plaintiffs in fact challenging a policy decision to
place them in regular removal proceedings as opposed to expedited removal proceedings, that
argument might be viable.
As discussed below, however, plaintiffs concede DHS has such discretion, and none of
their claims in this action rest on a contrary position. Rather, the complaint here alleges the statute
on which defendants rely simply does not confer on DHS the powers it claims to be exercising
under the MPP. While defendants are free to argue they have discretion under the statute to adopt
and enforce the MPP, whether or not they actually do is a justiciable question.
Next, defendants contend several different sections of the INA preclude judicial review.
Defendants first cite 8 U.S.C. § 1252(g), which provides that “[e]xcept as provided in this section .
. . no court shall have jurisdiction to hear any cause or claim by or on behalf of any alien arising
from the decision or action by the [Secretary] to commence proceedings.” Defendants argue that
provision is “designed to give some measure of protection to . . . discretionary determinations”
4

Here, plaintiffs submit substantial evidence outside the administrative record, which
defendants move to strike and which plaintiffs move separately to deem admitted. The parties
agree extra-record evidence is admissible for limited purposes, including to support standing or a
showing of irreparable harm. Plaintiffs stipulate to having the present motion adjudicated based
on the administrative record presented by defendants, without waiving their right to challenge the
completeness of that record at a later junction. This order relies only on matters in the
administrative record or which the parties otherwise agree may be considered. Further rulings on
specific aspects of the motions to strike and to admit accordingly need not be addressed at this
juncture.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 8 of 27
112a

like “the initiation or prosecution of various stages in the deportation process,” and so bars claims
“attempt[ing] to impose judicial constraints upon prosecutorial discretion.” Reno v. Am.-Arab
Anti-Discrimination Comm., 525 U.S. 471, 485 n.9 (1999). This argument, however, turns on the
conclusion that if DHS has discretion to apply the contiguous return provision to persons in the
circumstances of the individual plaintiffs, its decisions to return or not return any particular alien
under any such authority, might not be subject to review.
Defendants next invoke 8 U.S.C. § 1252(a), which provides, in part, “[n]otwithstanding
any other provision of law,” “no court shall have jurisdiction to review . . . any other decision or
action of the . . . Secretary of Homeland Security the authority for which is specified under this
subchapter to be in the discretion of the . . . Secretary.” As defendants admit, however, this
provision applies when the relevant decision is “specified by statute to be in the discretion of the”
the Secretary. Kucana v. Holder, 558 U.S. 233, 248 (2010). The very point of dispute in this
action is whether section 1225(b)(2)(C) applies such that DHS has such discretion, or not. That
threshold question is justiciable.
Defendants further argue 8 U.S.C. § 1252(a) and (e) jointly preclude review. As noted,
§1252(a) does not foreclose examination of whether application of the contiguous territory return
provision to the named plaintiffs is legally correct. Defendants also assert section 1252(a)(2)(A)
provides that no court shall have jurisdiction, except as permitted in section 1252(e), to review
“procedures and policies adopted by the [Secretary] to implement the provisions of section
1225(b)(1).” To the extent that is a new argument, it fails because plaintiffs in this action are not
challenging the discretionary decision to refrain from placing them in expedited removal under
1225(b)(1), and are instead litigating what the consequences of placing them in section 1229a
proceedings should or should not be.
The final issue is the potential applicability of section 1252(e)(3). That subparagraph
provides no court, other than the United States District Court for the District of Columbia, has
jurisdiction to review “determinations under section 1225(b) of this title and its implementation,”
including “whether such a . . . written policy directive, written policy guideline, or written

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 9 of 27
113a

procedure issued by or under the authority of the [Secretary] to implement such section, is not
consistent with applicable provisions of this subchapter or is otherwise in violation of law.” 8
U.S.C. § 1252(e)(3)(A). On its face, this provision arguably requires plaintiffs’ claims to proceed
exclusively in the District of Columbia. In light of that concern, the parties were invited to provide
further briefing after the hearing on the motion for preliminary relief. See Dkt. No. 68.
Plaintiffs argue section 1252(e)(3) is intended only to invest jurisdiction in the district
court of the District of Columbia to hear systemic challenges specifically addressing the expedited
removal scheme. Thus, plaintiffs argue, the provision’s reference to “determinations under section
1225(b) of this title and its implementation,” rather than “determinations under section
1225(b)(1)”
- - should be seen as nothing more than a “scrivener’s error.”
The question is close, because section 1252(e)(3) otherwise would appear to describe the
issues presented in this case quite well. As noted, it expressly refers to review of issues such as,
“whether such a regulation, or a written policy directive, written policy guideline, or written
procedure issued by or under the authority of the Attorney General to implement such section, is
not consistent with applicable provisions of this subchapter or is otherwise in violation of law.”
That lines up neatly with the main thrust of plaintiffs’ argument here—that contrary to defendants’
claim the MPP merely addresses when discretion should be exercised to apply the contiguous
territory return provision, by definition the provision in fact does not apply to plaintiffs.
Nevertheless, plaintiffs have the better argument that section 1252(e)(3) should not be read
to require them to bring these claims in the District of Columbia. Although statutory titles and
headings are not dispositive, they are instructive. See Fla. Dep’t of Revenue v. Piccadilly
Cafeterias, Inc., 554 U.S. 33, 47, 128 S. Ct. 2326 (2008) (“To be sure, a subchapter heading
cannot substitute for the operative text of the statute . . . [T]he title of a statute . . . cannot limit the
plain meaning of the text. Nonetheless, statutory titles and section headings are tools available for
the resolution of a doubt about the meaning of a statute.”)(internal quotations and citations
omitted).
Here, section 1252 as a whole is entitled, “Judicial review of orders of removal,” and most

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 10 of 27
114a

of its provisions are focused on issues relating to review of individual decisions to remove an
alien. More to the point in question here, subparagraph (e) is entitled “Judicial review of orders
under section 1225(b)(1)” (emphasis added). Other sub-subparagraphs of (e) explicitly indicate
that they are applicable to challenges to determinations made under 1225(b)(1). See
§1252(e)(1)(A) (“ . . . in accordance with section 1225(b)(1) . . .); §1252(e)(2) (“any determination
made under section 1225(b)(1) . . . .”); §1252(e)(4)(A) (“. . . an alien who was not ordered
removed under section 1225(b)(1) of this title”); §1252(e)(5) (“. . . an alien has been ordered
removed under section 1225(b)(1) of this title”).
Given that sub-subparagraphs (1), (2), (4), and (5) of 8 U.S.C §1252(e) all expressly
invoke section 1225(b)(1), the mere fact that §1252(e)(3) fails to state “1225(b)(1)” instead of
only “1225(b)” is too thin a reed on which to conclude that jurisdiction of this action lies
exclusively in the federal court of the District of Columbia. The omission of “(1)” may or may not
constitute a “scrivener’s error,” in the traditional sense of that phrase, but it is not a basis to
disregard the clear import of the structure of section 1252 and subparagraph (e).
Challenges to “validity of the system” undeniably are subject to section 1252(e)(3), and
therefore arguably subject to exclusive jurisdiction in the District of Columbia.5 In context,
however, “the system” should be understood as a reference to the expedited removal procedure
authorized under section 1225(b)(1). There can be no dispute that this action is not a challenge to
that “system.” Rather, plaintiffs acknowledge both that they are subject to expedited removal and
that DHS has discretion to place them instead into regular removal proceedings under 8 U.S.C.
§1229a. Indeed, in essence, plaintiffs are arguing that because they are subject to expedited
removal, they should at a minimum have the protections they would enjoy under that regime,
either by being exempt from contiguous territorial return, and/or by having additional procedural
and substantive protections against being sent to places in which they would not be safe from
5

Plaintiffs contend that even where section 1252(e)(3) applies and permits jurisdiction in the
District of Columbia, it does not preclude jurisdiction elsewhere. While that proposition appears
dubious at best, the question need not be decided here.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 11 of 27
115a

persecution.
Accordingly, this action is not a challenge to the “system” of expedited removal. Given the
overall structure of section 1252(e), the most reasonable construction of subparagraph (3) is that it
applies only to such challenges. See Porter v. Nussle, 534 U.S. 516, 528, 122 S.Ct. 983 (2002).
(“The placement of §1146(a) within a subchapter expressly limited to postconfirmation matters
undermines Piccadilly’s view that §1146(a) covers preconfirmation transfers.”). As a result,
whether presented as a jurisdictional issue or one of venue, 8 U.S.C. §1252(e)(3) is not a bar to the
particular claims plaintiffs present in this forum.6

B. Standing
In a footnote, defendants assert “[t]he organizational Plaintiffs lack standing because they
lack a ‘judicially cognizable interest in the prosecution or nonprosecution of another.’” Opposition
at 10, n. 5. (quoting Linda R.S. v. Richard D., 410 U.S. 614, 619 (1973)). Defendants concede,
however, that their standing arguments are foreclosed by the holding in East Bay Sanctuary
Covenant v. Trump, 909 F.3d 1219, 1240 (9th Cir. 2018), where the Ninth Circuit held that
similarly situated organizational plaintiffs have organizational standing premised on a diversion of
resources caused by the challenged government actions. See id. at 1242.
Defendants state they “respectfully disagree with that ruling” and question standing only to
preserve their rights on appeal. Nevertheless, to the extent defendants argue East Bay Sanctuary is
factually distinguishable, their position is not persuasive. It is true, as defendants point out, that
East Bay involved a different statutory provision, and that standing may turn on whether a plaintiff

6

Defendants also seek a discretionary transfer under 28 U.S.C. §1404 to the Southern District of
California. Although the MPP was first implemented at a border crossing point in that district,
defendants have not shown that the balance of factors applicable under §1404 warrant a transfer.
Plaintiffs’ choice of forum is supported by the institutional plaintiffs’ presence in this district and
is therefore entitled to deference. The issues in the litigation largely involve legal questions not
tied to any district and/or federal policy decisions not made in or limited to the Southern District
of California. The motion to transfer is therefore denied.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 12 of 27
116a

is “arguably within the zone of interests to be protected or regulated by the statute . . . in
question.” Clarke v. Sec. Indus. Ass’n., 479 U.S. 388, 396 (1987). Nevertheless, the
organizational plaintiffs have made a showing that is stronger, if anything, than that in East Bay
Sanctuary. Plaintiffs’ organizational standing in that case was premised on various broad
“diversion of resources” arguments and the potential loss of funding. See, e.g., 909 F.3d at 1242
(“The Organizations have also offered uncontradicted evidence that enforcement of the Rule has
required, and will continue to require, a diversion of resources, independent of expenses for this
litigation, from their other initiatives.”) Here, the organizational plaintiffs have made a showing
that the challenged policy directly impedes their mission, in that it is manifestly more difficult to
represent clients who are returned to Mexico, as opposed to being held or released into the United
States. Additionally, there is no suggestion by defendants that the individual plaintiffs lack
standing. Accordingly, to whatever extent defendants may have challenged standing, there is no
basis to preclude preliminary relief on such grounds.7

C. Showing on the merits
1. Structure of 8 U.S.C. §1225
The statute at the center of this action is 8 U.S.C. §1225, which is entitled, “Inspection by
immigration officers; expedited removal of inadmissible arriving aliens; referral for hearing.”
Paragraph (a) of the statute provides generally that aliens who are arriving in the United States, or
who have not already been admitted, are deemed to be applicants for admission and that they
“shall be inspected by immigration officers.”8 Paragraph (b) then divides such applicants for
admission into two categories.
Subparagraph (b)(1) is entitled, “[i]nspection of aliens arriving in the United States and
7

Furthermore, defendants have not challenged the standing of the individual plaintiffs to bring
these claims or to seek preliminary relief.
8

For clarity, all statutory exceptions that are not applicable to plaintiffs and that are not relevant to
the statutory construction analysis will be omitted from quotations and the discussion in this order.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 13 of 27
117a

certain other aliens who have not been admitted or paroled.” It provides, in short, that aliens who
arrive in the United States without specified identity and travel documents, or who have
committed fraud in connection with admission, are to be “removed from the United States without
further hearing or review” unless they apply for asylum or assert a fear of persecution. 8 U.S.C.
§1225(b)(1)(A)(i). This procedure is known as “expedited removal.”9
Subparagraph (b)(1) provides that aliens who indicate either an intention to apply for
asylum or a fear of persecution are to be referred to an asylum officer for an interview.
§1225(b)(1)(A)(ii). The officer is to make a written record of any determination that the alien has
not shown a credible fear. §1225(b)(1)(B)(iii)(II). The record is to include a summary of the
material facts presented by the alien, any additional facts relied upon by the officer, and the
officer’s analysis of why, in the light of such facts, the alien has not established a credible fear of
persecution. Id.
The alien in that scenario is entitled to review by an immigration judge of any adverse
decision, including an opportunity for the alien to be heard and questioned by the immigration
judge, either in person or by telephonic or video connection. §1225(b)(1)(B)(iii)(II). Additionally,
aliens are expressly entitled to receive information concerning the asylum interview and to consult
with a person or persons of the alien’s choosing prior to the interview and any review by an
immigration judge. §1225(b)(1)(B)(iv). Thus, an alien processed for “expedited” removal under
subparagraph (b)(1) still has substantial procedural safeguards against being removed to a place
where he or she may face persecution.
Subparagraph (b)(2) is entitled, “[i]nspection of other aliens” (emphasis added). It provides
that aliens seeking admission are “to be detained for a proceeding under section 1229a of [Title
8]” unless they are “clearly and beyond a doubt entitled to be admitted.” §1225(b)(2)(A). Section

9

Subparagraph (b)(1) also expressly gives defendants discretion to apply expedited removal to
aliens already present in the United States who have not been legally admitted or paroled, if they
are unable to prove continuous presence in the country for more than two years.
§1225(b)(1)(A)(iii).

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 14 of 27
118a

1229a, in turn, is entitled “Removal proceedings” and sets out the procedures under which
immigration judges generally “conduct proceedings for deciding the inadmissibility or
deportability of an alien.” 8 U.S.C. § 1229a (a)(1).
Section 1225 subparagraph (b)(2)(B) expressly provides that (b)(2)(A) “shall not apply to
an alien . . . to whom paragraph (1) applies.” Thus, on its face, section 1225 divides applicants for
admission into two mutually exclusive categories. Subparagraph (b)(1) addresses aliens who are
subject to expedited removal. Subparagraph (b)(2) addresses those who are either clearly and
beyond a doubt entitled to admission, or whose application for admission will be evaluated by an
administrative law judge in section 1229a proceedings if they are not.
Although not expressly addressing mutual exclusivity of the two categories, the Supreme
Court has described the operation of section 1225 similarly:
[A]pplicants for admission fall into one of two categories, those
covered by § 1225(b)(1) and those covered by § 1225(b)(2). Section
1225(b)(1) applies to aliens initially determined to be inadmissible
due to fraud, misrepresentation, or lack of valid documentation. See
§ 1225(b)(1)(A)(i) (citing §§ 1182(a)(6)(C), (a)(7)) . . . . Section
1225(b)(2) is broader. It serves as a catchall provision that applies to
all applicants for admission not covered by § 1225(b)(1).
Jennings v. Rodriguez, 138 S. Ct. 830, 837 (2018).
As set out above, there is no dispute that the MPP purports to be an implementation of the
contiguous territory return provision, which appears in the statute as a sub-subparagraph under
subparagraph (b)(2). The provision states, in full:
In the case of an alien described in subparagraph (A) who is arriving
on land (whether or not at a designated port of arrival) from a
foreign territory contiguous to the United States, the Attorney
General may return the alien to that territory pending a proceeding
under section 1229a of this title.
8 U.S.C. §1225(b)(2)(C).10
10

Plaintiffs’ complaint includes an assertion that the contiguous territory return provision may

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 15 of 27
119a

On its face, therefore, the contiguous territory return provision may be applied to aliens
described in subparagraph (b)(2)(A). Pursuant to subparagraph (b)(2)(B), however, that expressly
excludes any alien “to whom paragraph (1) applies.”

2. Application of the contiguous territory return provision to the individual plaintiffs
At least for purposes of this motion, there is no dispute that the individual plaintiffs are
asylum seekers who lack valid admission documents, and who therefore ordinarily would be
subject to expedited removal proceedings under subparagraph (1) of section 1225. Applying the
plain language of the statute, they simply are not subject to the contiguous territory return
provision.
Defendants advance three basic arguments to contend the plain language should not apply
and that therefore the MPP represents a legal exercise of DHS’s authority under the contiguous
return provision. First, defendants rely on well-established law, conceded by plaintiffs, that DHS
has prosecutorial discretion to place aliens in regular removal proceedings under section 1229a
notwithstanding the fact that they would qualify for expedited removal under subparagraph (b)(1).
Indeed, defendants are correct that the apparently mandatory language of subparagraph (b)(1)—
“the officer shall order the alien removed from the United States without further hearing or review
. . . .”—does not constrain DHS’s discretion.
In Matter of E-R-M- & L-R-M, 25 I. & N. Dec. 520 (BIA 2011) the Board of Immigration
Appeals rejected a contention that aliens subject to expedited removal could not be placed directly
into 1229a proceedings instead.

lawfully be applied only to aliens who are “from” the contiguous territory. Complaint, para. 149.
It may be the individual plaintiffs contend they are not subject to the provision because they are
“from” countries other than Mexico. Plaintiffs did not advance this point in briefing, and it is not
compelling. The statute refers to aliens “arriving on land . . . from a foreign territory contiguous to
the United States.” This language plainly describes the alien’s entry point, not his or her country
of origin.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 16 of 27
120a
[W]e observe that the issue arises in the context of a purported
restraint on the DHS’s exercise of its prosecutorial discretion. In that
context, we find that Congress’ use of the term “shall” in section
235(b) (1) (A) (i) of the Act does not carry its ordinary meaning,
namely, that an act is mandatory. It is common for the term “shall”
to mean “may” when it relates to decisions made by the Executive
Branch of the Government on whether to charge an individual and
on what charge or charges to bring.
25 I. & N. Dec. at 522; see also, Matter of J-A-B, 27 I. & N. Dec. 168 (BIA 2017) (“The DHS’s
decision to commence removal proceedings involves the exercise of prosecutorial discretion, and
neither the Immigration Judges nor the Board may review a decision by the DHS to forgo
expedited removal proceedings or initiate removal proceedings in a particular case.”). Plaintiffs do
not dispute that DHS holds such discretion and even expressly acknowledge it in the complaint.
See Complaint, para. 73 (“Although most asylum seekers at the southern border lack valid entry
documents and are therefore eligible to be placed in expedited removal, it is well established that
the government has discretion to decline to initiate removal proceedings against any individual; to
determine which charges to bring in removal proceedings; and to place individuals amenable to
expedited removal in full removal proceedings instead.”)
Thus, defendants are correct that DHS undoubtedly has discretion to institute regular
removal proceedings even where subparagraph (b)(1) suggests it “shall order the alien removed.”
The flaw in defendants’ argument, however, is that DHS cannot, merely by placing an individual
otherwise subject to expedited removal into section 1229a regular removal proceedings instead,
somehow write out of existence the provision in subparagraph (b)(2) of section 1225 that the
contiguous territory return provision does not apply to persons to whom subparagraph (b)(1) does
apply. Exercising discretion to process an alien under section 1229a instead of expedited removal
under section 1225(b)(1) does not mean the alien is somehow also being processed under section
1225(b)(2).
DHS may choose which enforcement route it wishes to take—1125(b)(1) expedited
removal, or 1229a regular removal—but it is not thereby making a choice as to whether

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 17 of 27
121a

1125(b)(1) or 1125(b)(2) applies. The language of those provisions, not DHS, determines into
which of the two categories an alien falls.
The E-R-M- & L-R-M decision further illustrates this distinction. There, as discussed
above, the Board of Immigration Appeals held DHS has discretion to place aliens subject to
expedited removal under subparagraph (b)(1) into regular removal proceedings. Observing that
other aliens are entitled to regular removal under (b)(2), the Board found the express exclusion
from (b)(2) of aliens to whom (b)(1) applies means only that they are not entitled to regular
removal, not that the DHS lacks discretion to place them in it. 25 I. & N. Dec. at 523. Thus, the
decision recognizes that such persons remain among those to whom (b)(1) applies and who are
thereby excluded from treatment under (b)(2).
Defendants’ second argument overlaps with their first. In light of the discretion DHS has to
place aliens eligible for expedited removal into section 1229a proceedings, defendants contend
subparagraph (b)(1) only “applies”—thereby triggering the exclusion from subparagraph (b)(2)—
when DHS elects actually to apply it to a particular alien. This argument is not supportable under
the statutory language. Subparagraph (b)(2) provides that it “shall not apply to an alien . . . to
whom paragraph (1) applies.” The relevant inquiry therefore is whether the language of
subparagraph (b)(1) encompasses the alien, not whether DHS has decided to apply the provisions
of the subparagraph to him or her. Because there is no dispute the language of subparagraph (b)(1)
describes persons in the position of the individual plaintiffs, the exclusion from subparagraph
(b)(2) reaches them.
Finally, defendants make a statutory intent argument based on the circumstances under
which the contiguous return provision was originally enacted. Defendants assert the provision was
adopted by Congress as a direct response to the Board of Immigration Appeals decision in Matter
of Sanchez-Avila, 21 I. & N. Dec. 444 (BIA 1996). In Sanchez-Avila, the government argued it
had a long-standing and legal practice of, in some instances, “[r]equiring aliens to remain in
Mexico or Canada pending their exclusion proceedings.” Id. at 450. The government noted that it
has “plenary power . . . . to preserve its dominion” and a “legal right to preserve the integrity of its

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 18 of 27
122a

borders and ultimately its sovereignty.” Id. Accordingly, the government argued, “its exclusion
policy of requiring certain aliens to await their exclusion hearings in either Mexico or Canada”
was “a practical exercise of plenary power.” Id.
The Sanchez-Avila decision concluded that whatever “plenary power” the government
might otherwise have, it had not shown the alleged practice of returning aliens to Mexico (or
Canada) pending removal proceedings was “longstanding” with an “unchallenged history.” Id. at
465. Nor could the plaintiffs show there was “explicit statutory or regulatory authority for a
practice of returning applicants for admission at land border ports to Mexico or Canada
to await their hearings.” Id. As a result, the Board declined to treat the practice as valid. Id.
Defendants contend that because the contiguous territory return provision purportedly was
a direct Congressional response to Sanchez-Avila, it should be seen as authorizing the return of
aliens such as the named plaintiffs. The first and most fundamental problem with defendants’
argument, however, is that the plaintiff alien “returned” to Mexico in Sanchez-Avila was a resident
alien commuter whose application for entry was not granted given apparent grounds to exclude
him for “involvement with controlled substances.” Id. at 445. Thus, there is no indication he was
an undocumented applicant for admission subject to expedited removal under subparagraph (b)(1).
To the extent Congressional intent to supersede the result of Sanchez-Avila can be inferred, doing
so would not show Congress intended the contiguous territory return provision to apply to aliens
subject to subparagraph (b)(1).
Plaintiffs insist that, to the contrary, it is reasonable to assume Congress affirmatively
wished to exclude aliens subject to expedited removal from the contiguous territory return
provision. Plaintiffs suggest because refugees and asylum seekers are among those most likely to
lack proper admission documents and therefore be subject to expedited removal, it is perfectly
sensible that Congress would expressly exclude them from the contiguous territory return
provision.
The record supports no clear conclusion of any Congressional intent beyond that
implemented in the plain language of the statute. It is certainly possible that if squarely presented

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 19 of 27
123a

with the question, Congress could and would choose to authorize DHS to impose contiguous
territory return on aliens subject to expedited removal, and that the appearance of the provision in
subparagraph (b)(2) was essentially a matter of poor drafting. It is also possible, however, that
Congress authorized contiguous return only for aliens not subject to expedited removal because
that was the particular issue presented by Sanchez-Avila and/or because there was no indication of
any pressing need to “return” persons during the presumably faster process of expedited
removal.11 Given the unambiguous language and structure of the statute, speculation about
unexpressed Congressional intent does not advance the analysis.
Finally, the conclusion that plaintiffs and others similarly situated are not subject to the
contiguous territory return provision is neither irrational nor unfair. While at first blush it might
appear they thereby are in a better position than those who are not encompassed by section
1225(b)(1), any such perceived “advantage” flows only from the exercise of DHS’s prosecutorial
discretion. If persons in plaintiffs’ position should not be admitted to this country, DHS retains full
statutory authority to process them for expedited removal, and to detain them pending such
proceedings. Accordingly, plaintiffs have made a strong showing that they are likely to succeed on
the merits with respect to their claim that the MPP lacks a legal basis for applying the contiguous
territory return provision in this context.

3. Refoulement safeguards
Even if, contrary to the preceding discussion, the contiguous territory return provision

11

Even assuming plaintiffs are correct that persons subject to expedited removal are more likely
to be asylum seekers with credible fear of persecution if not admitted, that alone would not be a
basis to exclude them from contiguous territory return. If the statute were amended, or if the
statutory construction of this order were rejected on appeal, that concern would more appropriately
be addressed by adopting appropriate statutory and/or regulatory safeguards against
“refoulement,” rather than simply concluding contiguous territory return should never be applied
to such persons. It is also worth noting that an asylum seeker from some country other than
Mexico will not automatically be at undue risk of persecution in Mexico, even if he or she can
present an extremely compelling case of persecution in his or her country of origin.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 20 of 27
124a

could be lawfully applied to the individual plaintiffs and others like them, that does not
end the inquiry. Defendants openly acknowledge they must comply with the government’s legal
obligations to avoid refoulement when removing aliens to a contiguous or any other territory
pending conclusion of section 1229a proceedings. The United States is bound by the United
Nations 1951 Convention relating to the Status of Refugees.12 Article 33 of the Convention
provides:
No Contracting State shall expel or return (“refouler”) a refugee in
any manner whatsoever to the frontiers of territories where his life
or freedom would be threatened on account of his race, religion,
nationality, membership of a particular social group or political
opinion.
The United States has codified at least some of its obligations under the Convention at 8
U.S.C. §1231(b)(3). That section is entitled “Restriction on removal to a country where alien’s life
or freedom would be threatened,” and its provisions and the regulations thereunder provide for
hearings and reviews far beyond what is required by the MPP and implementing guidance. DHS
insists section 1231(b)(3) and its regulations do not apply here because it refers only to
circumstances where an alien is removed, as opposed to “returned.”
Defendants’ argument ignores that the section is admittedly intended to implement the
United States’ obligations under the Convention, which expressly refer to “expel or return.”
Additionally, while the record is not completely clear, there is a suggestion the prior statutory
language of “deport or return” was amended to substitute the term “remove” only as a result of the
consolidation of deportation and exclusion proceedings into unitary “removal” proceedings in
1996. If so, there would be no reason to infer the change was intended to make a substantive
alteration to the government’s obligations to avoid refoulement.
That said, it is not clear that defendants would be obligated to provide the full panoply of

12

The United States is not a direct party to the Convention, but is a party to the 1967 Protocol
Relating to the Status of Refugees, which incorporates Articles 2-34 of the Convention.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 21 of 27
125a

procedural and substantive protections prescribed under §1231(b)(3) and its implementing
regulations, even assuming the individual plaintiffs are subject to “return” under the contiguous
territory return provision. First, as noted above and as reflected generally in subdivision (b) of
§1231, the potential issues relating to sending an alien to a contiguous territory as opposed to his
or her “home” country may not be identical. Moreover, in this action plaintiffs are not contending
the protections against refoulement provided under subparagraph (b)(1) of section 1225 for those
placed in expedited return are insufficient. Those restrictions are quite clearly less restrictive than
are required under §1231(b)(3).
Second, even though plaintiffs are not contending that DHS must place them in expedited
removal, all their arguments depend on the fact that the expedited removal statute applies to them,
absent prosecutorial discretion. Thus, it would be anomalous to conclude that they necessarily are
entitled to greater procedural and substantive protections against refoulement—i.e., those
prescribed by §1231(b)(3)—upon temporary “return” to Mexico than they would receive if the
government instead elected simply to remove them permanently on an expedited basis.
Accordingly, to the extent plaintiffs contend section §1231(b)(3) applies to persons being
“returned” under the contiguous territory return provision, they have not shown they are more
likely than not to succeed on the merits of such an argument. That, however, does not answer the
question of whether the MPP includes sufficient safeguards against refoulement.
At the preliminary injunction stage, it is neither possible nor necessary to determine what
the minimal anti-refoulement procedures might be. Plaintiffs have established that persons placed
in expedited removal proceedings, and persons who ultimately are found removable under section
1229a, all benefit from protections not extended to the individual plaintiffs here. The issue in this
case is only whether the MPP’s protections for persons like the individual plaintiffs comply with
the law. Even assuming neither §1231(b)(3) nor the more limited procedures under expedited
removal apply, plaintiffs have shown they are more likely than not to prevail on the merits of their
contention that defendants adopted the MPP without sufficient regard to refoulement issues.
Notably, the CIS Policy Memorandum, AR 2273 n.5, expressly acknowledges the government’s

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 22 of 27
126a

obligations “vis-à-vis the 1951 Convention and 1967 Protocol are reflected in Section
241(b)(3)(B).” The subsequent conclusion of that memo that “the reference to Section
241(b)(3)(B) should not be construed to suggest that Section 241(b)(3)(B) applies to MPP,” may
ultimately be supportable. It leaves open, however, the question of what the government’s
obligations are.
As noted above, the MPP provides only for review of potential refoulement concerns when
an alien “affirmatively” raises the point. Access to counsel is “currently” not available. AR 2273.
While an CIS officer’s determination is subject to review by a supervisory asylum officer, no
administrative review proceedings are available. AR 2274. These procedures undeniably provide
less protection than prior legislative and administrative rulemaking procedures have concluded is
appropriate upon removal, either expedited or regular. While it might be rational to treat “return”
differently, the rules must be adopted in conformance with administrative law and with
governments anti-refoulement obligations. Without opining as to what minimal process might be
required, plaintiffs’ showing on this point suffices.

4. Plaintiffs’ specific claims for relief
The first claim for relief set out in the complaint asserts the MPP is “contrary to law”
because the contiguous return provision does not apply to persons in the position of the individual
plaintiffs. As set out above, plaintiffs have the better argument on this point.
Plaintiffs’ second claim for relief asserts that under 5 U.S.C. § 553(b) and (c), defendants
may not adopt a “rule” without providing notice and an opportunity for comment. If it were the
case that the MPP represents a lawful exercise of DHS’s discretion to implement the contiguous
territory return provision, plaintiffs would have no tenable “notice and comment” claim regarding
that exercise of prosecutorial discretion.
Additionally, even given the conclusion above that the contiguous return provision does
not provide a legal basis for the MPP, the issue does not rise to a violation of the notice and
comment provisions under the APA. Rather, plaintiffs’ claim for relief with respect to notice and

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 23 of 27
127a

comment is implicated if, and only if, they are subject to the contiguous territory return provision,
notwithstanding the discussion above. In that instance, the question would be whether the
defendants were obligated to comply with APA notice and comment rules with respect to adopting
procedures to address refoulement concerns. Plaintiffs’ complaint appears to recognize this point,
and focuses on the allegation that the MPP procedures for addressing an alien’s risk of persecution
upon return to Mexico were not adopted after notice and comment.
If defendants simply were to proceed by applying the existing procedures and regulations
of §1231(b)(3) to temporary “returns” under the contiguous territory return provision, they might
have a good argument that no “notice and comment” procedure would be required. If, however,
defendants take the position—which may be completely reasonable—that a different set of
procedures should apply to contiguous territory “returns,” compliance with APA notice and
comment procedures more likely than not would be required. Accordingly, plaintiffs have shown
they have a likelihood of success on the merits of their notice and comment claim.
The third claim for relief set out in the complaint alleges, in essence, that the adoption of
the MPP was arbitrary and capricious as a whole, and that it effectively “deprives asylum seekers
of a meaningful right to apply for asylum.” The sixth claim for relief, which may be duplicative,
also asserts impairment of the right to seek asylum. At this juncture, it is not necessary to
determine whether plaintiffs might be able to prove such broader and/or “catch-all” claims.
Finally, the fourth claim for relief13 avers the MPP is contrary to law because it has
inadequate provisions to protect against refoulement. The claim invokes the UN Convention, the
Protocols, section 1231(b)(3), and its implementing regulations. As discussed above, plaintiffs
have not shown they are likely to prove section 1231(b)(3) applies directly. Their claims about
refoulement nevertheless likely merge with their “notice and comment” and/or catch-all claims
under the second and third claims for relief. Thus, in the event DHS has statutory authority to

13

As noted above, the present motion does not address the fifth claim for relief, which is not
grounded in the APA.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 24 of 27
128a

apply the contiguous return provision to plaintiffs and others in their position, plaintiffs have
shown a likelihood of success on the refoulement issue, whether that is best characterized as a
claim under their second, third, or fourth claims for relief, or some combination thereof.

C. Other injunction factors
Under the familiar standards, plaintiffs who demonstrate a likelihood of success on the
merits, as plaintiffs have done here, must also show they are “likely to suffer irreparable harm in
the absence of preliminary relief, that the balance of equities tips in [their] favor, and that an
injunction is in the public interest.” Winter, 555 U.S. at 21-22. While the precise degree of risk
and specific harms that plaintiffs might suffer in this case may be debatable, there is no real
question that it includes the possibility of irreparable injury, sufficient to support interim relief in
light of the showing on the merits.
The individual plaintiffs present uncontested evidence that they fled their homes in El
Salvador, Guatemala, and Honduras to escape extreme violence, including rape and death threats.
One plaintiff alleges she was forced to flee Honduras after her life was threatened for being a
lesbian. Another contends he suffered beatings and death threats by a “death squad” in Guatemala
that targeted him for his indigenous identity. Plaintiffs contend they have continued to experience
physical and verbal assaults, and live in fear of future violence, in Mexico.
Defendants attempt to rebut the plaintiffs’ showing of harm by arguing the merits—
contending the individual plaintiffs were all “processed consistent[ly] with applicable law” and
had sufficient opportunity to assert any legitimate fears of return to Mexico. As reflected in the
discussion above, however, plaintiffs have made a strong showing that defendants’ view of the
law on those points is not correct. The organizational plaintiffs have also shown a likelihood of
harm in terms of impairment of their ability to carry out their core mission of providing
representation to aliens seeking admission, including asylum seekers. Cf. East Bay Sanctuary, 909
F.3d at 1242 (describing cognizable harms to organizational plaintiffs for standing purposes.)
Finally, the balance of equities and the public interest support issuance of preliminary

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 25 of 27
129a

relief. As observed in East Bay Sanctuary:
the public has a “weighty” interest “in efficient administration of the
immigration laws at the border.” Landon v. Plasencia, 459 U.S. 21,
34, 103 S.Ct. 321, 74 L.Ed.2d 21 (1982). But the public also has an
interest in ensuring that “statutes enacted by [their] representatives”
are not imperiled by executive fiat. Maryland v. King, 567 U.S.
1301, 1301, 133 S.Ct. 1, 183 L.Ed.2d 667 (2012) (Roberts, C.J., in
chambers).
909 F.3d at 1255. Additionally, similar to the situation in East Bay Sanctuary, while this
injunction will bring a halt to a current and expanding policy, and in that sense technically does
not preserve the “status quo,” it will only “temporarily restore[] the law to what it had been for
many years prior.” Id.

D. Scope of injunction
Defendants urge that any injunction be limited in geographical scope. As the East Bay
Sanctuary court recently observed, there is “a growing uncertainty about the propriety of universal
injunctions.” 909 F.3d at 1255.
Nevertheless, as East Bay Sanctuary also noted:
In immigration matters, we have consistently recognized the
authority of district courts to enjoin unlawful policies on a universal
basis. Regents of the Univ. of Cal. v. U.S. Dep’t of Homeland Sec.,
908 F.3d 476, 511 (9th Cir. 2018) (“A final principle is also
relevant: the need for uniformity in immigration policy.”); Hawaii v.
Trump, 878 F.3d 662, 701 (9th Cir. 2017), rev’d on other grounds, –
–– U.S. ––, 138 S. Ct. 2392, 201 L.Ed.2d 775 (2018) (“Because this
case implicates immigration policy, a nationwide injunction was
necessary to give Plaintiffs a full expression of their rights.”);
Washington [v. Trump], 847 F.3d [1151 (9th Cir. 2017) at 1166–67
(“[A] fragmented immigration policy would run afoul of the
constitutional and statutory requirement for uniform immigration
law and policy.” (citing Texas v. U.S., 809 F.3d 134, 187–88 (5th
Cir. 2015)) ). “Such relief is commonplace in APA cases, promotes
uniformity in immigration enforcement, and is necessary to provide
the plaintiffs here with complete redress.” Univ. of Cal., 908 F.3d at
512.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 26 of 27
130a

Id. Although issues sometimes arise when a ruling in a single judicial district is applied
nationwide, defendants have not shown the injunction in this case can be limited geographically.
This is not a case implicating local concerns or values. There is no apparent reason that any of the
places to which the MPP might ultimately be extended have interests that materially differ from
those presented in San Ysidro. Accordingly, the injunction will not be geographically limited.14

E. Bond and stay issues
No party has suggested that it would be appropriate to condition issuance of a preliminary
injunction upon the posting of a bond under the circumstances of this case. No bond will be
required.15 At argument, defendants moved orally for a stay pending appeal of any injunctive relief
that might issue. Defendants contend the MPP was adopted to address certain aspects of a crisis.
Even fully crediting defendants’ characterization of the circumstances, they have not shown that a
stay of this injunction is warranted. See East Bay Sanctuary, 909 F.3d at 1255. Accordingly, the
request for a stay during the pendency of appeal will be denied. To permit defendants to exercise
their right to seek a stay from the Court of Appeal, however, this order will not take effect until
5:00 p.m., PST, April 12, 2019.

14

While the injunction precludes the “return” under the MPP of any additional aliens who would
otherwise be subject to expedited removal, nothing in the order determines if any individuals,
other than those appearing as plaintiffs in this action, should be offered the opportunity to re-enter
the United States pending conclusion of their section1229a proceedings. Nor does anything in the
injunctive relief require that any person be paroled into the country during such proceedings. DHS
will have discretion to detain the individual plaintiffs and others when they are allowed back
across the border.
15

On its face, Federal Rule of Civil Procedure 65(c) permits a court to grant preliminary
injunctive relief “only if the movant gives security in an amount that the court considers proper to
pay the costs and damages sustained by any party found to have been wrongfully enjoined or
restrained.” The Ninth Circuit has made clear, however, that “[d]espite the seemingly mandatory
language, Rule 65(c) invests the district court with discretion as to the amount of security required,
if any.” Johnson v. Couturier, 572 F.3d 1067, 1086 (9th Cir. 2009)(citations and quotations
omitted, emphasis in original). This is not a case where a bond would serve to protect against
quantifiable harm in any event.

Case 3:19-cv-00807-RS Document 73 Filed 04/08/19 Page 27 of 27
131a

V. CONCLUSION
Plaintiffs’ motion for a preliminary injunction is granted. Defendants are hereby enjoined
and restrained from continuing to implement or expand the “Migrant Protection Protocols” as
announced in the January 25, 2018 DHS policy memorandum and as explicated in further agency
memoranda. Within 2 days of the effective date of this order, defendants shall permit the named
individual plaintiffs to enter the United States. At defendants’ option, any named plaintiff
appearing at the border for admission pursuant to this order may be detained or paroled, pending
adjudication of his or her admission application.
This order shall take effect at 5:00 p.m., PST, April 12, 2012.

IT IS SO ORDERED.

Dated: April 8, 2019
______________________________________
RICHARD SEEBORG
United States District Judge

Case: 19-15716, 02/28/2020, ID: 11613700, DktEntry: 92-3, Page 1 of 2
132a

THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Innovation Law Lab, et al.,
Plaintiffs-Appellees,
V.
Chad F. Wolf, et al.,
Defendants-Appellants.

)
)
)
)
)
)
)

No. 19-15716

DECLARATION OF AMBASSADOR CHRISTOPHER LANDAU
I, Christopher Landau, declare as follows:
1. I am the United States Ambassador to Mexico. I was nominated by the President on
March 26, 2019, confirmed by the Senate on August 1, 2019, and sworn into office on
August 12, 2019. I presented my credentials to President Andres Manuel Lopez Obrador
on August 26, 2019.
2. I am aware that, earlier today, a panel of this Court issued an opinion affirming the
district court's grant of a preliminary injunction setting aside the Migrant Protection
Protocols (MPP).
3. The panel's decision, unless stayed, will have an immediate and severely prejudicial
impact on the bilateral relationship between the United States and Mexico. Both
countries face a severe challenge from uncontrolled flows of third-country migrants
through Mexico to the United States. The MPP is a critical component of the effort to
deter such flows, which place a severe strain on both countries' resources and lead to
exceptionally dangerous conditions for the migrants themselves, who are often exploited
by human smugglers. Unless stayed, I believe that the panel decision will incentivize
such dangerous migration and obliterate the substantial progress that both countries have
made over the past year in curbing uncontrolled flows of third-country migrants through
Mexico to the United States.
4. Such uncontrolled flows also threaten to undermine legitimate commerce between our
two countries (which, in 2019, were each other's largest trading partners), as both
countries are required to divert resources to address such third-country migration.
5. The migration issue has been the subject of substantial discussion between the
Governments of the United States and Mexico, and is a key issue in the bilateral
relationship. It is my firm belief, as the United States Ambassador to Mexico, that a stay
of the panel decision pending further review is imperative to prevent a crisis on our
country's southern border and in its critically important relationship with Mexico.

(18 of 19)

Case: 19-15716, 02/28/2020, ID: 11613700, DktEntry: 92-3, Page 2 of 2
133a

6. I further believe that these injuries would be not only immediate but also irreparable, and
could not be remedied by a subsequent decision at the merits phase of this litigation. If
the current incentive structure for migrants (and smugglers) is altered, I believe there
would be a spike in migration that would overcome both countries' resources and have
unquantifiable effects on legitimate bilateral commerce. These severely deleterious
effects would not be remedied if this Court subsequently lifted the injunction.
I declare under penalty of perjury that the foregoing is true and correct. Executed on February
28, 2020.

Christopher andau
United States Ambassador to Mexico

(19 of 19)

Case: 19-15716, 02/28/2020, ID: 11613700, DktEntry: 92-2, Page 1 of 4
134a

(14 of 19)

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Chad F. Wolf, et al.,
Applicants,
v.
Innovation Law Lab, et al.,
Respondents.

)
)
)
)
)
)
)
)
)

No. 19-15716

DECLARATION OF ROBERT E. PEREZ
I, Robert E. Perez, pursuant to 28 U.S.C. § 1746, and based upon my personal knowledge
and information made known to me in the course of my employment, hereby make the following
declaration with respect to the above-captioned matter:
1.I am currently the Deputy Commissioner for U.S. Customs and Border Protection (CBP), U.S.
Department of Homeland Security (DHS). I have been employed in this role since November 2018.
I began my career in 1992 with the legacy U.S. Customs Service. During my 27 years of federal
service, I have held various leadership positions, including Director of Field Operations (DFO) for
CBP’s New York Field Office; DFO and Port Director in Detroit, Michigan; and Director of the
Customs–Trade Partnership Against Terrorism. Immediately prior to assuming my current role, I
served as Executive Assistant Commissioner for Operations Support.
2.In my current position, I serve as the agency’s senior career official, with a primary focus of working
closely with the Commissioner to ensure that CBP’s mission of protecting our Nation’s borders from
terrorists and terrorist weapons is carried out effectively in partnership with other Federal, state,
local, and foreign entities. Other top CBP priorities for which I am responsible include securing and
facilitating legitimate global trade and travel, keeping illegal drugs and illegal aliens from crossing
our borders, and protecting our Nation’s food supply and agriculture industry from pests and disease.

Case: 19-15716, 02/28/2020, ID: 11613700, DktEntry: 92-2, Page 2 of 4
135a

(15 of 19)

3.I am familiar with the Ninth Circuit’s February 28, 2020 order in Innovation Law Lab v. Wolf, No.
19-15716, lifting the emergency stay imposed by a motions panel of the Ninth Circuit and affirming
the decision of the district court to issue a preliminary injunction setting aside the Migrant Protection
Protocols (MPP). This injunction has significant implementation concerns for CBP.
4.Approximately 60,000 aliens have been returned to Mexico pursuant to MPP since January 2019.
Presently, based on the information available to CBP, considering the number of people who may
not arrive for their hearing, it is a reasonable estimate that approximately 25,000 individuals remain
in Mexico who may arrive in the United States for the completion of their removal proceedings.
This number, however, could fluctuate based on the number of individuals who, for instance, have
decided not to arrive in the United States for their hearing but instead remain in Mexico.
5.If this injunction is left in place and CBP is required to process this approximately 25,000 people,
this would place an enormous strain on CBP. It would take a significant number of hours to process
individuals into the United States. Moreover, individuals would have to be screened, for instance, to
determine whether there are urgent medical issues, whether all of the members of the family have
arrived together or if any of the children are unaccompanied alien children. The time necessary to
accomplish this processing would necessarily reduce CBP’s ability to effectively carry out its other
critical missions, such as protecting against national security threats, apprehending illicit materials
and ensuring efficient trade and travel.
6.Moreover, all of the individuals who are returning are subject to detention. Detention of those
processed in MPP, who are currently in Mexico, would place enormous strain on CBP. CBP,
together with its partners at DHS, would have to ensure that there is sufficient bed space to detain all
of these individuals. This is in addition to the average number of individuals CBP is already
apprehending or encountering in any given day, which could be approximately 1,300 aliens.

Case: 19-15716, 02/28/2020, ID: 11613700, DktEntry: 92-2, Page 3 of 4
136a

(16 of 19)

7.Moreover, CBP facilities are not generally designed for long-term detention, and CBP generally
endeavors to move individuals out of its custody as expeditiously as possible, particularly children,
so that they can be transferred to locations more appropriate for such detention. Any backlog in
ICE’s ability to accept transfers of custody from CBP is likely to lead to individuals remaining in
CBP custody for extended periods. Similarly, any limitation on ICE’s ability to accept transfers of
custody is likely to lead to overcrowding in CBP facilities, which leads to a corresponding risk of
individuals getting sick in our custody and facing other harms to their health and safety. Any such
overcrowding would also pose a serious safety risk to CBP’s own employees.
8.Currently CBP operates a limited number of temporary facilities in addition to its ports of entry and
Border Patrol stations. Those temporary facilities are extremely costly. One month for a facility
designed to house 500 individuals costs approximately $ 2.8 million. A larger facility for just 2,000
individuals costs approximately $ 10 million per month. CBP does not currently have facilities for
all 20,000 additional individuals and, in my experience, ICE does not have sufficient space for all
such individuals. As a result, housing the approximately 25,000 in CBP facilities would be
extremely costly.
9. The concern that individuals will arrive at ports of entry is not speculative. In the hours shortly after
the Ninth Circuit’s decision issued, counsel for aliens immediately started to contact CBP
demanding entry for their clients. Indeed, one counsel demanded that they be permitted immediately
to bring over 1,000 individuals to a bridge at a southern border port of entry. Immediate and
significant numbers of individuals entering may also exceed CBP’s capacity to screen people for
serious medical concerns. This is particularly concerning given the current outbreak of the
coronavirus.

Case: 19-15716, 02/28/2020, ID: 11613700, DktEntry: 92-2, Page 4 of 4
137a

I declare that the foregoing is true and correct to the best of my knowledge, information, and
belief.

Executed this

_:jg_ day of February, 2020.

uty ommiss
u.S. Customs an

4

(17 of 19)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 1 of 8
138a

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTII CIRCUIT

Chad F. Wolf, et al.,
Applicants,

)
)

)
)

V.

Innovation Law Lab, et al.,
Respondents.

)
)

No. 19-15716

)

_____________)
DECLARATION OF ROBERT E. PEREZ
I, Robert E. Perez, pursuant to 28 U.S.C. § 1746, and based upon my personal knowledge
and information made known to me in the course of my employment, hereby make the following
declaration with respect to the above-captioned matter:
1.

This declaration is being submitted to supplement the declaration submitted before this
Court on February 28, 2020, in support of the Government's Emergency Motion under
Circuit Rule 27-3 for an Immediate Stay Pending Disposition of a Petition for Certiorari or
an Immediate Administrative Stay in Innovation Law Lab v. Wo(f; No. 19-15716.

2.

As the Deputy Commissioner of U.S. Customs and Border Protection (CBP), and the
agency' s senior career official, my primary focus is working closely with the
Commissioner to ensure that CB P's mission of protecting our Nation's borders from
terrorists and terrorist weapons is carried out effectively in partnership with other Federal,
state, local, and foreign entities. Other top CBP priorities for which I am responsible
include securing and facilitating legitimate global trade and travel. keeping illegal drugs

(15 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 2 of 8
139a

and illegal aliens from crossing our borders, and protecting our Nation ' s food supply and
agriculture industry from pests and disease.
3.

I am familiar with the Ninth Circuit' s February 28, 2020 order in Innovation Law Lab v.

Wo((, No. 19-157 I 6. lifting the stay imposed by a motions panel of the Ninth Circuit and
affirming the decision of the district court to issue a preliminary injunction setting aside the
Migrant Protection Protocols (MPP). I previously advised of the injunction's significant
implementation concerns for CBP. As noted below in some of the reporting available to
CBP regarding the events of February 28-29, 2020, those concerns began to be realized
quickly after the issuance of the Ninth Circuit's decision.
4.

The temporary suspension of port operations in certain locations became necessary to
ensure the safety of the traveling public and port employees and maintain the integrity of
border security operations. Shortly after the issuance of the Ninth Circuit's ruling,
attorneys were contacting the ports and other CBP offices, demanding that their clients be
permitted to present themselves at the port of entry and to enter the United States. Indeed,
one attorney demanded to be permitted immediately to bring over 1,000 individuals to a
bridge at the Brownsville port of entry.

5.

By the afternoon of February 28, 2020, about I 00 migrants were gathered on the Mexican
side of the border at the Brownsville. Texas Port of Entry at the Gateway International
Bridge. Attorneys showed up at the Gateway International Bridge to advise CBP personnel
that MPP had been enjoined and demanded that their clients be paroled into the United
States. Later that evening, additional CBP personnel and local law enforcement responded
to the Brownsville Port of Entry due to large groups of migrants and attorneys gathering on
the Gateway International Bridge in Brownsville to provide additional security at the Port

2

(16 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 3 of 8
140a

of Entry while standing by to deploy in the event of a surge. Specifically, the OFO Special
Response Team (SRT) was activated, and the OFO Mobile Field Force (MFF) was
assembled and made ready. Also, ten Border Patrol Agents (BPAs) and one Supervisory
BPA were pulled from line-watch operations in the Brownsville are of responsibility and
redeployed to support Port operations. Mexican authorities were notified and worked to
remove the mass gathering from the bridge. By midnight EST on Saturday, February 29,
2020, it was communicated to CBP that all but about 35 migrants had returned to the
shelter.
6.

Notably. based on information available to CBP, there arc currently about 2.200 people
waiting at campsites on the Mexican side of the Gateway International Bridge. To the best
ofCBP's knowledge, approximately 1,400 of those aliens have been processed pursuant to
MPP and are pending hearings in immigration court. While not all of the approximately
2,200 individuals are pending removal proceedings after being processed pursuant to MPP,
a large group is about 50 yards from the border crossing point at the Gateway International
Bridge. In addition to the aliens within immediate proximity to the border at the campsite,
there are MPP-processed aliens housed at a shelter approximately five miles from the
Gateway International Bridge. If there was a surge of this group based on an injunction
applicable to MPP, it would hinder the port's ability to fulfill CBP's priority missions,
particularly when detention capacity at the Gateway International Bridge is only 15
individuals.

7.

On February 28 , 2020, in El Paso, Texas, approximately 250-350 Cuban nationals
assembled on the Mexican side of the bridge at the Paso Del Norte (PON) border crossing.
Mexican authorities were also contacted to attempt to disperse the group. Additional

3

(17 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 4 of 8
141a

Office of Field Operations (OFO), Border Patrol, Air and Marine Operations and state and
local law enforcement were deployed to El Paso PON to support port personnel in securing
the port. Specifically, the OFO SRT was activated. and the OFO MFF was assembled and
made ready. The Mexican side of the bridge was cleared of vehicle and pedestrian traffic;
however, the migrant group remained on the Mexican side of the bridge. The El Paso
Police Department posted police officers north of the POE to provide additional security.
CBP Officers assigned to the Paso Del Norte Border Crossing reported the group of
migrants had dispersed and departed the area. On the morning of February 29, following
port closure of about nine hours, operations resumed at PON, and the SRT and M FF were
demobilized.
8.

Moreover, during an approximate 12-hour timeframe. there were a total of 32
apprehensions of aliens crossing between the ports in the El Paso area. 28 of which had
been previously processed for MPP. Thus. the anticipated surge of such migrants was not
limited to the Ports of Entry but was realized between the Ports of Entry as well.

9.

The Hidalgo, Texas area also reported large groups of migrants gathering to arrive from
Mexico. The Tlidalgo POE reported approximately 25 Cuban nationals approaching the
Hidalgo International Bridge. Due to safety concerns to the traveling public, CBP Officers
temporarily halted both northbound and southboun<l vehicular and pedestrian traffic by
6:00 pm. Although all northbound and southbound traffic rcsumeJ by 7:15 pm EST, MFF
officers deployed to secure the port. Shortly thereafter, by 7:30 pm EST, an additional
group of Cuban nationals arrived at the border crossing point resulting in traffic being
halted once again. All northbound and southbound traffic resumed again by 8:00 pm EST.
By 9:30 pm EST, the group of migrants grew to approximately 200 individuals. Border

4

(18 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 5 of 8
142a

Patrol provided additional personnel to assist at the POE. After coordinating with
Government of Mexico officials, the Hidalgo Port Director agreed to explain the status of
Port operations to a small group of representatives of the larger migrant group. The group
had been informed by their attorneys that MPP was no longer in effect, and they should
report to the Port of Entry to be processed and should be allowed to enter the United States.
The Port Director clarified the status of Port operations as they related to MPP, and by
midnight EST on February 29, the large group of Cuban nationals dispersed. Ports then
resumed normal operations.
I 0.

In making operational decisions related to the Hidalgo POE, Port management must be
mindful of the population in Mexico that may rush to the border. especially when 25 aliens
had already gathered shortly after the issuance of a decision enjoining a significant
program. Per information currently available to CBP, there are about 1.400 individuals
residing in the community surrounding the shelter, and most have been processed for MPP.
In addition to those residing in the area surrounding the shelter, CBP understands that there
are about 300 individuals inside the shelter that are waiting to make entry into the United
States.

11.

The Laredo, Texas POE reported large groups of migrants gathering to arrive from Mexico.
At approximately 6:50 pm EST on February 28, the Laredo POE received reports of
migrants leaving shelters in Nuevo Laredo, Tamaulipas, Mexico with the intent of making
entry through the Lincoln Juarez and Gateway to the Americas bridges in Laredo. MFF
Officers were placed on standby at the Lincoln Juarez and Gateway to the Americas
bridges. Additional officers were deployed to the border crossing points. Border Patrol
and Laredo Police Department provided personnel to supplement operations at the POE.

5

(19 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 6 of 8
143a

Admissibility processing was temporarily suspended. Mexican authorities assisted with the
influx of migrants on the Mexican side of the Gateway to the Americas Bridge, which led
to the migrants being dispersed by the early morning hours of February 29.
12.

At this time, there are approximately 2,000 aliens who have been processed pursuant to
MPP, returned through the Laredo Port of Entry. At any given time, it is my understanding
that there are approximately 200-300 individuals spread throughout the seven shelters in
Nuevo Laredo who have been processed for MPP or otherwise expected to be seeking
admission into the United States. Mexican officials have also advised that there are other
aliens that stay in hotels throughout the Nuevo Laredo area, but that number is unknown at
this time.

13.

The Nogales, Arizona Port of Entry also reported large groups of migrants gathering to
arrive from Mexico, but port closure was not determined to be operationally necessary.
The San Ysidro Port of Entry reported approximately 50 migrants gathered in Tijuana, but
held back by Mexican immigration officials.

14.

Within hours of the issuance of the Ninth Circuit's decision, mass gatherings on the
Mexican side of the border were determined to be a safety risk to the traveling public and
CBP personnel, and operational decisions were made to temporarily suspend port
operations in certain locations. While it is difficult to know with certainty what may have
occurred had the Ninth Circuit not granted a temporary stay of its decision, it is likely that
the number of migrants gathered at the border, whether at or between the ports of entry,
could have increased dramatically. This could have included not only the approximately
25 ,000 individuals currently waiting in Mexico for removal proceedings who may arrive in

6

(20 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 7 of 8
144a

the United States from Mexico and request immediate admission, but also others in Mexico
that have become aware of CB P's operational limitations and seek to exploit them.
15.

During the short period of time that the injunction was operative on February 28, the ability
of CSP law enforcement officers and agents to protect against national security threats and
interdict illicit materials was undoubtedly and negatively impacted. For example, Border
Patrol assets were redeployed and redirected to Ports of Entry to address the large groups
forming. The diversion of manpower and aerial assets to support response to these events
adversely impacted the ability for Border Patrol to safeguard the border between the ports
of entry and created a vulnerability in these areas. At Ports of Entry, response to these
events diverted resources from other priority missions. including performance of secondary
inspections of high-risk conveyances and travelers, and facilitation of lawful trade and
travel. These gaps in coverage for CBP law enforcement agents and officers covering such
surges increase the likelihood of successful smuggling events and pose a national security
risk at the border that is frequently exploited by organized transnational criminal activity.
For Border Patrol in particular, these gaps in coverage also create an officer safety issue
because agents that remain performing their primary function of patrolling the border
continue to do so in isolated areas with less agents to provide back-up in response to high
risk arrests/incidents.

7

(21 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-2, Page 8 of 8
145a

I declare that the foregoing is true and correct to the best of my knowledge, information,
and belief.
Executed this third day of March, 2020.

Deputy Commis ·oner
U.S. Customs d Border Pr tection

8

(22 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-4, Page 1 of 4
146a

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Chad F. Wolf, et al. ,

)
)

Applicants,

)
V.

)
)

Innovation Law Lab, et al.,

)

Respondents.

)

No. 19-15716

)

DECLARATION OF VALERIE S. BOYD
I, Valerie S. Boyd, pursuant to 28 U.S.C. § 1746, and based upon my personal knowledge
and information made known to me in the course of my employment, hereby make the following
declaration with respect to the above-captioned matter:

I.

I am currently the Assistant Secretary for International Affairs for the U.S. Department of
Homeland Security. I have been employed in this role since November 2019. I
previously served as the Acting Deputy Chief of Staff, where I oversaw policies related to
immigration, border security, trade, and international partnerships. Prior to that position, I
was Deputy Chief of Staff for Policy for U.S. Customs and Border Protection, where I
managed numerous security and humanitarian initiatives.

2.

In my current position, I oversee the Department' s international engagement and serve as a
principal advisor to the Secretary in all matters pertaining to international affairs. I have
participated in negotiations with the Government of Mexico since January 2019 and
currently supervise the Mexican Affairs team that regularly communicates with the

(30 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-4, Page 2 of 4
147a

Government of Mexico, OHS Components, and U.S. Government agencies on matters
related to Mexico and the U.S. Southwest Border.
3.

I am familiar with the Ninth Circuit's February 28, 2020 order in Innovation Law Lab v.
Wolf, No. 19-15716, lifting the stay imposed by a motions panel of the Ninth Circuit and

affirming the decision of the district court to issue a preliminary injunction setting aside the
Migrant Protection Protocols (MPP). Although the Ninth Circuit's injunction currently is
temporarily stayed pending further briefing, this injunction, should it be reinstated, will
have significant adverse impact on diplomatic engagements with foreign countries,
specifically with the Government of Mexico.
4.

The suspension of MPP undermines almost two years' worth of diplomatic engagement
with the Government of Mexico through which a coordinated and cohesive immigration
control program has been developed. This has two broad implications: (1) it puts at risk the
collaborative framework that has been built to both address irregular migrant flows
transiting Mexico and to process migrants who arrive at the U.S.-Mexico border; and (2) it
calls into question the United States' ability to build and uphold international migration
management partnerships. Each of these rely on reciprocal agreements for each side to
uphold, which could unravel if one side no longer upholds its agreements and result in a
drastic increase in irregular migration to the United States.

5.

The Mexican government has endured significant domestic criticism because of its
involvement in MPP, which is fundamentally an effort to jointly manage activities at our
shared border. If MPP remains enjoined, the effort the Mexican government expended to
engage with the U.S. government on MPP will have failed to yield results in our countries'
joint efforts to enforce our respective laws along the Southwest Border. In addition,

2

(31 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-4, Page 3 of 4
148a

Mexico may be much more reticent to work with us in the future to jointly manage
migration, security, trade and infrastructure matters to produce cohesive, binational
outcomes.
6.

In May 2019, DHS faced a historic monthly high of 144,116 encounters with aliens seeking
to enter the United States illegally or without proper documentation at the Southwest
Border. This massive flow of irregular migration through Mexico strained our relationship
with Mexico and neighboring countries, because DHS personnel were pulled from their
critical security mission to provide humanitarian assistance to families and children in
custody.

7.

MPP was a carefully negotiated solution with the Government of Mexico. And through
that solution, Mexico and the United States now share more of an equal respective burden,
while more effectively using our limited resources. The injunction reverses that
understanding, forcing the United States to shift more resources to dealing with illegal
immigration which will necessarily impact our ability to assist Mexico in their security and
development needs.

8.

Part of the United States' regional framework is contingent upon the United States doing its
part to minimize the impact of unintended consequences in U.S. immigration law that
entice irregular migrants to put themselves in the hands of dangerous smuggling
organizations as they transit to the United States. MPP breaks traditional smuggling
patterns by discouraging non-meritorious protection claims at the Southwest Border,
thereby reducing pull factors to the United States. If the United States is unable to bear its
share of the burden, then the United States' ability to ask other countries to bear their share
of the burden becomes untenable. The new enforcement gap that would likely result in

3

(32 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-4, Page 4 of 4
149a

increased migrant flow arriving in the coming months at the U.S.-Mexico border which
would have severe reverberations in areas like anti-transnational crime efforts and trade
and travel facilitation efforts. In addition, increased emigration flows from Mexico and
Central America would damage the home-countries' economic viability with the loss of
their youth and vitality.

I declare that the foregoing is true and correct to the best of my knowledge, information, and
belief.
Executed this 3rd day of March, 2020.

Valerie S. Boyd
Assistant Secretary for International Affairs
U.S. Department of Homeland Security

4

(33 of 33)

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 1 of 7
150a

(23 of 33)

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INNOVATION LAW LAB, et al.,
Plaintiffs-Appellees,

)

v.
CHAD F. WOLF, et al.,

)
)
)
)
)

Defendants-Appellants.

No. 19-15716

)
)
)

DECLARATION OF ENRIQUE M. LUCERO
I, Enrique M. Lucero, declare the following under 28 U.S.C. § 1746, and state that under
penalty of perjury the following is true and correct to the best of my knowledge and belief:

I.

Personal Background

1. I am currently employed with the U.S. Department of Homeland Security (DHS), U.S.
Immigration and Customs Enforcement (ICE), as the Executive Associate Director for
Enforcement and Removal Operations (ERO). I have held this position since February 2020.
2. As the Executive Associate Director, I manage ICE ERO's enforcement initiatives and
components through which ERO identifies, arrests, and detains removable aliens where
appropriate, and removes from the United States aliens subject to final orders of removal. I
also lead ERO in its mission to remove aliens who present a danger to national security or risk
to public safety, as well as those who enter the United States illegally or otherwise undermine
the integrity of our immigration laws and our border control efforts. In this role, I am
responsible for an annual operating budget of approximately $4.4 billion and lead more than
7,600 employees assigned to 24 ERO field offices, 188 sub-offices, and 24 overseas locations.

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 2 of 7
151a

(24 of 33)

3. I started my federal career in 1993, serving as an enlisted soldier in the U.S. Army, and have
since performed more than two decades of federal law enforcement service. I began my
federal law enforcement career in 1997 as a Border Patrol Agent for the former U.S.
Immigration and Naturalization Service (INS), later serving as a Senior Patrol Agent. In
2002, I transitioned to the INS Office of Investigations, serving as a Special Agent. In 2003,
after the creation ofDHS and ICE, I served as a Senior Special Agent with the ICE Office of
Investigations (now Homeland Security Investigations (HSI)). In 2007, I served as a National
Program Manager for the Human Smuggling and Trafficking Unit. Since transitioning to
ERO in 2008, I have held a number of key leadership positions, including: Acting Deputy
Executive Associate Director, Assistant Director for Field Operations, Field Office Director
for the Phoenix, San Antonio, and Washington Field Offices, Deputy Assistant Director for
the Headquarters Compliance Enforcement Division, and Unit Chief for the ERO Criminal
Alien Program Operations Unit.
II.

Overview of ERO

4. Following the enactment of the Homeland Security Act of 2002, ICE was created from
elements of several legacy agencies, including the former INS and U.S. Customs Service.
ICE is the principal investigative arm of DHS, and its primary mission is to promote
homeland security and public safety through the criminal and civil enforcement of federal
laws governing border control, customs, trade and immigration. ERO and HSI are the two
law enforcement operating components of ICE. ERO oversees programs and conducts
operations to identify and apprehend removable aliens, to detain these individuals when
necessary, and to remove aliens with final orders of removal from the United States. ERO
prioritizes the apprehension, arrest, and removal of aliens who pose a threat to national

2

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 3 of 7
152a

(25 of 33)

security, public safety, and border security. This includes convicted criminals, those who
pose a threat to national security, fugitives, recent border entrants, and aliens who thwart
immigration controls. ERO manages all logistical aspects of the removal process, including
domestic transportation, detention, alternatives to detention programs, bond management, and
supervised release, and removal to more than 170 countries around the world. ERO also
manages a non-detained alien docket of more than 3 .3 million cases, which is comprised of
aliens currently in removal proceedings and those who have already received removal orders
and are pending physical removal from the United States.
5. I am familiar with the February 28, 2020 decision by U.S. Court of Appeals for the Ninth
Circuit in Innovation Law Lab v. Wolf, No. 19-15716, lifting the stay imposed by a motions
panel of the Ninth Circuit and affirming the decision of the district court to issue a preliminary
injunction setting aside the Migrant Protection Protocols (MPP). I am also familiar with that
court's subsequent February 28, 2020 decision granting a temporary stay of the injunction
pending further order, with briefing to be completed by the close of business on Tuesday,
March 3, 2020. I submit this declaration to explain the significant impact that erosion of the
MPP would have on ERO operations. The information in this declaration is based on my
personal knowledge and experience as a law enforcement officer and on information provided
to me in my official capacity.

III.
6.

Potential Impact of February 28, 2020 Decision

Approximately 60,000 aliens have been returned to Mexico pursuant to MPP since January
2019. U.S. Customs and Border Protection (CBP), one ofICE's sister agencies within OHS,
estimates that, ifMPP is discontinued, approximately 25,000 individuals enrolled in MPP who
remain in Mexico may soon arrive in the United States seeking admission. Although I

3

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 4 of 7
153a

(26 of 33)

understand this number could fluctuate, if CBP is required to process approximately 25,000
inadmissible aliens in an extremely short timeframe and then transfer those aliens to ICE
custody, it would overload ERO's already burdened resources and create significant adverse
implications for public safety and the integrity of the United States immigration system.
7. First, ERO has finite civil immigration detention resources, particularly when considered in
light of the number of removable aliens on the agency's enforcement docket, where over 1.1
million of the 3 .3 million aliens on the non-detained docket have final orders of removal. In
Fiscal Year (FY) 2020, ERO is funded for an annualized average daily population (ADP) of
45,274 beds, including 2,500 family beds located in one ofICE's three Family Residential
Centers (FRCs). As of February 22, 2020, ICE's current ADP for FY 2020 year-to-date is
44,267, and its ADP for FRCs is 1,560. 1 Simply put, a rapid influx of as many as 25,000
additional aliens subject to potential detention would far exceed our current capacity. CBP
reports a current 21-day average of 1,289 apprehensions per day on the southwest border.
Through February 22, 2020, in FY 2020 ICE has booked-in an average of 410.6 aliens from
CBP per day, approximately one third of CBP' s total reported apprehensions. This marks a
dramatic decrease from FY 2019, when ICE booked-in an average of 1,024 aliens from CBP
per day. Although a variety of factors likely influenced the decrease, I believe the expansion
of MPP along the southwest border in the second half of FY 2019 had the greatest impact by
far in terms of bringing migration down to more manageable levels. Even if spread out over a
few days or weeks, the anticipated surge of aliens arriving at the border would overwhelm the
already burdened system beyond ICE's capacity to orderly manage. Even after the initial

1 At any given time approximately 14% of the total number of FRC beds is unusable. Family unit composition,
gender of the parent, and ages and gender of the children prescribe which families can be housed together. Due to
these variable housing configurations, some beds necessarily go unused.

4

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 5 of 7
154a

(27 of 33)

surge, discontinuing MPP would likely mark a return to higher book-in rates from CBP and
less available detention space for aliens apprehended in the interior, including aliens who are
arrested for committing crimes in the United States.
8. Second, ICE has limited resources to move detained aliens throughout the nationwide civil
immigration detention facility network. ERO maintains over 200 detention facilities located
in 47 states. In ~ormal conditions, ERO generally detains short-term cases (for example,
those who are detained pending credible fear interviews) near the border and transfers longerterm cases (for example, those who are detained for removal proceedings) into the interior.
Although the numbers fluctuate regularly, ERO currently has approximately 6,000 available
beds along the southwest border and 11,500 available beds in the interior. A sudden influx of
inadmissible aliens who are already in removal proceedings and subject to longer-term
detention would require significantly increased transportation of aliens into the interior. ERO
conducts routine domestic transfer and removal missions utilizing a Commercial Aviation
Services contract with an air charter provider commonly referred to as ICE Air. The ICE Air
contract provides 10 aircraft per day for domestic transfer and removal missions, each capable
of transporting up to 148 passengers. The average cost per flight in Fiscal Year (FY) 2019
was $62,924. Through February 22, 2020, the average cost per flight in FY 2020 has been
$63,595. If necessary, the contractor has surge capacity to increase the available aircraft from
10 to 12 with a minimum three-week advance notice. Adding two flights per day would result
in an annualized additional cost of $33,069,649.60. IflCE were forced to surge resources to
transport more than 20,000 individuals, five additional flights per day could be added at an
annualized additional cost of $84,497.961.60. ICE ERO presently lacks the funding necessary
to accommodate such a dramatic increase in transportation costs.

5

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 6 of 7
155a

(28 of 33)

9. Third, if these resource constraints forced ERO to parole an influx of aliens from custody,
ERO would be unable to ensure that they appear for their future immigration hearings and
appointments. A significant percentage of aliens placed into removal proceedings and not in
ERO custody fail to appear for their hearings or to report for removal from the United States
when so ordered. According to data from the Executive Office for Immigration Review,
89,919 in absentia removal orders were issued in FY 2019 for non-detained cases only. 2 As a
result, ERO is forced to dedicate resources to teams of officers assigned to investigate, locate,
and apprehend fugitive aliens who have disappeared into the interior of the United States.
Due to funding restrictions, currently ERO only has approximately 5,300 officers3 responsible
for all interior immigration enforcement nationwide. By comparison, the New York City
Police Department reports having approximately 36,000 officers. 4 ERO is also managing a
growing fugitive alien backlog, which surpassed 600,000 cases in January 2020.
Discontinuing MPP would require ERO to divert its already limited resources away from atlarge interior enforcement efforts to handle intake, processing, custody determinations, '1!1d ·
detention of increased numbers of aliens, further hindering its ability to manage or reduce ·the
fugitive alien backlog. One way that ERO works to ensure future appearances by remov~ble ·
aliens is through the Alternatives to Detention program (ATD), through which technology and
enhanced case management are used to monitor aliens' court appearances and compliance
with release conditions. As of February 22, 2020, 91 ,305 aliens were participants in ATD.
While ERO has expanded its use of ATD from approximately 23,000 participants in FY 2014

https://www. justice.gov/eoir/ftle/ 1243496/download
ERO estimates that as of October 2019, there were approximately 5,300 Deportation officers in its 24 Field Offices.
This figure does not include supervisory or headquarters personnel.
4
https://www I .nyc.gov/site/nypd/about/about-nypd/about-nypd-land ing.page
2

3

6

Case: 19-15716, 03/03/2020, ID: 11617160, DktEntry: 95-3, Page 7 of 7
156a

(29 of 33)

to 96,000 as of the end of FY 2019, this expansion has come with a number of challenges,
including high levels of absconders among recently enrolled family units. 5 ATD is not a
substitute for detention, but may complement immigration enforcement efforts by offering
increased supervision for a relatively small subset of eligible aliens who are not currently in
ICE detention. The program is not a viable option for addressing the magnitude of cases on
the growing non-detained docket, which now stands at more than 3 .3 million.
10. In order to conduct detention, transportation, and immigration enforcement case processing
activities for aliens who may no longer be subjected to MPP, ICE would need to reallocate
resources, particularly if a large influx of aliens arrives at the southern border simultaneously
in reaction to a court order setting aside MPP. For instance, ERO would need to divert
resources from ongoing interior immigration enforcement activities, including efforts to arrest
violent criminals and fugitives, to ensure a~equate staffing to process new arrivals. Indeed,
during the border surge crisis that MPP has helped to address, ERO detailed hundreds of its
officers to assist CBP in handling the influx. This was a major contributing factor to a 12percent decrease in ER(?'s administrative arrests of convicted criminals in FY 2019.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that to the best of my knowledge
the foregoing is true and correct.
Executed in Washington, D.C. on March 3, 2020.

Executive Associate Director
Office of Enforcement and Removal Operations
U.S. Immigration and Customs Enforcement

Even on ATD, many aliens abscond. For instance, the absconder rate for aliens who were apprehended as family
units and enrolled in ATD was 26.9 percent.

5

7

157a
IN THE SUPREME COURT OF TII E UNITED STATES
Chad F. Wolf, et al.,
Applicants,

)
)

)
)

V.

Innovation Law Lab, et al.,
Respondents.

)
)

No. 19A-

)
)

________)
DECLARATION OF RODN EY S. SCOTT
I, Rodney S. Scott, pursuant to 28 U.S.C. § 1746, and based upon my personal knowledge
and information made known to me in the course of my employment, hereby make the following
declaration with respect to the above-captioned matter:

I.

lam a 27-year veteran of and serve as the Chief of the U.S. Border Patrol (USBP), of

U.S. Customs and Border Protection. Prior to being the Chief of USBP, I was the Chief of the
San Diego Sector. That Sector (a term for the geographic demarcation of a particular area of
responsibility within USBP) includes approximately 60 linear miles of border shared with
Mexico and 931 miles of coastal border, with approximately 2,200 Border Patrol Agents. I have
also served in various other leadership positions in USBP, including Chief Patrol Agent of the El
Centro Sector; Deputy Chief Patrol Agent at San Diego Sector; Patrol Agent in Charge at the
Brown Field Station in San Diego Sector: Assistant Chief in CBP's Office of Anti-Terrorism in
Washington, D.C.; and Director/Division Chief for the Incident Management and Operations
Coordination Division at CBP Headquarters.
2.

In my position as the Chief of USBP. I am responsible for executing the missions of the

Department of Homeland Security (''OHS"), U.S. Customs and Border Protection ("CBP") and

158a
USBP. USBP is the primary federal law enforcement organization responsible for preventing the
entry of terrorists and their weapons and for preventing the illicit trafficking of people and
contraband between ports of entry. USBP has a workforce of over 21,000 personnel who patrol
more than 6,000 miles of the United States land borders. As Chief, 1 am also responsible for the
daily operations of USBP, including the development and implementation of all nationwide
policy decisions.
3.

I am familiar with the Ninth Circuit's February 28, 2020 order in Innovation Law Lab v.

Wolf, No. 19-15716, lifting the stay imposed by a motions panel of the Ninth Circuit and
affirming the decision of the district court to issue a preliminary injunction setting aside the
Migrant Protection Protocols (MPP), as well as the imposition of a stay of that order in the
evening of February 28, 2020. I am similarly familiar with the Ninth Circuit's subsequent March
4, 2020 order providing seven days to afford the Supreme Court the opportunity to review.
Should the Supreme Court not stay the injunction, beginning March 12. 2020, MPP will be
enjoined in the Ninth Circuit, namely, in Arizona and California. Should that occur, I expect
significant operational implications for CBP.
4.

As noted in the declaration of Deputy Commissioner Perez, it is a reasonable estimate

that approximately 25,000 individuals in MPP may return from Mexico to the United States for
the completion of their removal proceedings.
5.

Although the stay has not yet been lifted, my long experience in the U.S. Border Patrol,

particularly along the southern border, allows me to reasonably assess the consequences of
enjoining MPP in Arizona and California.
6.

If this injunction is left in place and CBP is required to process the approximately 25.000

individuals, this would place an enormous strain on CBP. It would take a significant number of

2

159a

hours to process individuals into the United States and would broadly increase the time in
custody for aliens in CBP facilities.
7.

The more limited scope of the Ninth Circuit' s order of March 4. 2020. does little to mitigate

the concerns that CBP simply docs not have adequate capacity for orderly processing of the 25 ,000
individuals who are waiting in Mexico. Individuals in more eastern areas would be incentivized to
shift westward, \-Vhich can be done in a matter of hours. to areas where MPP would no longer be in
effect. The Ninth Circuit ' s stay does not, for instance, prevent individuals who were processed for
MPP in El Paso , Texas from moving to Nogales, Arizona, and seeking reentry there. Nor does it
prevent individuals who were placed in MPP in another area from simply entering between the ports
of entry in California and Arizona, effectively circumventing the geographic limitations of the Ninth
Circuit' s order.
8.

With respect to individuals who are not already in MPP , they likely would travel to those

areas where MPP would be enjoined. For instance, indi viduals who are already in the area south
of Texas, may travel, or be moved by smuggling organizations, to Arizona and California.
9.

Moreover, migrants and smuggling organizations consistently select the path of least

resistance, that is, the area where aliens are most likely to be able to enter and be released into
the United States. This is true whether or not CBP, in the days remaining before the injunction
restricts MPP in Arizona and California, is able to develop processes and capacity, endeavoring
to ensure that individuals are, in fact. not released into the United States. In my experience,
smuggling organizations will route individuals into Arizona and California, telling them that they

will be able to enter and be released. The Ninth Circuit ' s order will, then. serve to draw
individuals with no lawful basis for entry to come to the United States with the perception that
they will be permitted to stay in Arizona and California.

3

160a
I 0.

This is not a speculative concern. OFO initially launched MPP at the San Ysidro Port of

Entry on January 28. 2019. Since that time, USBP has consistently apprehended individuals who
were previously placed in MPP, retumetl to Mexico, anti then sought to re-enter between the
ports of entry, and in different sectors where MPP was not yet in effect.
11.

USBP saw this pattern. for example, with individuals who are citizens and nationals of

Brazil. There was a noticeable and immediate shift in citizens of Brazil. as soon as they were
placed in MPP in a particular USBP Sector, to other Sectors where MPP was not yet in effect for
Brazilians. For instance, when the El Paso Sector began placing Brazilians in MPP in January
2020, the Yuma, El Centro, and San Diego Sectors, where Brazilians were not processed into
MPP, saw a nearly identical increase in the number of citizens of Brazil unlawfully entering the
United States.
12.

Individuals who are placed in MPP also have a recidivism rate (apprehension seeking to

enter illegally after being processed for MPP) of approximately 18%, which is significantly
higher than the overall recidivism rate in other contexts. Moreover. of individuals who are
citizens or nationals of Ecuador, approximately 40% of those that USBP places in MPP are
typically apprehended again seeking to re-enter the United States illegally. I expect these issues
to increase if individuals subject to MPP relocate to parts of the border where MPP is no longer
in effect.

4

161a

l declare that the foregoing is true and correct to the best of my knowledge. information.
and belief.
Executed this fifth day of March, 2020.

s:

Rodney Scott
Chief
U.S. Border Patrol
U.S. Customs and Border Protection

5

